<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Feinstein, Domenici, and Allard.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
            DEFENSE NUCLEAR NONPROLIFERATION

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. The hearing will come to order. We thank 
all of you for being here today.
    This is the Senate Appropriations Committee Subcommittee on 
Energy and Water Development. We are here to take testimony 
today of the National Nuclear Security Administration's fiscal 
year 2009 budget request for defense nuclear nonproliferation 
activities.
    Today we have two panels. First we will hear from Deputy 
Administrator Will Tobey. He will be the first witness. The 
second panel will consist of two prominent nonproliferation 
experts. Dr. Siegfried Hecker is co-director at the Center for 
International Security and Cooperation at Stanford University 
and Dr. Matthew Bunn, senior research associate, Project on 
Managing the Atom at the John F. Kennedy School of Government 
at Harvard University. I thank all three for taking time out of 
their schedules to be with us.
    The administration's budget request for the National 
Nuclear Security Administration's nonproliferation activities 
is $1.25 billion for fiscal year 2009. The request is $88 
million less than the new budget authority provided in fiscal 
year 2008, but it is $410 million less than the directed 
programmatic funding provided in the 2008 bill. If that sounds 
complicated, it is. The difference is due to the fact that in 
fiscal year 2008, we redirected the use of $322 million in 
prior year balances. This fact in some ways distorts the year-
to-year comparisons, but it is important to understand.
    Further, in fiscal year 2008, we moved funding for the MOX 
facility over to the nuclear energy account and funding for the 
pit disassembly and conversion facility to the weapons 
activities. All of this makes getting adequate comparisons 
very, very difficult. Regardless, it is safe to say that we 
should have greater funding for these activities if we have the 
resources to do so.
    In his written testimony today, Deputy Administrator Will 
Tobey says that the possibility that a rogue state or a 
terrorist will acquire nuclear or other weapons of mass 
destruction poses one of the most serious threats to the United 
States and to international security. President Bush has made 
the same point.
    Today, Dr. Hecker and Dr. Bunn will also indicate that the 
threat is real and that greater financial resources are needed 
to be committed to the NNSA nonproliferation activities.
    If there is a consensus about the threat of nuclear or 
other weapons of mass destruction, then the question is are we 
doing enough? Are we doing it well? What else should we be 
doing? Today we will review the budget request with the Deputy 
Administrator with those questions in mind.
    Dr. Hecker and Dr. Bunn will discuss the adequacy of the 
budget request, but we will also ask their views on an array of 
nonproliferation policy and diplomatic challenges facing us 
here today. I have reviewed their testimony and they will cover 
some of that in their testimony.
    North Korea, Iran, Syria are front-page reminders that 
proliferation concerns are real and immediate. And the 
questions arise as to whether the international community has 
the commitment and the appropriate means of dealing with 
countries which ignore international sentiment. Sanctions 
failed to stop India's development of a nuclear weapons 
program, and now we are considering nuclear cooperation 
agreements with that country. Agreements, I think, are unwise, 
by the way.
    The 2005 Nuclear Nonproliferation Treaty review conference 
was a failure. Some argue that the administration contributed 
to that failure. I will ask about that today.
    Renewed interest in civilian nuclear power use is on the 
rise around the world, and as we see in Iran, concern about 
enrichment capability has significant proliferation concerns 
regardless if it is claimed to be purely for civilian purposes.
    These are just a few of the very significant 
nonproliferation policy and diplomatic challenges facing our 
country.
    Obviously, the White House and the State Department drive 
the nonproliferation program policy, but NNSA provides the 
technical knowledge and capability to implement and verify.
    We have a lot to cover in this hearing, and I want to make 
one point about this issue of nonproliferation. I think we have 
tried to do well as a country focusing on this, but in many 
ways it has become an orphan to so many other programs that 
have greater priority. And yet, some day we may well look in 
the rear view mirror and have seen a nuclear weapon exploded in 
a major city in this world and wonder what we could have done 
differently to stop the proliferation of nuclear weapons. There 
is not much more we do that exceeds in importance than the 
determination of this country to be a leader in 
nonproliferation. Some of our policies confound me. Some of 
them worry me. Others I am pleased with. But I think the 
purpose of this hearing is to evaluate this issue of 
nonproliferation. Are we doing enough? What more should we be 
doing? Will we 5 and 10 years from now determine that we funded 
other things less important than this and short-funded this 
program? Let us hope not.
    At any rate, we appreciate all three witnesses being here 
today, and let me call on the ranking member, Senator Domenici.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman.
    I have always looked forward to this hearing because the 
issue of nuclear nonproliferation is near and dear to my heart 
and of such great importance to our national security.
    I am also pleased to welcome a former constituent, former 
Los Alamos Director Sig Hecker. Sig is an old and dear friend 
who I have relied on for advice for decades. I know that sounds 
funny--``decades''--because he is so young looking and it 
hardly seems like it could be decades, but it has been.
    Mr. Chairman, I strongly encourage you to seek Dr. Hecker's 
advice and wisdom on matters of nonproliferation just as I 
have, and I guarantee that you will not be sorry if you do 
that.
    Dr. Hecker, you have returned from your fifth trip to North 
Korea, as well as a recent trip to India. We look forward to 
hearing about your impressions of both countries.
    Mr. Tobey and Dr. Bunn, I also appreciate your attendance 
and look forward to discussions with you involving the 
challenge of nuclear proliferation and what our priorities 
should be in response.
    Mr. Chairman, I noted earlier that I have a strong passion 
for these accounts, and I believe that the United States must 
maintain its determination to keep the world's most dangerous 
weapons out of the hands of terrorists and the world's most 
dangerous regimes. This means doing more of what has been 
successful in the past and fixing known shortcomings. We cannot 
rely on luck to keep us safe. Preventing nuclear terrorism must 
remain a high priority. I have seen firsthand the challenges of 
reducing the enormous and sometimes poorly protected stockpile 
of the Soviet Union at the end of the cold war. Sig Hecker 
showed us many of those shortly after the cold war as they 
existed on the ground in places in the former Soviet Union.
    Since 1991 when the Soviet Union collapsed, our Nation has 
invested nearly $10 billion to lock up or destroy thousands of 
nuclear weapons and their delivery systems and hundreds of tons 
of nuclear material. The Department is now nearing completion 
of the security upgrades in Russia and the former Soviet 
republics. Just last week, one of the three remaining plutonium 
production reactors was shut down in Russia with U.S. 
assistance. In 2 years, we will complete the construction of 
coal plants in Russia necessary to enable the shutdown of two 
remaining production reactors.
    The completion of these projects coincides with the new 
phase of our relationship with Russia. Russia is the leading 
exporter of natural gas, second leading oil producer in the 
world behind Saudi Arabia. With oil prices over $100 per 
barrel, the Russian Government is no longer strapped for cash. 
This is a quite different situation than we initiated in the 
MPC&A program. Our cooperation should reflect this reality. We 
must pursue projects on the basis of shared benefits and shared 
contributions.
    Our major project of mutual benefit has been the blend-down 
of Russian highly enriched uranium. In 5 years, we will come to 
an end of the HEU purchase agreement. At that time, 500 metric 
tons of HEU from dismantled Russian weapons will have been 
eliminated, the equivalent of 20,000 warheads' worth of 
material. This weapons material is being turned into commercial 
nuclear fuel, and today supplies 50 percent of the U.S. reactor 
requirements. This program is considered by many to be the most 
successful nonproliferation program ever implemented.
    I believe we can and must do even more. When the HEU 
agreement ends in 2013, it is estimated that there will be 
hundreds of tons of excess HEU remaining in Russia. With the 
right commercial incentives, this can be an economic win for 
Russia and a security win for the world, just as the current 
agreement has been.
    I am somewhat frustrated with the Russian suspension 
agreement signed by the administration in February. It provides 
20 percent, Mr. Chairman, of the U.S. enrichment market, 
without any requirement for additional HEU down-blending, 
meaning they can sell to us without delivering any HEU, highly 
enriched uranium. That is what we should be talking about.
    I have legislation that I shared with you which will 
correct this problem. The legislation would provide Russia in 
excess of 25 percent of the U.S. market if it continues the 
down-blend of HEU. At its current rate of 30 tons per year, it 
does not blend down any additional HEU, and access will be 
limited to 15 percent of our market. This legislation provides 
a clear economic incentive for Russia to eliminate an 
additional 300 tons of HEU.
    Looking forward, we must do more to prevent states from 
acquiring nuclear weapons, and you are fully aware of that and 
I think we are in accord. We must also not allow the 
proliferative states like North Korea to help other states 
develop weapons, but it seems like there is little we can do. 
They are doing it. We find out while they are doing it or after 
they are doing it, and so goes the world.
    Addressing these issues will require sustained investment. 
I am not sure we are investing enough, but you and I have found 
that this budget is profoundly difficult and it is not getting 
any easier year by year.
    Thank you very much, Mr. Chairman.
    Senator Dorgan. Senator Domenici, thank you very much.
    Administrator Tobey, thank you very much for being with us, 
you may proceed and the statements that you and the other two 
witnesses provide today will be inserted into the record in 
full, and you may summarize. Thank you very much.

                     STATEMENT OF WILLIAM H. TOBEY

    Mr. Tobey. Chairman Dorgan, Senator Domenici, thank you for 
the opportunity to discuss the President's fiscal year 2009 
budget request for the National Nuclear Security 
Administration's Office of Defense Nuclear Nonproliferation.
    At what may be my last opportunity to speak before this 
subcommittee, I would particularly like to thank Senator 
Domenici for his leadership on nonproliferation. You have been 
a great champion of the NNSA, and we are all deeply 
appreciative of that.
    I would also like to recognize the men and women of the 
NNSA who work so hard to detect, secure, and dispose of 
dangerous nuclear material around the world. They have braved 
freezing conditions in Siberia, Hezbollah rocket attacks at 
Haifa, very difficult conditions at Yongbyon in North Korea, 
and through it all, they have never failed to accomplish their 
missions. And I feel honored to work with them.
    The fiscal year 2009 budget request for the Office of 
Defense Nuclear Nonproliferation totals $1.247 billion. This 
amount will allow us to continue our mission to detect, secure, 
and dispose of dangerous nuclear and radiological materials, 
strengthen the international nonproliferation partnerships, and 
meet evolving proliferation and international security threats.
    Specifically, this funding will advance our priorities to, 
one, enhance national capabilities to detect and interdict 
nuclear and radiological materials at key seaports and border 
crossings; two, reduce and eliminate stores of highly enriched 
uranium, weapon-grade plutonium, and vulnerable radiological 
materials across the globe; and three, work to ensure the 
sustainability of nuclear security upgrades in Russia and the 
international nonproliferation system.
    As was recognized, last week we announced the shutdown of a 
plutonium production reactor at Seversk, something that we have 
been working with the Russians on for years now, and this is an 
important achievement and shows tangible results in our 
efforts.
    We recognize that the best way to reduce the threat of 
proliferation or terrorist acquisition of nuclear weapons or 
devices is by denying them access to the necessary nuclear and 
radiological materials in the first place. To that end, our 
fiscal year 2009 request will allow us to accelerate our work, 
including installation of radiation detection systems at nine 
additional ports under our Megaports program for a total of 32 
Megaport sites worldwide, helping to secure 49 border crossings 
and other high-risk points of entry under our Second Line of 
Defense Program and expanding export control and commodity 
identification training activities with more than 50 countries.
    Additionally, in fiscal year 2009, we will undertake a new 
initiative to strengthen international safeguards to prevent 
the diversion of nuclear material from peaceful uses. This Next 
Generation Safeguards Initiative will develop the safeguards 
technologies and human resources needed to sustain our 
nonproliferation efforts while promoting international 
partnerships and meeting the challenges of growing nuclear 
energy demand.
    Underpinning all these efforts is our nonproliferation 
research and development work through which we will continue 
our leadership as the principal Federal sponsor of long-term 
proliferation-related R&D on nuclear detection and 
characterization.
    Our fiscal year 2009 request will allow us to accelerate 
our efforts under the Global Threat Reduction Initiative to 
convert HEU-fueled research reactors around the globe to the 
use of less proliferation-sensitive, low enriched uranium. We 
will also continue to repatriate U.S.- and Russian-origin 
highly enriched uranium to secure sites, secure high priority 
nuclear and radiological sites globally, and secure and remove 
orphan radiological sources that could be used in dirty bombs. 
To date, we have removed enough nuclear material for nearly 70 
nuclear weapons and secured more than enough radiological 
sources for over 8,000 dirty bombs. In fiscal year 2009, we 
will convert an additional 8 HEU reactors to LEU, remove an 
additional 700 kilograms of HEU, and secure an additional 125 
radiological sites across the globe.
    Last year I updated you on our progress under the 2005 
Bratislava joint statement on nuclear security in which we have 
partnered with Russia to secure its nuclear weapons and sites 
of highest concern. I am pleased to report that we have 
completed 85 percent of these upgrades to date and are on track 
to complete our work under the Bratislava Agreement by the end 
of calendar year 2008. In fiscal year 2009, should Congress 
grant our request for resources, our focus will be on 
completing additional high priority security work beyond the 
Bratislava Agreement.
    Additionally, our fiscal year 2009 budget request also 
includes funding to ensure the shutdown of the last remaining 
Russian plutonium production reactor by 2010, which will 
prevent the production of about one-half ton of weapons-grade 
plutonium annually. We will continue our efforts to facilitate 
Russia's commitment to dispose of 34 metric tons of surplus 
Russian weapons-grade plutonium and to disposition excess 
Russian and U.S. highly enriched uranium.
    Just last week, we were pleased to announce that the United 
States and Russia have eliminated 10 metric tons of Russian 
weapons-usable nuclear material. This material, equivalent to 
400 nuclear weapons, was successfully converted by down-
blending highly enriched uranium to low enriched uranium under 
a joint U.S.-Russian program. These material security efforts 
enhance our work to strengthen the nonproliferation regime and 
the multilateral partnerships supporting it.
    In this regard, we will continue to support the work plan 
of the Global Initiative to Combat Nuclear Terrorism and to 
advance the objectives of the United Nations Security Council 
resolution 1540, which mandate effective export controls, 
criminalize proliferation of WMD by non-state actors, and 
require states to secure proliferation-sensitive materials.
    We will likewise continue our technical and diplomatic 
support of U.S. efforts on the Nuclear Nonproliferation Treaty 
within the Nuclear Suppliers Group and on multilateral 
initiatives such as international fuel assurances and 
disablement of North Korean nuclear facilities. We recognize 
that just as today's proliferation and terrorism threats are 
global in scope, so too must be the responses we undertake to 
address them.
    I am mindful of the comments that were made at the outset 
of the hearing about the importance and urgency of our work. I 
would note that we have worked hard to accelerate our efforts 
across the board, including accelerating the conversion of 
reactors from highly enriched uranium to low enriched uranium, 
increasing nuclear material security under the Bratislava 
Initiative which advanced the completion of work in Russia by 
about 2 years, signing an agreement with Russia on the Second 
Line of Defense Program which advanced the completion of 
securing Russia's borders by about 6 years, and in fact, even 
advancing our work under the elimination of weapons-grade 
plutonium production reactors such that we have shut down one 
of the reactors months early and we are still optimistic that 
we can shut down the last remaining reactor perhaps even a year 
early.
    I am also quite mindful of the need, given the importance 
of our work, of listening to others about this work. I have 
appreciated the advice that we have gotten from this committee, 
both members and staff. We have worked hard to try and take it 
into account as we proceeded with our work.

                           PREPARED STATEMENT

    I am also grateful to the advice that we have received from 
the members of the second panel. Even before I had been 
confirmed, I sought the advice of other experts on what our job 
should be and how we should execute it, and frankly, the advice 
that I found most comprehensive and useful was that of Dr. 
Hecker. We also speak frequently with Dr. Bunn, and his advice 
and his report that he completes on securing the bomb has been 
helpful in setting forth our priorities. We have tried to 
reflect that, as well as our own thinking, in how we execute 
these programs and I am grateful for all of that help.
    Thank you.
    [The statement follows:]
                 Prepared Statement of William H. Tobey
    Thank you for the opportunity to discuss the President's fiscal 
year 2009 budget request for the National Nuclear Security 
Administration (NNSA). I want to thank all of the members for their 
strong support for our vital national security missions.
    In the 8th year of this administration, with the support of 
Congress, NNSA has achieved a level of stability that is required for 
accomplishing our long-term missions. Our fundamental national security 
responsibilities for the United States include:
  --Assuring the safety, security and reliability of the U.S. nuclear 
        weapons stockpile while at the same time considering options 
        for transforming the stockpile and the complex infrastructure 
        that supports it;
  --Reducing the threat posed by proliferation of nuclear weapons, 
        material and expertise; and
  --Providing reliable and safe nuclear reactor propulsion systems for 
        the U.S. Navy.
    NNSA is examining how to proceed into the future to address 
evolving national security needs in a manner that anticipates 
significant changes in how we manage our national security programs, 
our assets and our people. To that end, the fiscal year 2009 budget 
request for $9.1 billion, a decrease of $35 million from the fiscal 
year 2008 Consolidated Appropriations Act, supports NNSA's crucial 
national security mission. My testimony today will focus on NNSA's 
Defense Nuclear Nonproliferation budget request for fiscal year 2009.
                    defense nuclear nonproliferation
    The possibility that rogue states or terrorists might acquire 
nuclear and other weapons of mass destruction (WMD) and their related 
technologies, equipment and expertise, poses one of the most serious 
threats to the United States and international security. The continued 
pursuit of nuclear weapons by terrorists and states of concern 
underscores the urgency of NNSA's efforts to secure vulnerable nuclear 
weapons and weapons-usable nuclear material, to detect and interdict 
nuclear and radiological materials and WMD-related equipment, to halt 
the production of fissile material for weapons, to dispose of surplus 
weapons-usable material, and to contain the proliferation of WMD 
technical expertise. The fiscal year 2009 budget request will enable 
NNSA to continue these critical activities that support threat 
reduction initiatives vital to U.S. national security.
    Preventing access to nuclear weapons and fissile material has many 
dimensions. Our highest priority is to keep these dangerous materials 
out of the hands of the world's most dangerous actors. Absent access to 
a sufficient quantity of essential fissile materials, there can be no 
nuclear weapon. The most direct way to prevent acquisition of nuclear 
weapons is by denying access to fissile material. Historically, much of 
our materials security emphasis focused on Russia because that is where 
most of the poorly secured material was located. We have made 
remarkable progress cooperating with Russia to strengthen protection, 
control, and accounting of its nuclear weapons and materials. We 
recently completed security upgrades at 25 Russian Strategic Rocket 
Force sites and will meet our commitment to conclude agreed-to security 
upgrade activities at Russian nuclear sites by the end of this year, as 
provided for under the Bratislava Joint Statement signed by Presidents 
Bush and Putin. Although these direct upgrade efforts are largely 
drawing to a close after over a decade of work, we will continue 
security upgrade work at some sites added to our work scope after the 
Bratislava summit, and will continue to work cooperatively with Russia 
to ensure the long-term sustainability of the systems and procedures 
already implemented. We recently reached agreement with Russia on a 
sustainability plan that identifies the requirements for long-term 
Russian maintenance and infrastructure of security upgrades under our 
cooperative program.
    However, not all nuclear material of proliferation concern is 
located in Russia. We are also working with other partners to secure 
weapons-usable nuclear materials in other parts of the world, and to 
strengthen security at civil nuclear and radiological facilities. One 
area of particular concern is research reactors, which often use highly 
enriched uranium (HEU) fuel otherwise suitable for bombs. Our Global 
Threat Reduction Initiative (GTRI) converts research reactors around 
the world from HEU to low enriched uranium (LEU) fuel. The GTRI 
program, and its antecedents, have removed approximately 68 nuclear 
bombs' worth of highly enriched uranium and secured more than 600 
radiological sites around the world, collectively containing over 9 
million curies, enough radiation for approximately 8,500 dirty bombs. 
In the United States the GTRI program has removed over 16,000 at-risk 
radiological sources, totaling more than 175,000 curies--enough for 
more than 370 dirty bombs.
    An additional nuclear security challenge concerns the effectiveness 
and credibility of international nuclear safeguards. Against the 
backdrop of growing nuclear energy demand, concerns over the diffusion 
of sensitive nuclear technologies, and the challenges posed by Iran and 
North Korea, international safeguards are coming under increasing 
strain. To address this challenge, NNSA has launched the Next 
Generation Safeguards Initiative (NGSI), which will ensure U.S. 
leadership and investment in our technologies and experts in the 
service of nuclear nonproliferation. Enhanced and revitalized 
international safeguards will also help ensure the sustainability of 
the gains made by our associated threat reduction efforts.
    Additionally, in fiscal year 2009, we will continue to lead the 
U.S. Government efforts to oversee the disablement and dismantlement of 
North Korea's nuclear program. However, in order to continue our 
support for these critical disablement and dismantlement activities, we 
will require a waiver of the Glenn Amendment restrictions that were 
triggered by North Korea's 2006 nuclear test, as well as more 
substantial funding. The Glenn Amendment prohibits the Department of 
Energy, which would otherwise fund denuclearization activities, from 
providing any financial assistance to North Korea. Without this waiver, 
the Department will be unable to complete Phase Three denuclearization 
activities. NNSA and the administration have been working to insert 
language into the fiscal year 2008 Iraq War Supplemental, or any other 
appropriate legislative vehicle, to provide such a waiver.
    We are also taking aggressive steps to interdict illicit transfers 
of weapons-usable nuclear materials and equipment, and to prevent 
dissemination of related sensitive nuclear technology via strengthened 
export controls and cooperation. We currently provide export control 
and commodity identification training to over 50 countries across the 
globe, in order to improve nations' capabilities to deter and interdict 
illicit WMD-related technology transfers. As an important complement to 
physical security improvements, the Second Line of Defense Program 
enhances our foreign partners' ability to interdict illicit trafficking 
in nuclear materials through the deployment of radiation detection 
systems at high-risk land-border crossings, airports and seaports. 
These efforts increase the likelihood of interdicting illicit nuclear 
materials entering or leaving the country. To date, 117 Russian border 
crossings have been equipped with radiation detection equipment under 
this program.
    As part of the Second Line of Defense, the Megaports Initiative, 
established in 2003, responds to concerns that terrorists could use the 
global maritime shipping network to smuggle fissile materials or 
warheads. By installing radiation detection systems at major seaports 
throughout the world, this initiative strengthens the detection and 
interdiction capabilities of our partner countries. At the end of 2007, 
the Megaports program was operational in 12 countries and being 
implemented at 17 additional ports. In addition, we continue to carry 
out nonproliferation research and development activities, developing, 
demonstrating and delivering novel nuclear material and nuclear 
detonation detection technologies for nonproliferation and homeland 
security applications.
    Since the end of the cold war, the Nation's adversaries have been 
quick to adapt to technological improvements. Staying ahead of the R&D 
curve is critically important to keeping our Nation safe and secure. As 
the principal Federal sponsor of long-term nuclear nonproliferation-
related research and development, NNSA focuses its R&D investments on 
leading-edge, early stage basic and applied R&D programs, including 
testing and evaluation, which lead to prototype development and 
improvements in nuclear detection and characterization systems. By 
concentrating on these key R&D components, NNSA helps strengthen the 
U.S. response to current and projected WMD threats.
    These critical steps are only part of a comprehensive 
nonproliferation program. In addition to these efforts to secure, 
detect, and interdict weapons-usable materials, we also work to 
eliminate weapons-usable material. Indeed, there remains enough fissile 
material in the world today for tens of thousands of weapons. An 
integral part of our strategy, therefore, has been to encourage other 
states to stop producing materials for nuclear weapons, as the United 
States itself did many years ago. For example, Russia still produces 
weapons-grade plutonium, not because it needs it for weapons, but 
because the reactors that produce it also supply heat and electricity 
to local communities. We are helping to replace these non-commercial 
style reactors with fossil fuel plants, thereby eliminating their 
production of plutonium. We had the goal this year of shutting down two 
of the remaining three plutonium-producing reactors in Russia 
permanently. Last week we announced the elimination of the production 
of nuclear weapons-grade plutonium at the Seversk site. This is a 
historic nonproliferation milestone. The third at Zheleznogorsk will 
shut down in December 2010, if not, as we hope, sooner.
    As previously indicated, there are a number of effective synergies 
between NNSA's defense activities and our nuclear nonproliferation 
objectives. For example, we are disposing of the substantial quantities 
of surplus weapons grade HEU that has resulted from the thousands of 
warheads we have dismantled, by downblending it to lower enrichment 
levels suitable for use in commercial reactors. This past February 
marked the 15th anniversary of the U.S.-Russia HEU Purchase Agreement--
one of the most successful nonproliferation programs ever conceived. 
Under the HEU Purchase Agreement, over 322 metric tons of uranium from 
Russia's dismantled nuclear weapons--enough material for more than 
12,000 nuclear weapons--has been downblended for use in commercial 
power reactors in the United States. Nuclear power generates 20 percent 
of all American electricity, and half of that is generated by fuel 
derived from Russian HEU. As a result, one-tenth of U.S. electricity is 
made possible by material removed from former Soviet nuclear weapons.
    Similarly, disposition of surplus U.S. HEU through downblending to 
low-enriched uranium has been proceeding for nearly a decade and 
progress is continuing. As of the end of December 2007, approximately 
92 metric tons of HEU, equivalent to over 3,500 nuclear weapons, have 
been downblended and converted to power or research reactor fuel, and 
an additional 13 metric tons have been delivered to disposition 
facilities for near-term downblending. This HEU disposition progress 
has already contributed substantially to nuclear material consolidation 
efforts in the Department of Energy complex, eliminating the necessity 
for high security storage at two sites, and greatly reducing it at 
several others.
    In addition to the efforts on HEU, the United States and Russia 
have each committed to dispose of 34 metric tons of surplus weapon-
grade plutonium. In November 2007, we signed a joint statement with 
Russia that represents a technically and financially credible plan to 
dispose of 34 metric tons of Russia's surplus plutonium in fast 
reactors. Under this approach, Russia will pay for the majority of 
costs and begin disposing of its surplus plutonium in the 2012 
timeframe. Last year, the Department of Energy began construction of a 
Mixed Oxide Fuel Fabrication Facility at the Savannah River Site. The 
facility originally planned to dispose of 34 metric tons of surplus 
weapon-grade plutonium by converting it into mixed oxide (MOX) fuel to 
be irradiated in commercial nuclear reactors, producing electricity and 
rendering the plutonium undesirable for weapons use. Last September, at 
the IAEA General Conference in Vienna, Secretary Bodman announced that 
an additional 9 metric tons of plutonium, enough to make approximately 
1,100 nuclear weapons would be removed from such use and eliminated by 
conversion to mixed oxide fuel. The MOX facility is a critical 
component of the Department's surplus plutonium consolidation efforts 
and is essential to the goal of transforming the complex.
    Our efforts at home are not enough, in and of themselves. We need 
cooperation from our international partners as well, and if we are to 
encourage responsible international actions, the United States must set 
the example. We have dramatically improved physical security of U.S. 
nuclear weapons and weapons-usable materials in the years since the 
September 11, attacks. We have made substantial reductions in our 
stockpile and made additional plutonium available for conversion into 
civilian reactor fuel. Additionally our Complex Transformation will 
further reduce the number of sites and locations where we store special 
nuclear materials, providing for improved security of these materials.
    The risk of nuclear terrorism is not limited to the United States. 
The success of our efforts to deny access to nuclear weapons and 
material is very much dependent on whether our foreign partners 
similarly recognize the threat and help us to combat it. To this end, 
we undertake efforts to strengthen the nonproliferation regime and 
expand international nonproliferation efforts. We continue to provide 
technical and policy support to U.S. efforts within the 
nonproliferation regime, including support to the Nuclear 
Nonproliferation Treaty, the Nuclear Suppliers Group, the International 
Atomic Energy Agency and a wide range of U.S. diplomatic initiatives, 
including the efforts in North Korea. We also have strengthened 
international collaboration and dialogue on nonproliferation efforts, 
including developing an international mechanism through which seven 
countries have pledged some $45 million in contributions to our 
nonproliferation programs.
    In July 2006, Presidents Bush and Putin announced the Global 
Initiative to Combat Nuclear Terrorism to strengthen cooperation 
worldwide on nuclear materials security and to prevent terrorist acts 
involving nuclear or radioactive substances. By the end of 2007, 64 
nations had joined this Global Initiative, and a number of subject 
matter expert conferences and training activities have been conducted. 
Most recently in December 2007, representatives from 15 nations 
participated in Global Initiative to Combat Nuclear Terrorism Radiation 
Emergency Response workshop held in China by the NNSA. Paired with U.N. 
Security Council Resolution 1540 and working closely with our overseas 
partners, we now have both the legal mandate and the practical means 
necessary for concrete actions to secure nuclear material against the 
threat of diversion.
          fiscal year 2009 budget request programmatic detail
    The President's fiscal year 2009 budget request for NNSA totals 
$9.1 billion, a decrease of $35.0 million or 0.4 percent less than the 
fiscal year 2008 Consolidated Appropriations level. We are managing our 
program activities within a disciplined 5-year budget and planning 
envelope, and are successfully balancing the administration's high 
priority initiatives to reduce global nuclear danger as well as future 
planning for the Nation's nuclear weapons complex within an overall 
modest growth rate.
    The NNSA budget justification contains information for 5 years as 
required by sec. 3253 of Public Law 106-065, the National Defense 
Authorization Act for Fiscal Year 2000. This section, entitled Future-
Years Nuclear Security Program, requires the Administrator to submit to 
Congress each year the estimated expenditures necessary to support the 
programs, projects and activities of the NNSA for a 5-year fiscal 
period, in a level of detail comparable to that contained in the 
budget.
    The fiscal year 2009-2020 13 Future Years Nuclear Security 
Program--FYNSP--projects $47.7 billion for NNSA programs though 2013. 
This is a decrease of about $2.3 billion over last year's projections. 
The fiscal year 2009 request is slightly smaller than last year's 
projection; however, the outyears increase starting in fiscal year 
2010.
Defense Nuclear Nonproliferation Budget Summary
    The Defense Nuclear Nonproliferation Program mission is to detect, 
prevent, and reverse the proliferation of weapons of mass destruction 
(WMD). Our nonproliferation programs address the threat that hostile 
nations or terrorist groups may acquire weapons-usable material, 
equipment or technology, or WMD capabilities. The administration's 
fiscal year 2009 request totals $1.247 billion for this program, 
reflecting a return to measured growth from the fiscal year 2007 
appropriation level, but a decrease from the final fiscal year 2008 
appropriation, which included a large Congressional plus-up over the 
President's request. The decrease also reflects Congressional action to 
transfer funding for some construction projects to other budget 
accounts, and the anticipated decrease of other major construction 
activities under the Elimination of Weapons Grade Plutonium Production 
Program in 2008, following completion of major elements of that 
program's work scope.
                   global threat reduction initiative
    The fiscal year 2009 request of $220 million for the Global Threat 
Reduction Initiative (GTRI) is an increase of $27 million over the 
fiscal year 2008 operating plan. This funding will support GTRI's 
mission to reduce and protect vulnerable nuclear and radiological 
materials at civilian sites worldwide by converting reactors from HEU 
to LEU, removing excess nuclear/radiological materials, and protecting 
high priority nuclear/radiological material from theft and sabotage. 
Specific increases in the GTRI budget reflect an acceleration of (1) 
Bratislava efforts to repatriate Russian-origin HEU and convert HEU 
reactors to LEU; (2) efforts to develop a new ultra-high density LEU 
fuel needed to convert 28 high performance reactors around the world; 
(3) the removal of nuclear materials not covered under other existing 
programs; and (4) security upgrades on high priority HEU and 
radioactive materials located in the United States.
           international material protection and cooperation
    NNSA's International Material Protection and Cooperation fiscal 
year 2009 budget request of $429.7 million represents a decrease of 
$194.8 million from the fiscal year 2008 appropriated level. This large 
decrease reflects: (1) the anticipated completion of major elements of 
nuclear security upgrade work performed under the Bratislava Agreement; 
(2) completion of the majority of nuclear security upgrades in 
countries outside of Russia; and (3) large Congressional increases for 
this work over the President's fiscal year 2008 budget request. During 
the past 15 years, the Material Protection Control and Accounting 
(MPC&A) program has secured 85 percent of Russian nuclear weapons sites 
of concern, and work is underway to complete this work by the end of 
fiscal year 2008. To maintain this progress, MPC&A and Rosatom have 
developed a new joint plan identifying elements required for Rosatom's 
long-term sustainability of U.S.-installed security enhancements. In 
fiscal year 2009, international material protection activities will 
focus on the continued enhancement of Russia's capability to operate 
and maintain U.S.-funded security improvements in the long-term. The 
MPC&A Program is also focused on reducing proliferation risks by 
converting Russian HEU to LEU and by consolidating weapons-usable 
nuclear material into fewer, more secure locations. In fiscal year 
2009, we will eliminate an additional 1.4 metric tons of Russian HEU 
for a cumulative total of 12.4 metric tons.
    Our Second Line of Defense (SLD) Program installs radiation 
detection equipment at key transit and border crossings, airports and 
major seaports to deter, detect and interdict illicit trafficking in 
nuclear and radioactive materials. The SLD Core Program, which installs 
radiation detection equipment at borders, airports, and strategic 
feeder ports, has equipped 117 sites in Russia. The United States and 
Russia have agreed to jointly fund work to equip all of Russia's border 
crossings with radiation detection equipment by the end of 2011, 6 
years ahead of schedule. The Core Program has also equipped 33 sites 
outside of Russia with radiation detection systems. The SLD Megaports 
Initiative has deployed radiation detection and cargo scanning 
equipment at 12 ports to date in the Netherlands, Greece, Bahamas, Sri 
Lanka, Singapore, Spain, the Philippines, Belgium, Honduras, Pakistan, 
the United Kingdom, and Israel. Various stages of implementation are 
underway at ports in 16 other locations.
    During fiscal year 2009, the SLD Core Program is planning to 
complete an additional 49 sites. The SLD Megaports Initiative plans to 
complete work at nine key ports in fiscal year 2009 in Israel, Jordan, 
Spain, Mexico, China, the United Arab Emirates, Saudi Arabia, Oman, and 
Taiwan. We will continue progress on separate ports in Spain and 
Mexico, and will initiate new work in fiscal year 2009 at ports in 
Argentina, Brazil, and Malaysia. The Megaports program is also pursuing 
outreach activities in northeastern Africa and other key regions of 
concern. Fiscal year 2009 funding will also support the procurement of 
Advanced Spectroscopic Portals (ASP) and mobile detection systems, 
including Mobile Radiation Detection & Identification Systems (MRDIS) 
and Radiation Detection Straddle Carriers (RDSC). The Megaports 
Initiative also works closely with the U.S. Department of Homeland 
Security's Bureau of U.S. Customs and Border Protection (CBP) by making 
technical resources available to complement the Container
    Security Initiative (CSI) and the Secure Freight Initiative (SFI) 
at international ports. Under SFI, all U.S.-bound containers are being 
scanned at three ports in Pakistan, Honduras, and the United Kingdom, 
fulfilling the 2006 SAFE Ports Act to couple non-intrusive imaging 
equipment and radiation detection equipment in order to demonstrate the 
effectiveness of 100 percent scanning of U.S.-bound containers. SLD 
Megaports has also partnered with CBP at four, limited capacity SFI 
locations in Hong Kong, Oman, Korea, and Singapore. The Megaports 
Initiative is installing radiation detection equipment at all CSI ports 
and has worked with CBP to pursue, where feasible, joint agreements 
with host nations to implement both the Megaports and SFI programs.
              nonproliferation and international security
    The Nonproliferation and International Security (NIS) mission is to 
prevent, mitigate, and reverse WMD proliferation by providing policy 
and technical support to strengthen international nonproliferation 
regimes, institutions, and arrangements; promote foreign compliance 
with nonproliferation norms and commitments; and eliminate or reduce 
proliferation programs and stockpiles. Major NIS strategic priorities 
in fiscal year 2009 include supporting the safe and secure expansion of 
nuclear energy use and disablement, dismantlement, and verification of 
nuclear programs in North Korea. NIS will also support the Next 
Generation Safeguards Initiative (NGSI) to strengthen international 
safeguards, revitalize the U.S. technical and human resource base that 
supports them, and develop the tools, approaches, and authorities 
needed by the International Atomic Energy Agency to fulfill its mandate 
far into the future.
    In fiscal year 2009, NIS also will confirm the permanent 
elimination from the Russian weapons stockpile of 30 metric tons of 
HEU; control the export of items and technology useful for WMD 
programs; continue an augmented export control cooperation program 
involving emerging suppliers and high-traffic transit states; break up 
proliferation networks and improve multilateral export control 
guidelines; develop and implement policy in support of global 
nonproliferation regimes; train 2,500 international and domestic 
experts in nonproliferation; provide technical expertise to the USG to 
support various WMD interdiction activities; develop and implement 
transparency measures to ensure that nuclear materials are secure; 
transition 300 Russian and FSU WMD experts to long-term private sector 
jobs; and make the preparations necessary for the USG's $50 million 
contribution to the International Atomic Energy Agency for the 
establishment of the International Nuclear Fuel Bank--an international 
effort to establish a back-up nuclear fuel supply for peaceful uses.
           elimination of weapons grade plutonium production
    Turning to programs that focus on halting the production of nuclear 
materials, the Elimination of Weapons Grade Plutonium Production 
(EWGPP) Program is working towards completing the permanent shutdown of 
the three remaining weapons-grade plutonium production reactors in 
Seversk and Zheleznogorsk, Russia. The fiscal year 2009 budget request 
of $141 million reflects a decrease of $38 million from the fiscal year 
2008 level due to the successful shutdown at Seversk last week. The 
budget profile provides the funding required to replace the heat and 
electricity these reactors would otherwise supply to local communities 
with energy generated by fossil fuel, permitting the Russians to 
permanently shut down these reactors. The reactor at Zheleznogorsk will 
be shut down by December 2010, if not sooner. This construction 
activity thus leads to the elimination of more than 1 metric ton of 
weapons-grade plutonium production per year.
                     fissile materials disposition
    The Fissile Materials Disposition program request for fiscal year 
2009 is $41.8 million. The program retains three principal elements: 
efforts to dispose of U.S. highly enriched uranium (HEU) declared 
surplus to defense needs primarily by down-blending it into low 
enriched uranium; technical analyses and support to negotiations 
involving the United States, Russia, and the International Atomic 
Energy Agency (IAEA) on monitoring and inspection procedures under the 
2000 U.S.-Russia plutonium disposition agreement; and limited support 
for the early disposition of Russia's plutonium in that country's BN-
600 fast reactor including U.S. technical support for work in Russia 
for disposition of Russian weapon-grade plutonium in fast reactors 
generally.
    The fiscal year 2008 Consolidated Appropriations Act (Public Law 
110-161) appropriated funding for the Mixed Oxide Fuel (MOX) 
Fabrication Facility Project in South Carolina in the Department of 
Energy's Office of Nuclear Energy account and funding for the related 
Pit Disassembly and Conversion Facility/Waste Solidification Building 
projects in the NNSA Weapons Activities account. These projects remain 
important components of the Nation's nuclear nonproliferation efforts. 
In total, the funding commitment to the Department of Energy's 
nonproliferation activities is $1.853 billion in 2009. The MOX project 
is a key component of the U.S. strategy for plutonium disposition. It 
is the centerpiece of a comprehensive approach for disposing of surplus 
weapons-usable plutonium by fabricating it into mixed-oxide fuel for 
irradiation in existing nuclear reactors. This meets key national 
security and nonproliferation objectives by converting the plutonium 
into forms not readily usable for weapons and supports efforts to 
consolidate nuclear materials throughout the weapons complex.
    In addition to its role in the disposition of excess nuclear 
materials at home, the U.S. views the MOX project as a key component of 
U.S. global nuclear nonproliferation efforts in which fissile material 
disposition is the final step in a balanced nuclear nonproliferation 
strategy aimed at employing measures necessary to detect, secure, and 
dispose of dangerous nuclear material. In 2007, the U.S. and Russian 
governments agreed on a framework for a technically and financially 
credible Russian plutonium disposition program based on the irradiation 
of plutonium as MOX fuel in fast reactors. When all required steps have 
taken for implementation, it will enable the United States and Russia 
to meet their commitments under a 2000 agreement to dispose of a 
combined total of 68 metric tons of surplus weapon-grade plutonium--
enough material for approximately over 8,000 nuclear weapons.
    This budget request also seeks funding to dispose of surplus U.S. 
HEU, including downblending 17.4 metric tons of HEU to establish the 
Reliable Fuel Supply, which would be available to countries with good 
nonproliferation credentials that face a disruption in supply that 
cannot be corrected through normal commercial means. This initiative 
marks an important first step creating a reliable nuclear fuel 
mechanism that could provide countries a strong incentive to refrain 
from acquiring their own enrichment and reprocessing capabilities.
       nonproliferation and verification research and development
    The fiscal year 2009 budget requests $275 million for 
Nonproliferation and Verification Research and Development. This effort 
encompasses two primary programs that make unique contributions to 
national security by conducting research and development into new 
technical capabilities to detect illicit foreign production, diversion 
or detonation of nuclear materials. The Proliferation Detection Program 
conducts research across a spectrum of technical disciplines that 
supports the NNSA mission, national and homeland security agencies and 
the counterterrorism community. Specifically, this program develops the 
tools, technologies, techniques, and expertise required for the 
identification, location, and analysis of facilities, materials, and 
processes of undeclared and proliferant nuclear programs. The Nuclear 
Detonation Detection Program produces the Nation's space-based 
operational sensors that monitor the entire planet to detect and report 
surface, atmospheric, or space nuclear detonations. This program also 
produces and updates regional geophysical datasets that enable and 
enhance operation of the Nation's seismic nuclear detonation detection 
network.
   appropriation and program summary tables--out-year appropriation 
             summary tables--fiscal year 2009 budget tables

                               NATIONAL NUCLEAR SECURITY ADMINISTRATION--OVERVIEW
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
                                   2007 Current    2008 Original       2008        2008 Current     Fiscal Year
                                  Appropriations   Appropriation    Adjustments    Appropriation   2009 Request
----------------------------------------------------------------------------------------------------------------
National Nuclear Security
 Administration:
    Office of the Administrator.         358,291         405,987          -3,850         402,137         404,081
    Weapons Activities..........       6,258,583       6,355,633         -58,167       6,297,466       6,618,079
    Defense Nuclear                    1,824,202       1,673,275         -15,279       1,657,996       1,247,048
     Nonproliferation...........
    Naval Reactors..............         781,800         781,800          -7,114         774,686         828,054
                                 -------------------------------------------------------------------------------
      Total, NNSA...............       9,222,876       9,216,695         -84,410       9,132,285       9,097,262
    Rescission of Prior Year      ..............        -322,000  ..............        -322,000  ..............
     Balances...................
                                 -------------------------------------------------------------------------------
      Total, NNSA (OMB Scoring).       9,222,876       8,894,695         -84,410       8,810,285       9,097,262
----------------------------------------------------------------------------------------------------------------


               OUT-YEAR APPROPRIATION SUMMARY--NNSA FUTURE-YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
                                       2009            2010            2011            2012            2013
----------------------------------------------------------------------------------------------------------------
NNSA:
    Office of the Administrator.         404,081         419,848         436,266         451,771         469,173
    Weapons Activities..........       6,618,079       6,985,695       7,197,844       7,286,912       7,460,318
    Defense Nuclear                    1,247,048       1,082,680       1,076,578       1,111,337       1,133,982
     Nonproliferation...........
    Naval Reactors..............         828,054         848,641         869,755         880,418         899,838
                                 -------------------------------------------------------------------------------
      Total, NNSA...............       9,097,262       9,336,864       9,580,443       9,730,438       9,963,311
----------------------------------------------------------------------------------------------------------------


                                        DEFENSE NUCLEAR NONPROLIFERATION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
  Funding Profile by Subprogram    2007 Current    2008 Original       2008        2008 Current     Fiscal Year
                                   Appropriation   Appropriation    Adjustments    Appropriation   2009 Request
----------------------------------------------------------------------------------------------------------------
Defense Nuclear
 Nonproliferation:
    Nonproliferation and                 265,197         390,752          -3,556         387,196         275,091
     Verification Research and
     Development................
    Nonproliferation and                 128,911         151,370          -1,377         149,993         140,467
     International Security.....
    International Nuclear                597,646         630,217          -5,735         624,482         429,694
     Materials Protection and
     Cooperation................
    Elimination of Weapons-Grade         231,152         181,593          -1,653         179,940         141,299
     Plutonium Production.......
    Fissile Materials                    470,062          66,843            -608          66,235          41,774
     Disposition................
    Global Threat Reduction              131,234         195,000          -1,775         193,225         219,641
     Initiative.................
    International Nuclear Fuel    ..............          50,000            -455          49,545  ..............
     Bank.......................
    Congressional Directed        ..............           7,500            -120           7,380  ..............
     Projects...................
                                 -------------------------------------------------------------------------------
        Subtotal, Defense              1,824,202       1,673,275         -15,279       1,657,996       1,247,966
         Nuclear Nonprolifera-
         tion...................
Use of Prior Year Balances......  ..............  ..............  ..............  ..............            -918
                                 -------------------------------------------------------------------------------
      Total, Defense Nuclear           1,824,202       1,673,275         -15,279       1,657,996       1,247,048
       Nonproliferation.........
Rescission of Prior Year          ..............        -322,000  ..............        -322,000  ..............
 Balances.......................
                                 -------------------------------------------------------------------------------
      Total, Defense Nuclear           1,824,202       1,351,275         -15,279       1,335,996       1,247,048
       Nonproliferation (OMB
       Scoring).................
----------------------------------------------------------------------------------------------------------------
NOTES: The fiscal year 2007 Current Appropriation column includes additions for international contributions to
  the Elimination of Weapons-Grade Plutonium Production Program in the amount of $5,397,964; to the
  International Nuclear Materials Protection and Cooperation Program in the amount of $4,916,044 and to the
  Global Threat Reduction Initiative Program in the amount of $1,738,800. Fiscal year 2008 adjustments reflect a
  rescission of $15,279,000 as cited in the fiscal year 2008 Consolidated Appropriations Act (Public Law 110-
  161).

                        public law authorization
    Fiscal Year 2008 Consolidated Appropriations Act (Public Law 110-
161)
    National Nuclear Security Administration Act, (Public Law 106-65), 
as Amended

                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
                                                       2010            2011            2012            2013
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Nonproliferation:
    Nonproliferation and Verification Research           318,620         334,182         343,397         351,098
     and Development............................
    Nonproliferation and International Security.         151,052         158,711         171,108         175,368
    International Nuclear Materials Protection           400,511         394,626         395,225         404,064
     and Cooperation............................
    Elimination of Weapons Grade Plutonium                24,507  ..............  ..............  ..............
     Production.................................
    Fissile Materials Disposition...............          37,691          27,985          28,435          26,000
    Global Threat Reduction Initiative..........         150,299         161,074         173,172         177,452
                                                 ---------------------------------------------------------------
      Total, Defense Nuclear Nonproliferation...       1,082,680       1,076,578       1,111,337       1,133,982
----------------------------------------------------------------------------------------------------------------

    Senator Dorgan. Mr. Tobey, thank you very much. I did not 
indicate, and I should have at the outset, that we appreciate 
the aggressive initiatives you have undertaken. You have been 
able, when initiatives are presented, to move very quickly and 
be aggressive in those, and we appreciate that.
    I want to ask a few questions and then call on my 
colleagues to inquire.
    In your statement, Administrator Tobey, you say the 
possibility that rogue states or terrorists might acquire 
nuclear and other weapons of mass destruction and their related 
technologies, equipment, and expertise poses one of the most 
serious threats to the United States and international 
security. You say the continued pursuit of nuclear weapons by 
terrorists and states of concern underscores the urgency of 
NNSA's efforts to secure vulnerable weapons, et cetera.
    First of all, I agree with that. I think there is an 
unbelievable danger out there in this world where a lot of 
rogue states and others wish to acquire nuclear weapons, and 
there is a lot of danger of someone acquiring one. You make the 
point that in order to do so you have got to have access to 
fissile material.
    The urgency expressed in this paragraph I think is at odds 
with the budget request by the administration. And let me ask 
the question specifically. You will be spending less money this 
coming year than you did this current year if we agree with the 
President's budget request, substantially less money, frankly, 
hundreds of millions of dollars. And yet, you describe to us 
the urgency of this mission.
    Now, I understand you come here as a requirement to support 
the President's request, but is there not a disconnect here 
with respect to the urgency and the request for less funding?
    Mr. Tobey. Mr. Chairman, I guess I would note, to some 
extent, some context which you actually noted at the start of 
your statement.
    First of all, since September 11, our budget has roughly 
doubled for nonproliferation work. Given that initial ramp-up, 
which was quite steep and allowed us to accelerate our efforts, 
we have continued to try and put the budget on a generally 
upward slope, despite the fact that some of our efforts are 
actually shutting down. They are coming to completion because 
our work is done.
    As you noted, if in fact you take into account what, as you 
also said was a complicated situation, whereby last year's 
congressional action actually took money that had been 
previously appropriated to our funds and took it away from a 
nonproliferation program, the Fissile Material Disposition 
program, it appeared to plus-up our budget when actually what 
it did was take money that had already been given to us and 
reprogram it for a different purpose.
    If you take that into account, and the fact that money 
requested for the elimination of weapons-grade plutonium 
production is going down because our work is being completed as 
we shut down these reactors, and then also take out the one-
time appropriation for the $50 million for the IAEA nuclear 
fuel bank, our request is actually about flat with last year. 
That flat request I think does not reflect an indifference to 
the urgency of our work. I think it actually allows us to 
accelerate our work in our priority areas even as our work is 
coming to completion in areas like the elimination of weapons-
grade plutonium production and the Bratislava Initiative.
    Senator Dorgan. Mr. Tobey, that is a very deft answer. But 
I look at the proposal for future year appropriations--and it 
is true we had a jump after 9/11, but as I look at 2010, 2011, 
2012, and 2013, the proposal here is essentially flat-funding. 
In fact, from 2009 to 2010, there would be a reduction; 2010 to 
2011, a reduction. And my only point is that if there is 
urgency here, I do not think that funding request by the 
President squares with the urgency.
    I note that Dr. Hecker and Dr. Bunn both point out in their 
written testimony that since the early to mid-1990s, the 
investment by DOE in nonproliferation safeguards, security 
technology experts, facilities, and so on has declined.
    So this is not your budget. You are here to support the 
budget that you have been sent up here to support. But as one 
member of this subcommittee, I observe that I think there is 
not much that we do at this moment in the history of this 
country and what we face in the world than to attempt to stop 
the proliferation of nuclear weapons, keep them out of the 
hands of rogue nations and terrorists--there is not much more 
important than that because the detonation of one nuclear 
weapon in a major city anywhere in this world will have 
cataclysmic effects on life on this planet. So I just make that 
point that I think there is a disconnect here between the 
urgency and the funding.
    A quick question, in your testimony, you referenced your 
office's work in overseeing the disablement and dismantlement 
of North Korea's nuclear weapons program. You mentioned the 
need for a legislative waiver of the Glenn Amendment 
restrictions that exist, as well as more substantial funding 
for that. Can you explain the Glenn Amendment restriction to us 
and your need for a waiver? And when must you have the waiver 
in place?
    Mr. Tobey. Sure. The Glenn Amendment prevents us from 
spending money in states that have conducted a nuclear test 
after a certain date. So, therefore, we are restricted from 
spending our funds to oversee the dismantlement or disablement 
of North Korean nuclear facilities.
    We have been able to undertake that work through funding 
from the State Department, which does not have such 
restrictions. Because our DOE personnel have the expertise to 
oversee that, the State Department has essentially contracted 
with us to do that. But those funds are quite limited relative 
to the actual costs that would be necessary with the 
disablement and dismantlement of the North Korean nuclear 
facilities.
    I must admit that it is somewhat uncertain what the exact 
time lines would be for that work. As you probably know, we 
have been waiting now for a period of months for North Korea's 
declaration, which I think would be a signal that we were 
actually going to move ahead. And as a consequence, we have not 
submitted, within our budget, those numbers because I could not 
guarantee that we would spend them.
    What I can tell you is that our estimate, if we were to 
move ahead as fast as we could with disablement, in fiscal year 
2008, our requirements would be roughly $50 million, and in 
fiscal year 2009, it would be about $360 million.
    Now, I think it is also an open question as to exactly how 
those costs might be borne, and I would expect that we would be 
interested in seeing that perhaps some of the other of the six 
parties would be willing to pay for some of those costs. But I 
wanted to lay out, at least as we see it, what the objective 
facts are.
    Senator Dorgan. I would be interested if you could give us 
some analysis. When you say $360 million, how does that break 
down? I do not need it at the moment, but if you would just 
submit it to us, I would appreciate that.
    Mr. Tobey. Okay.
    [The information follows:]

                         DPRK FUNDING BREAKDOWN
                        [In millions of dollars]
------------------------------------------------------------------------
                                      Fiscal Year 2008  Fiscal Year 2009
------------------------------------------------------------------------
By Office:
    NA-21...........................              30               260
    NA-24...........................              20               100
                                     -----------------------------------
        Total.......................              50               360
                                     ===================================
By Function:
    Material Packaging Preparation..              30                95
    Material Packaging and Transport  ................             165
    Disablement and Dismantlement...              12                43
    Verification....................               4.5              44.5
    Health, Safety, and the IAEA....               3.5              12.5
------------------------------------------------------------------------

    Senator Dorgan. Senator Domenici?
    Senator Domenici. Thank you very much, Mr. Chairman.
    Mr. Tobey, my memory slips me. What are the countries that 
are involved in the North Korean action?
    Mr. Tobey. The Six Parties are North Korea, China, Russia, 
Japan, the Republic of Korea, and the United States.
    Senator Domenici. Well, there is not any question with this 
Senator that we should not be bearing the entire monetary 
costs. It looks to me like Japan and even South Korea--they are 
not party to it. Are they? Is South Korea a party to it? Is 
South Korea one of the six countries?
    Mr. Tobey. Yes.
    Senator Domenici. They can well afford and it is very 
important to them. So I hope we hear from those in the position 
of working on this that the United States is at least trying in 
these difficult budget days to ask others to pay some of it.
    Despite occasional problems, the dismantling of the North 
Korean plutonium production infrastructure continues under 
these six party talks. If a breakthrough occurred and all the 
expected facilities decommissioned and materials were removed 
and verification activities were implemented, is that a 
definition of the project that would cost that $300 million-
plus?
    Mr. Tobey. No. That would apply simply to the disablement 
of the facilities at Yongbyon. There may well be other 
facilities that would require dismantlement.
    Senator Domenici. And that would just be more money.
    Mr. Tobey. Correct.
    Senator Domenici. You would assume the same kind of 
imposition on others of partial costs would be the order of the 
day.
    Mr. Tobey. We have undertaken this diplomatic effort as a 
partnership with other countries. It would make sense to me 
that other countries would bear a part of those costs. And 
certainly that has been the case with respect to, for example, 
shipments of heavy fuel oil that have gone to North Korea.
    Senator Domenici. Last week the Intelligence Committee 
received briefings, and some of us received them also as 
members of Armed Services or otherwise on North Korea's nuclear 
assistance to Syria. Apparently North Korea was helping Syria 
build a clandestine nuclear reactor until Israel destroyed the 
facility in the arid desert. Have we obtained any assurance 
from North Korea that it will stop exporting nuclear 
technology?
    Mr. Tobey. I am unaware of an assurance at this point. 
Obviously, that would be a priority of ours within the talks.
    Senator Domenici. Well, it seems to me kind of strange that 
we would be thinking that their talks with us were reliable, 
while at the same time they were reaching the spirit of 
everything by helping Syria directly. Does this create any kind 
of concern on your part as an American representative that that 
is going on?
    Mr. Tobey. Absolutely, sir.
    Senator Domenici. And nothing can be done about it I 
assume.
    Mr. Tobey. I think it is a matter of very serious concern, 
and I think it is an issue that will need to be resolved before 
we can be confident that the North Korean nuclear matter has 
been resolved.
    Senator Domenici. Did North Korea violate any agreements in 
providing this assistance that you know of?
    Mr. Tobey. I should caveat this with the notion that I am 
not a lawyer, and we are only beginning to look at some of 
these issues. But my understanding is that North Korea has 
withdrawn from the NPT. What may have gone on in Syria could 
well be a legal issue with respect to the NPT and Syria, and 
there are, of course, United Nations Security Council 
resolutions that were enacted with respect to North Korea in 
the wake of their nuclear test, essentially prohibiting certain 
forms of trade to include nuclear trade.
    Senator Domenici. I am going to leave that area and ask the 
chairman--I have some questions regarding Russia's 
participation and how much they should pay these days.
    Would you like to hear from some other Senators first? That 
would be all right with me.
    Senator Dorgan. We will come back.
    Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Tobey, you and I both heard Dr. Hecker speak last 
evening at the Nuclear Threat Initiative where he pointed out 
in his five trips to look at the reactors in North Korea, that 
Yongbyon had been effectively disabled and two other reactors 
dismantled. He also indicated that the North Koreans had sent 
several signals through him to us that they were interested in 
cooperating.
    How do you assess the level of North Korean cooperation at 
this point with the remaining dismantlement issue?
    Mr. Tobey. In terms of the narrow question of disablement 
which, as you have noted, there are DOE people at Yongbyon 
overseeing, the cooperation has generally been good, but has 
slowed recently from what it could be. But Yongbyon, of course, 
is not the whole story. The North Korean declaration would 
necessarily deal with facilities beyond Yongbyon, facilities 
and activities beyond what goes on at Yongbyon. And so far we 
have not seen a lot of progress in that regard.
    Senator Feinstein. Are you, in essence, saying that they 
are not cooperative with respect to--I do not know if you want 
to put forward in this setting what the remaining complications 
are, but if you do, I think it would be useful for the 
committee to hear them.
    Mr. Tobey. I think it is yet to be seen. I think we will 
need to see a North Korean declaration to know how serious they 
are about their September 19, 2005 commitment to abandon all 
their nuclear weapons and existing nuclear programs.
    Senator Feinstein. So you are saying then that there are 
other facilities in addition to these that are up and 
functioning, in other words, with fissile materials?
    Mr. Tobey. Well, I am inferring, to some extent. We know, 
for example, that they conducted a nuclear test. That test was 
not conducted at the Yongbyon site. They have, I think, talked 
in the past about uranium production facilities, mining, et 
cetera, which also would not be at the Yongbyon site. Clearly, 
there were some efforts at weaponization, which likely were not 
at the Yongbyon site.
    Senator Feinstein. Thank you very much.
    Let me go to the International Atomic Energy Agency. I 
strongly support the IAEA. I support its mission. I think it is 
important. I think in the world of the future it is only going 
to grow more important.
    My question is why are we behind on paying our dues?
    Mr. Tobey. Well, we are a strong supporter of the IAEA as 
well, and as you probably know, we are the largest single 
contributor to the IAEA. The dues, I think, are largely paid 
from--although there are some DOE funds that go to the IAEA--
the dues are largely paid by the State Department.
    Senator Feinstein. So do you know why we are behind?
    Mr. Tobey. I am sorry, Senator. I do not know.
    Senator Feinstein. Thank you.
    The third question--I still have some time--is Pakistan. 
Pakistan possesses nuclear weapons. It has an unstable 
government and a dramatic rise of Islamic fundamentalism. Many 
people have called it Ground Zero as far as terror is 
concerned. If you ask some of us what is the most threatening 
nuclear situation, we would have to say it is Pakistan in terms 
of those nuclear facilities.
    The question I have is what steps can we take to confront 
this challenge to see that the weapons remain secure and to 
actually improve the situation in terms of stability of 
government and therefore stability of the nuclear weapons 
program.
    Mr. Tobey. We have extended an invitation to Pakistan to 
join the Global Initiative to Combat Nuclear Terrorism, which 
they have done. They have participated in a Global Initiative 
exercise in China. That initiative is aimed at drawing together 
nations to share best practices, essentially throughout the 
possible prevention and response cycle for, for example, 
security practices to prevent the loss of fissile material, 
emergency response actions to try and recover it, customs and 
border guards, et cetera. And we are hopeful that Pakistan will 
avail itself of this opportunity to ensure that they have the 
best practices possible.
    I regard their military as both professional and committed 
to nuclear security.
    Senator Feinstein. My time is up. Thank you very much, Mr. 
Chairman.
    Senator Dorgan. Senator Allard?
    Senator Allard. Thank you, Mr. Chairman. I would like to 
start off with a question on the nuclear detonation detection 
program. We rely heavily on our space assets to implement that 
program, and we are getting a greater concern, I think, from a 
number of agencies about the risk that our space assets are 
being placed in, particularly in light of the fact that China 
had demonstrated their ability to knock out a satellite. They 
did their own.
    What kind of effort are you making sure to try and protect 
those assets that we rely so much on our nuclear detonation?
    Mr. Tobey. Senator, as you might imagine, the details of 
how we might protect such systems pretty quickly get into 
classified material.
    Senator Allard. What I need to know is; are you working 
with other agencies to look at that problem?
    Mr. Tobey. Yes, sir. I would note that diversifying, if you 
will, proliferating our ability to detect such detonations is 
an important response. If we have redundancy in our ability, it 
makes it more difficult for another nation to eliminate that 
capability.
    Senator Allard. I just wanted to have some assurance that 
you were looking at this risk.
    Mr. Tobey. We regard this as a very high priority.
    Senator Allard. I realize that the details of it would be 
something that we would not want to talk about in a setting 
like this, but just your assurance that you have looked at it. 
I think it does not hurt to let people know that we have some 
vulnerability out there and they do affect our ability to 
determine whether other countries are keeping their agreement 
as far as nuclear weapons agreements are concerned at least.
    My understanding is that the language on the Glenn 
amendment--attempts are being made to put that in the 
supplemental bill. Is that correct?
    Mr. Tobey. That is my understanding, Senator.
    Senator Allard. And why are we selecting the supplemental 
bill as opposed to the regular appropriation bill? Does it have 
to do with timing or does it have to do with sort of an 
aversion to the regular appropriation process?
    Mr. Tobey. I confess that that decision was not mine. I am 
not an expert in legislative procedure. I think it was done in 
consultation with people on the Hill. I think that was chosen 
as the most immediate and likely vehicle to pass.
    Senator Allard. It is important that we deal with this 
language, the sooner, the better.
    Mr. Tobey. I think in terms of minimizing risk, we would 
not be able to go forward if there is not diplomatic progress, 
so the sooner, the better. But I cannot say to you that 
tomorrow we will be able to do all that we would wish to do in 
North Korea. It is difficult to predict.
    Senator Allard. Now, let us just assume that we grant the 
waiver in a supplemental appropriation bill, and phase 3 work 
begins as quickly as possible. When would you anticipate 
completion of phase 3 in a best case scenario?
    Mr. Tobey. Completion of phase 3 would probably be a period 
of years. Even the completion of phase 2 would----
    Senator Allard. Five years, 10 years, decades?
    Mr. Tobey. I would say about 5 years would be fair. Much 
depends on the level of cooperation with North Korea, and it is 
difficult to predict.
    Senator Allard. Yes, I understand.
    Mr. Tobey. The canning campaign and even the work that we 
have undertaken now has varied significantly according to the 
level of cooperation that the North Koreans have--but even the 
current phase, in terms of the fuel that is in the reactor now 
and dealing with that, would likely take the balance of this 
year.
    Senator Allard. Now, I would like to move on to the fissile 
materials deposition. That is irradiation of plutonium. It was 
in the 2000 agreement. How far along are we in reaching the 
2000 agreement, and what percentage is the United States 
responsible for disposing of? Can you share that with us?
    Mr. Tobey. As you know, I am sure, sir, the 2000 Plutonium 
Management and Disposition Agreement provided for the 
disposition of 34 metric tons each by the United States and 
Russia.
    Senator Allard. Right.
    Mr. Tobey. Frankly, not a lot of progress had been made up 
until a couple of years ago. Neither the United States nor 
Russia seemed to have set on a disposition path.
    About a year ago, some Members of Congress had asked us to 
undertake three activities. One, make sure that our baseline 
was credible and defensible for the facility that we are 
building in South Carolina. I believe that we have done that. 
We have set a baseline. We brought in the preconstruction 
activities under that baseline and slightly ahead of time.
    Senator Allard. This is the MOX-plus?
    Mr. Tobey. The MOX facility, exactly.
    And we have significant contingency and reserves. 90 
percent of the design is complete, which is very, very high for 
a facility of this size at this stage of construction. 
Construction began on August 1. So it is well underway. I think 
our path is pretty clear.
    The second thing that I understood Congress to ask us to do 
was to look at additional missions for the facility. We found 
three potential additional missions, and we are in a position 
to execute those missions if there is a decision to do so. We 
do not need to make that decision today, even under optimal 
circumstances. But they would add substantially to the mission 
of the facility, disposing of perhaps 50 percent, maybe even 
more, additional material; making it a much more cost effective 
project.
    And then third, they asked us to try and get the Russian 
program in order. Secretary Bodman and Rosatom Director 
Kiriyenko signed a joint statement several months ago that 
provides for what we believe is a technically and financially 
credible path for the Russian disposition of plutonium, using 
fast reactors. I think it is key to understand that the Russian 
path is consistent with their own energy plans and, therefore, 
is more likely to be pursued, not out of a sense of obligation 
or because we blindly trust what they are doing, but out of 
Russian self-interest.
    Senator Allard. Thank you. My time is expired.
    Senator Dorgan. Senator Domenici, do you have some 
additional questions about Russia?
    Senator Domenici. Yes, I do.
    I did not understand your answer when you talked about 
additional work or missions for the MOX facility. What are you 
talking about?
    Mr. Tobey. The Department will use the U.S. MOX facility to 
dispose of at least 34 metric tons of surplus weapon-grade 
plutonium oxide, which includes both nuclear weapons pits and 
certain other non-pit plutonium metal and oxide material. As 
described in a technical report that the Department submitted 
to Congress in July 2007, the Department is also considering 
sending additional plutonium from nuclear weapons pits declared 
surplus to national security needs, and additional amounts of 
non-pit plutonium, pending further environmental and technical 
analysis and final decisions by the Department. Also, as 
described in the July 2007 technical report, the facility may 
provide an option to fabricate initial core loads for fast 
reactors to support the Global Nuclear Energy Partnership, 
depending on analysis and decisions which could optimally be 
made well into the future.
    Senator Domenici. I am glad to hear that there are other 
missions, and we are very fortunate that we struck a deal with 
the Russians. Even though they did not live up to their side, 
it got us off our duff and we started the MOX program, about 25 
years late or 30, but that is pretty good.
    Let me ask you on the Russian assistance. Since 1992, the 
U.S. Government has spent nearly $10 billion on the Nunn-Lugar-
Domenici program on efforts to improve controls on nuclear 
weapons materials and expertise. Most of it has been spent in 
Russia. As security upgrades are completed and material 
returned or eliminated, where does the program go from here?
    Russia now has a budget surplus as a result of oil and gas 
exports. What is NNSA doing to try to see that Russia pays its 
share of the nonproliferation costs for securing its material? 
And I will ask Dr. Bunn some questions on that subject. Could 
you answer that part?
    Mr. Tobey. Certainly, sir, I will try. We have made clear 
to the Russians that Congress has directed that our work will 
end in 2012. So they are on fair warning that in 2012, U.S. 
nuclear material security efforts in Russia will end. And we 
expect them to sustain the efforts that we have put into place. 
As you noted, our investments have been substantial. NNSA's 
will be about $2 billion.
    We have begun to compare with the Russians budgets for the 
first time, to my knowledge anyway. When I sat down with our 
Russian counterpart who works for the 12th GUMO, Lieutenant 
General Verkhovtsev, he told us about his budget request for 
sustaining nuclear material security upgrades. He assured us 
that he had gotten what he had requested. I think that level 
will have to go up if it is going to truly be sustained, but 
for the first time, we are beginning to compare our budgets so 
that as we draw down toward that 2012 mark, they recognize they 
will need to step up in order to ensure that the investment 
that we have made in nuclear security is sustained.
    I would also note that we are making some progress on cost 
sharing in other ways, so for example, the agreement that we 
signed with them to accelerate radiation detectors at Russian 
border crossings provides for Russia bearing half the costs of 
those installations.
    Senator Domenici. Well, I just would like--since you 
indicated I have been very active in this whole area--it is 
correct. I do want to express my thoughts even though I have 
only about 8 months left here. I believe that insisting that 
Russia pay the maximum amount as their share on these programs 
seems to me to be important if we are going to maintain the 
programs because I think with us having very unbalanced 
budgets, borrowing money in huge quantities to keep our 
Government going and Russia being very solvent, I think a 
couple of these programs would die on the floor of the Senate 
if somebody brought that subject up and said this is no longer 
fair. So I just urge that wherever we can, the Russians be 
asked to pay their share.
    It was not the case when we started. We paid for all of it, 
the early programs that Sig Hecker is aware of, the cameras 
that were purchased for them and the facilities so they would 
have doors that were reliable instead of open, hanging things. 
You remember that? We paid for all that. And I guess that was 
right. It was probably good money spent.
    Mr. Tobey. Senator, I certainly agree with all of that, and 
we are working in that direction. I would note though that just 
because a Russian oil company is flush with cash--and they 
are--does not necessarily mean that nuclear institutes in the 
Urals are flush with cash. And we spend the money there because 
it is in our interest.
    Senator Domenici. I understand.
    Mr. Tobey. I know you know this. I just wanted to make 
absolutely clear for others that we do this because it is in 
our interest that Russian nuclear weapons material be secured.
    Senator Domenici. Well, there is no question it is in our 
interest. We know that. I have been a staunch advocate. 
Sometimes nobody objected. Sometimes they did not even ask a 
question on the floor about us using this money.
    But I am just telling you what I think on the future, and I 
think the Russians understand. And I know they have budgets 
that come from the big central headquarters and they do not 
always get what they need, but that is really not an excuse for 
an adequate match and adequate payment because they would pay 
it from central headquarters if they knew we were not, if they 
were serious about nonproliferation.
    Last year Congress approved an increase of $125 million 
above the request for nonproliferation and verification 
research and directed you to invest $20 million toward the 
building of a laboratory scientific capability. It appears that 
this direction has not been followed. How was the money spent 
and what long-term capability has NNSA invested in at the labs?
    Mr. Tobey. Sir, we have paid close attention to that 
direction, and I actually do have a list of investments. I have 
talked to your staff about this, and I admit that we had not 
provided the level of detail that would make this clear. But I 
brought with me today that level of detail, and I would be 
happy to provide it.
    Senator Domenici. Will you please furnish it?
    [The information follows:]
 Nonproliferation and Verification R&D--Fiscal Year 2008--$133 Million 
                           Plus-Up Spend Plan
  --$25.0 million PNNL Area 300 (subject to 1 percent rescission)--
        spent on balance of construction (PSF) and completion of the 
        Foundation/Steel contract.
  --$20.5 million.--``an additional $20.5 million is provided for 
        nuclear explosion monitoring'' (subject to 1 percent 
        rescission).
    --$5 million.--``The Department is directed to conduct a 
            competitive solicitation open to all Federal and non-
            Federal entities toward an integrated suite of research, 
            technology development and demonstration areas including 
            infrasound, hydro acoustics for ground based systems treaty 
            monitoring activities. The competitive process should award 
            not less than $5 million of the additional funding for 
            nuclear explosion monitoring for research and development 
            for ground-based treaty monitoring.''
    --$2.5 million.--For national laboratory seismic calibrations of 
            threat regions and radionuclide system activities.
    --$2.0 million.--Detonation forensics technology and related base 
            science activities.
    --$11.0 million.--Space-based nuclear detonation detection system 
            R&D.
  --$20.0 million ``for the implementation of a sustained research and 
        development capability in nuclear detection and nuclear 
        materials security'' (subject to 1 percent rescission).
    --$10.0 million Radiation Detection R&D.
    --$5.0 million Radiation Detection Materials R&D.
    --$5.0 million Nuclear Material Security R&D (supporting nuclear 
            safeguards (NA-24) and alternate source development (NA-
            21)).
  --$60.0 million ``in proliferation detection to expand research in 
        critical research and development for high-risk, high return 
        nuclear detection capabilities'' (subject to 1 percent 
        rescission).
    --$5.0 million, Small Business Innovation Research taxes.
    --$1.0 million, foreign nuclear weaponization detection R&D 
            program, Goals, Objectives and Requirements and technology 
            road-mapping process.
    --$0.5 million Hf-178 project at request of SASC.
    --$20 million University basic research.
    --$9 million Testing and Evaluation, including upgrade of 
            infrastructure at Nevada Test Site.
    --$22.26 million, fully fund fiscal year 2008 projects/re-
            capitalization and equipment purchases at National Labs.
  --$7.5 million Earmarks (subject to 1.6 percent rescission).
    --$3.0 million GMU.
    --$1.5 million New England Research.
    --$2.0 million TAMU/NSSPI.
    --$1.0 million ODIS.

    Mr. Tobey. Mr. Chairman, I would like to put in the record, 
for purposes of the committee's use, a chart on 
nonproliferation funding just because I want it to be noted 
that we moved the MOX program, which is about $500 million. We 
moved it from nonproliferation to another part of our budget, 
and that did change the congressional funding line 
substantially. But it does not mean we did less. It is just 
that we did not put MOX in the nonproliferation category. Maybe 
it belongs there but we took it out and put it somewhere else.
    Senator Domenici. That is my last question. I will submit 
some in writing.
    I want to thank you for all the work you have done, and I 
wish you well especially in the North Korean situation. I just 
cannot believe, with everything everyone knows about what they 
are doing and the fact that they are going to have to do 
something in their self-interest soon to get help--and I am 
sure of that. We have to keep the pressure on some way and get 
it done. Thank you.
    Mr. Tobey. Thank you, sir.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Domenici, thank you.
    I believe Senator Feinstein has one additional question?
    Senator Feinstein. One additional question.
    Mr. Tobey, Dr. Bunn in his statement states a goal that I 
think is a very good one, and he says, ``Our goal should be to 
remove all nuclear material from the world's most vulnerable 
sites and ensure effective security wherever material must 
remain within 4 years.'' Now, that is a quote, but I think it 
is a worthy goal.
    How does this budget help us achieve that? I can ask this 
in writing too. What more needs to be done? What additional 
resources are necessary in what areas, and how would a 
verifiable global treaty ending production of nuclear materials 
for weapons complement this effort?
    If you can answer any of it offhand, that would be great. I 
would like to send this to you in writing.
    Mr. Tobey. I would be happy to give you a fuller answer.
    Senator Feinstein. Good.
    Mr. Tobey. I can offer an answer to at least some of that.
    First of all, as I mentioned earlier, we are mindful of the 
suggestions that Matt Bunn makes and we will certainly take a 
hard look at whether or not we can achieve that goal. I would 
argue that we actually do take significant steps toward it with 
this budget in several ways.
    First of all, we continue our acceleration of the 
conversion of HEU reactors to LEU and the repatriation of fuel. 
I know that has been a concern of his, and over the last year 
or two, we have picked up the pace, in part in response to some 
of the suggestions that he has made.
    We also will continue our work to secure nuclear weapons 
material in Russia, completing the security upgrades under the 
Bratislava Initiative, and extending actually beyond that to a 
few sites that we have received since then. I regard that as, 
frankly, further evidence of success because it shows that the 
cooperation in Russia is even more extensive than it had been 
in the past.
    And then we will also be working in other ways to minimize 
the use of highly enriched uranium. So, for example, we are 
looking at development of new fuels that will allow the 
conversion of the final set of reactors that will require a 
somewhat different type of fuel.
    Senator Feinstein. Thank you. That is very helpful. We will 
put it in writing too in any event. Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Administrator Tobey, thank you very much 
for your work and thank you for being with us today. We 
appreciate your testimony.
    Mr. Tobey. Thank you, Mr. Chairman.
    Senator Dorgan. We look forward to continuing to work with 
you.
                       NONDEPARTMENTAL WITNESSES

STATEMENT OF DR. SIEGFRIED S. HECKER, CO-DIRECTOR, 
            CENTER FOR INTERNATIONAL SECURITY AND 
            COOPERATION, STANFORD UNIVERSITY
    Senator Dorgan. Next we will ask our other two panelists to 
come forward, Dr. Matthew Bunn, who is a senior research 
associate at the Belfer Center for Science and International 
Affairs at the John K. Kennedy School of Government at Harvard 
University. He will be joined by Dr. Siegfried Hecker, the co-
director of the Center for International Security and 
Cooperation at Stanford University.
    This committee appreciates the work that both of you do, 
and we will ask you to proceed. Dr. Hecker, would you proceed 
first and then Dr. Bunn? And then we will inquire. As I 
indicated previously, your entire statement will be made a part 
of the permanent record and you may summarize.
    Dr. Hecker. Thank you, Chairman Dorgan, Senator Domenici, 
Senator Feinstein, and Senator Allard. It is a great pleasure 
to be here, and thank you for inviting me to comment on the 
National Nuclear Security Administration's defense nuclear 
nonproliferation program and its 2009 budget.
    Thank you for admitting my written statement. What I will 
do is to briefly summarize the three main points that I have in 
my statement.
    But let me first say that my opinions have been shaped by 
34 years at the Los Alamos National Laboratory and nearly 20 
years of practicing nonproliferation with my feet on the ground 
in places like Russia, China, India, and North Korea and 
Kazakhstan. And I must say that much of this I have done with 
the strong encouragement and support of Senator Domenici, and I 
thank him for that over the years.
    My first point is that--and this has really been covered in 
great detail by all of your statements, but just to reiterate 
my point--the proliferation of nuclear weapons and weapons 
capability is growing. Today, as you have indicated, we face 
the threat from North Korea, nuclear ambitions in Iran, the 
nuclear puzzle in Syria, and the recently nuclear-armed states 
in Pakistan and India. We have an improved but not satisfactory 
nuclear security situation in Russia and the other states of 
the former Soviet Union. The danger of nuclear terrorism is 
real.
    But this is not a fight that the United States can win 
alone. We cannot simply push back the dangers beyond our own 
borders. It is imperative that we forge effective global 
partnerships to combat the threat of nuclear terrorism and the 
proliferation of nuclear weapons. And meeting these challenges 
requires diplomatic initiative and technical cooperation. The 
United States must lead in that diplomacy and the DOE/NNSA must 
provide the technical leadership and capabilities.
    The NNSA has done a commendable job in nuclear threat 
reduction and in combating nuclear proliferation. However, as 
you have also indicated, my own sense is that these activities 
are not commensurate with the magnitude of the urgency of the 
threat that we face today. So I very much agree with the 
sentiment that you have expressed.
    A second point is cooperative threat reduction, as was 
already indicated, began with Nunn-Lugar, followed by Nunn-
Lugar-Domenici legislation, directed at the aftermath of the 
breakup of the Soviet Union. We must stay engaged with Russia 
and the other states of the Soviet Union. Much progress has 
been made, but more needs to be done. We have to change the 
nature of the relationship to one in which Russia carries more 
of the burden. So, Senator Domenici, I very much agree with 
your comment. However, we must also make sure that we continue 
to have a seat at the table, and to do that requires some 
investments of our fund to do so to make certain that the 
Russians actually work in the areas that are also still very 
much in our common interests.
    We should also expand the cooperative reduction programs 
aggressively to countries that require technical or financial 
assistance. The nuclear threat exists wherever nuclear 
materials exist. These materials cannot be eliminated, but they 
can be secured and they can be safeguarded. We should more 
strongly support the IAEA and provide support for countries, 
for example, that try to implement the U.N. Security Council 
Resolution 1540 to prevent nuclear terrorism.
    But mostly, Mr. Chairman, in the spirit of what you said in 
your opening statement, as we look back in the future to what 
should we have done today, I look back to the early 1990s when 
we at the laboratory and the nonproliferation communities had 
an enormous number of ideas as to what to do when the Soviet 
Union breaks up. And similarly now, we must be equally creative 
in looking out and seeing what should we be doing. The ideas 
are out there, and it is a matter of making sure that we 
encourage them.
    But we must also enlist the other nations such as China, 
India, and for that matter, Russia to build a strong global 
partnership to prevent proliferation and nuclear terrorism. 
India and China have, for the most part, sat on the sidelines 
while the United States has led this fight. And Russia has not 
engaged commensurate internationally with its nuclear status. 
And these efforts are particularly important today as we look 
at the potential renaissance of global nuclear power.
    And the third point that I want to make is that the 
hallmark of all of these efforts of global cooperation must be 
technology partnership and an in-country presence. The DOE/NNSA 
has the principal expertise in this country in its laboratories 
across the complex. It should be applauded for sending its 
technical experts around the world, often in very difficult 
situations. And I must tell you just this past February, in 
fact, on Valentine's Day, I ran into the DOE contingent in 
North Korea in Yongbyon on a bitterly cold day. They were not 
out there for a party.
    However, there are both structural reasons and budgetary 
shortfalls that we find today that that talent that we rely on 
is actually fading away. And the issue that I want to make sure 
that I put on the table is that, of course, budgets are 
extremely important, but budgets are not everything. We do not 
have in place today the necessary personnel recruitment. We 
have no longer the working environment in the laboratories or 
the pipeline of students from the universities to replenish the 
talent to do that job. So the working environment, the research 
environment of these laboratories is also crucial, along with 
appropriate budgetary support. So I strongly support the NNSA 
Next Generation Safeguards Initiative which is aimed at 
tackling this problem as to what does one do about the 
capabilities in our laboratory system.
    Mr. Chairman, when I first visited Russia's secret cities 
in 1992, shortly after the fall of the Soviet Union, I feared 
that its collapse may trigger a nuclear catastrophe. The fact 
that nothing really terrible has happened in the intervening 16 
years is in great part due to the DOE/NNSA programs that you 
are considering here today. And we must be just as innovative 
now, as I had indicated, and just as creative to deal with the 
threat that has changed dramatically since 1992.

                           PREPARED STATEMENT

    Now, since I see my time is up, in my statement I also 
mention the implications of recent trips to North Korea. As has 
been pointed out, I have been there five times over the past 4 
years, and I was also recently in India. But since I am out of 
time, I will leave those for your questions.
    Thank you for your attention.
    [The statement follows:]
             Prepared Statement of Dr. Siegfried S. Hecker
    Thank you Chairman Dorgan, Senator Domenici and distinguished 
members of the committee for giving me the opportunity to comment on 
the National Nuclear Security Administration's Defense Nuclear 
Nonproliferation programs and 2009 budget request.
    Today I would like to make three points:
  --Nuclear threat reduction continues to be one of the highest U.S. 
        national security priorities. Unfortunately, the threat has 
        become more complex and challenging since threat reduction 
        programs began in 1992 with Russia and other states of the 
        former Soviet Union. Today, we face a nuclear threat in North 
        Korea, nuclear ambitions in Iran, a nuclear puzzle in Syria, 
        recently nuclear-armed states in Pakistan and India, and an 
        improved, but not satisfactory, nuclear security situation in 
        Russia and other states of the former Soviet Union. Moreover, 
        global energy and climate forces have brought about a 
        resurgence of interest in commercial nuclear power that places 
        additional demands on the threat reduction agenda. I favor a 
        significant expansion of DOE/NNSA's programs in these areas 
        beyond the President's budget request.
  --The greatest threats we face today are a breakdown of the 
        nonproliferation regime and the possibility that terrorists may 
        acquire nuclear weapons or fissile materials. To keep the most 
        dangerous materials out of the hands of the world's most 
        dangerous people requires a global network of nations that are 
        committed to and capable of securing their own nuclear 
        materials, preventing export, and are committed to 
        nonproliferation. We must aggressively expand cooperative 
        threat reduction programs to nations that require either 
        technical or financial assistance and enlist those countries 
        that have the technical and financial resources, but have 
        historically played either a limited or no role in 
        international nonproliferation efforts--namely, Russia, China 
        and India. The hallmark of such cooperation must be 
        partnership, technology and in-country presence.
  --Nuclear threat reduction and nonproliferation efforts must have 
        strong technical underpinnings and participation. The close 
        interplay of technology and diplomacy is crucial to effective 
        policy and implementation. The NNSA and its laboratories 
        represent the primary technical talent in these areas. 
        Unfortunately, financial support and the nuclear research 
        environment are insufficient to meet the challenges confronting 
        us. I strongly support the DOE/NNSA Next Generation Safeguards 
        Initiative and other efforts aimed at attracting more technical 
        talent to these important areas.
    Mr. Chairman, you requested that I comment on the adequacy of the 
President's fiscal year 2009 budget request for the National Nuclear 
Security Administration nuclear weapon nonproliferation efforts as well 
as the sufficiency of those efforts generally. The committee staff also 
requested that I comment on the broader policy issues, including on my 
recent visits to North Korea and India and what we should be doing to 
secure fissile materials around the world. I will touch on those 
subjects briefly and attach two articles that deal with some of these 
issues in greater detail.
    the budget and adequacy of the defense nonproliferation programs
    I will restrict my comments to the big budgetary picture. The 
overall budget request is modest compared to the importance and impact 
of NNSA's nonproliferation efforts. I recognize the demands on the 
Federal budget, yet the amount of money spent on these programs is 
small compared to dealing with the consequences of failure in any of 
its elements.
    I strongly support NNSA's comprehensive effort to deal with nuclear 
threats and steps that it has taken to tailor its programs to the 
changing nature of the threats. Nevertheless, I believe we need a 
greater sense of urgency in completing some of the ongoing efforts and 
in launching new ones with adequate budgetary support.
    The greatest threats we face today are a breakdown of the 
nonproliferation regime and the possibility that terrorists may acquire 
nuclear weapons or fissile materials. The most immediate challenges are 
North Korea and Iran. However, the recent developments in Syria 
demonstrate that efforts to acquire the bomb are more widespread than 
believed. The importance of keeping fissile materials out of the hands 
of terrorists is generally appreciated; the technical difficulty of 
doing so is not. I describe the technical challenges in detail in 
Attachment I. In addition, the resurgence of nuclear power, necessary 
to combat the world's energy and environmental crisis, must be 
supported by enhanced nonproliferation efforts if it is to succeed.
                    changing partnership with russia
    The nuclear threat changed dramatically with the end of the Cold 
War and the breakup of the Soviet Union. We came to be threatened more 
by Russia's weakness than its strength. Nunn-Lugar legislation followed 
by Nunn-Lugar-Domenici legislation established the Cooperative Threat 
Reduction program aimed primarily at Russia and the other states of the 
former Soviet Union. This innovative approach of working cooperatively 
with these nations helped them deal with the unprecedented situation of 
how to provide security for an enormous arsenal of nuclear weapons and 
an equally huge stockpile of fissile (bomb-grade) material in states 
that changed their political and economic systems dramatically, and 
whose centrally-controlled institutions collapsed almost overnight. 
Much progress has been made in helping Russia and the other states 
improve the security of their nuclear weapons and materials. Most 
importantly, nothing really terrible has happened in the Russian 
nuclear complex in the 16 years since the breakup of the Soviet Union.
    However, much remains to be done. My colleague, Dr. Matthew Bunn, 
who is also testifying today, has provided detailed annual status 
reports of accomplishments and challenges. I want to provide a 
perspective based on my many visits to the Russian nuclear complex 
since 1992. As director of the Los Alamos National Laboratory at the 
time, I visited the closed and formerly secret cities housing Russia's 
nuclear weapons laboratories in February 1992. The nuclear facilities 
and materials that were previously protected by guns and guards were 
now vulnerable. We developed scientific collaborations to build trust, 
which allowed us, 2 years later, to sign the first contracts with three 
Russian institutions for materials protection, control and accounting 
(MPC&A) cooperation. This lab-to-lab program helped Russia begin to 
develop a modern system of protection and safeguards to secure its 
nuclear materials. Our focus was always that it is in their best 
interest to secure their own materials. The responsibility is theirs; 
all we can do is help. We helped them expand this program to the 
Russian nuclear navy and the civilian sector. We then also expanded the 
program to some of the other states of the former Soviet Union. With 
Senator Domenici's help, we tackled the problem of helping Russia 
secure its nuclear knowledge by engaging Russian technical specialists 
in various civilian research and industrial projects to help in the 
massive worker reorientation challenge the Russian nuclear complex 
faced. These programs have recently come under unjust criticism by the 
Government Accountability Office. It was critical to augment the 
hardware-oriented technology programs with people-oriented efforts to 
enhance nuclear security.
    Much of the focus on the MPC&A program with Russia has been to 
complete physical security upgrades. This phase of the program is 
nearing completion. Together with the general tightening of security 
during the Putin administration, these efforts have greatly improved 
the current nuclear security situation in Russia. The focus of U.S. 
efforts must now shift to the much more difficult problem of having the 
Russian complex sustain these security improvements and to develop 
better practices in the control and accounting of nuclear materials. 
Progress has been slow, partially because Russia has reverted to the 
Soviet practice of relying mostly on physical security and secrecy, and 
partly because Russia has a very different view of its vulnerabilities 
than we do. Russian practices reflect the belief that the Chechen 
rebels pose the greatest threat. Much less attention is paid to a 
potential insider threat.
    A different approach to cooperative threat reduction will be 
required to make additional progress with the Russian nuclear complex. 
Money will be less important, but not irrelevant. In the 1990s, U.S. 
financial support was imperative. Today, thanks to oil prices of nearly 
$120 a barrel, Russia has a large budget surplus. Yet, if the United 
States is to continue to influence Russian security and 
nonproliferation practices, it will need to continue to invest some 
funds to have such influence. Once Russia completes the current round 
of facility security upgrades with NNSA support, then I recommend that 
NNSA support its laboratories to conduct a broad range of cooperative 
programs with the Russian nuclear complex. Some programs will have 
direct security implications--for example, continued work on best 
practices for MPC&A (especially control and accounting), promoting a 
security culture, eliminating the use of highly enriched uranium (HEU) 
in civilian applications, instrumentation development for nuclear 
detection and forensics, nuclear attribution, nuclear materials 
registries and databases, regulations and practices to protect 
radiation sources, emergency response to nuclear incidents, and 
proliferation resistant reactors and fuel cycle research. Other 
programs will have indirect, but still important, benefits--for 
example, nuclear energy R&D, environmental R&D, fundamental research in 
nuclear materials, radiochemistry and analytical chemistry techniques. 
We must also continue to encourage Russia to eliminate much of its 
surplus stock of fissile materials and to consolidate its still massive 
nuclear complex. In summary, we should strengthen and broaden our 
nonproliferation collaboration with Russia by supporting our own 
technical specialists to work with Russian technical counterparts. We 
should phase out direct financial support to Russia except in those 
cases where the investment is necessary to keep it meaningfully 
engaged.
          expanding cooperative threat reduction beyond russia
    I applaud the NNSA efforts to expand its nonproliferation 
activities and threat reduction programs beyond Russia. These programs 
in the other states of the former Soviet Union have significantly 
reduced the global nuclear threat. The breakup of the Soviet Union 
created four nuclear weapons states out of one. The CTR program 
reversed that dangerous situation by getting Ukraine, Kazakhstan and 
Belarus to return Soviet nuclear weapons to Russia by 1996. However, 
these states also had considerable inventories of nuclear materials and 
a robust nuclear infrastructure that was largely left in place. 
Similarly, other states such as Uzbekistan and Georgia had nuclear 
materials and nuclear facilities. The former Soviet satellite states in 
Eastern Europe also had vulnerable nuclear materials and facilities. 
NNSA cooperative programs in these countries have reduced, but not 
eliminated, the threat. These programs should be expanded and molded 
into longer-term partnerships with these states to help them manage 
their nuclear dangers while also getting the benefits of civilian 
nuclear applications.
    The NNSA also correctly assessed the need for cooperative nuclear 
threat reduction beyond the borders of the former Soviet Union. To keep 
the most dangerous materials out of the hands of the world's most 
dangerous people requires a global network of nations that are 
committed to and capable of securing their own nuclear materials and 
preventing export. There are approximately 40 countries that possess 
either nuclear materials or the necessary nuclear infrastructure to 
produce nuclear materials. There are more than 100 countries that use 
ionizing radiation sources (for medicine, industry, agriculture or 
research) that could fuel a radiological dispersal device; the so-
called dirty bomb. Whereas the importance of securing nuclear materials 
is generally appreciated today, the technical difficulty is not. In 
Attachment I to this testimony I detail why this is much more difficult 
than simply locking up these materials the way we guard gold at Fort 
Knox.
    The technical components of global security initiatives are 
crucial. To secure nuclear materials requires global partnerships and 
global reach. The DOE/NNSA and its laboratories are in the best 
position to develop such partnerships. I recommend a two-pronged 
approach: (1) Aggressively expand cooperative threat reduction to 
countries that require either technical or financial assistance; and 
(2) Enlist those countries that have the technical and financial 
resources; but have historically played either a limited or no role in 
international nonproliferation efforts. In both cases, cooperation with 
the International Atomic Energy Agency (IAEA) is imperative.
    Aggressively Expand Cooperative Nuclear Threat Reduction 
Globally.--The NNSA Global Threat Reduction Initiative has made 
significant gains in securing or removing highly enriched uranium from 
research reactors and research facilities in countries that had 
difficulty securing it. For example, partnerships between host 
countries, the United States, Russia and the IAEA resulted in the 
repatriation of HEU from Romania, Bulgaria, Uzbekistan and other 
countries to Russia. In many cases, the NNSA has helped to convert 
research reactors to operate with low enriched uranium to remove the 
proliferation risk and allow the removal of HEU. Similar partnerships 
have helped countries to better manage and secure their radiation 
sources. The financial requirements for these efforts have been modest. 
These programs should be expanded and expedited.
    Countries such as Pakistan, Libya and Kazakhstan pose special 
challenges. In my view, Pakistan represents the greatest nuclear 
security challenge. It has all the technical prerequisites: HEU and 
plutonium; enrichment, reactor and reprocessing facilities; a complete 
infrastructure for nuclear technologies and nuclear weapons; largely 
unknown, but questionable, nuclear materials security; and missiles and 
other delivery systems. It views itself as threatened by a nuclear 
India. It has a history of political instability; the presence of 
fundamental Islamic terrorists in the country and in the region; 
uncertain loyalties of some civilian (including scientific) and 
military officials; and it is home to A.Q. Khan, the world's most 
notorious nuclear black marketeer. Helping Pakistan secure its nuclear 
materials during these challenging times is made difficult by the 
precarious position of its leadership and the anti-American sentiments 
of much of its populace. Yet, such cooperation is imperative.
    Libya presented a very special case that required technical 
cooperation. Once Libya decided it was in its interest to eliminate its 
covert nuclear program, it was crucial to do so effectively and 
completely, and to learn as much as possible about nonproliferation 
patterns and practices from Libya's nuclear program history. NNSA 
technical specialists did a superb job in both cases.
    Kazakhstan also presented a special challenge. It possessed nuclear 
materials and nuclear reactors when it achieved independence from the 
Soviet Union. Next to Russia, it had the most extensive and 
sophisticated nuclear infrastructure, including the sprawling 
Semipalatinsk nuclear test site. Much progress has been made thanks to 
NNSA cooperative programs, those of the Department of State and the 
Department of Defense, and the non-governmental efforts of the Nuclear 
Threat Initiative. Yet, several serious challenges remain, such as the 
final disposition of the spent fuel from its fast reactor at Aktau, 
remain.
    I recommend that the NNSA extend its technical reach even further. 
By working closely with the IAEA, it can help countries effectively 
meet their obligations under the United Nation's Security Council 
Resolution 1540. Resolution 1540 requires states establish and enforce 
legal barriers to acquisition of weapons of mass destruction whether by 
terrorists or by states. It requires states to ensure that they have 
the infrastructure in place to address the threat posed by non-state 
actor involvement in any aspect of the proliferation of weapons of mass 
destruction. The United States was instrumental in developing this 
resolution and in getting it adopted. Now, it must take the next step 
and help provide technical assistance to countries that are struggling 
to meet its requirements.
    Enlist the Developed Nuclear Countries to More Effectively Secure 
Nuclear Materials and Prevent Nuclear Proliferation.--During the Cold 
War, the United States and Soviet Union cooperated to prevent nuclear 
proliferation. After the break up of the Soviet Union, U.S. efforts 
focused on helping Russia deal with its risks. As indicated above, 
these risks have been reduced considerably through U.S.-Russian 
cooperation. However, Russia has not re-engaged effectively to 
strengthen international efforts. Although it has cooperated with the 
United States in repatriating some weapons-usable nuclear material from 
the former states of the Soviet Union or its former satellites, its 
leadership on the global scene is not commensurate with its nuclear 
status. Although it has promoted international cooperation in reactor 
technology, providing nuclear fuel services, and storing nuclear waste, 
it has promoted global export of its own nuclear technologies without 
sufficient consideration of nuclear proliferation consequences. It has 
not contributed much to the resolution of North Korea's nuclear crisis 
and has been less than helpful in resolving the Iranian nuclear 
dilemma.
    Historically, China has not played a constructive role in limiting 
nuclear proliferation. Its past and current relationship with Pakistan 
remains troublesome. However, in recent years China has shown an 
interest in becoming constructive. Its 2005 nonproliferation policy 
paper represents a step in the right direction. China is tightening its 
export controls and has joined the Nuclear Suppliers Group (NSG). It 
has begun to engage constructively with the United States to improve 
the security of its nuclear materials in the civilian sector. The two 
countries have also begun to cooperate to improve the management and 
security of radiation sources in China. China has chosen not to engage 
more fully with the United States to cover its defense nuclear sector 
because its grievances over the Cox Report have not been addressed. In 
the past few years, China has also played a constructive role in trying 
to resolve the North Korean nuclear crisis by hosting the Six-Party 
Talks, although its approach differs from that of the United States 
because its strategic interests in North Korea differ. The bottom line 
is that China can and must do more to work effectively on global 
nuclear proliferation challenges. Although China will be guided by its 
own interests, the United States will play a pivotal role in how and 
when China engages.
    India has, not surprisingly, been missing from the global 
nonproliferation effort. Since India is outside the nonproliferation 
regime because it did not sign the NPT, it is viewed by many as a 
proliferator. It views itself as a legitimate nuclear weapon state with 
a commendable nonproliferation record. India's nuclear program has been 
shaped largely by the international sanctions that followed its first 
nuclear test in 1974. The sanctions appeared to have done little to 
limit India's nuclear weapon program, but they have limited its nuclear 
energy program and prevented cooperation in nonproliferation. Some 
welcome progress has been made recently in the area of nuclear reactor 
safety through cooperative efforts between the U.S. Nuclear Regulatory 
Commission and the Indian Atomic Energy Regulatory Board. There is much 
that should be done to work with India on its domestic safeguards and 
on its international nonproliferation support.
    The European Union has been a constructive member of the 
international nonproliferation effort. Several of its members have 
promoted global nuclear security and combating nuclear terrorism 
through G-8 initiatives with the United States. The EU-3 (Germany, 
France and the United Kingdom) have led the frustrating nuclear 
negotiations with Iran over the past few years.
    In recent years, the United States has carried the brunt of the 
international burden in preventing nuclear proliferation and combating 
the potential of global nuclear terrorism. It played the leading role 
in helping Russia cope with the nuclear dangers inherent in the breakup 
of the Soviet Union. We have turned our attention to focus on the 
global nature of the threat but, despite U.S. efforts, we appear to be 
losing ground. It is critical to enlist the full participation of the 
other major players in the nuclear arena. They should be enlisted in 
partnerships that span a broad spectrum of nuclear cooperation: This 
should include, for example, best practices in nuclear materials 
security, development of nuclear materials data bases, nuclear 
detection technologies, proliferation risk analysis, emergency 
response, nuclear forensics and attribution.
    The IAEA's role should be strengthened. The international 
safeguards effort is under enormous strain. The special inspection in 
North Korea and Iran require significant effort. The IAEA's overall 
workload has increased dramatically over the past 25 years. The number 
of safeguarded facilities has increased more than three-fold and the 
amount of HEU and separated plutonium has increased six-fold. The 
Additional Protocol has increased the number and complexity of 
inspections. Yet, the overall budget of the agency has remained 
relatively flat. The expansion of commercial nuclear power will tax the 
IAEA beyond its current capacity.
 strengthening the nonproliferation regime and expanding nuclear power
    The nonproliferation regime is under stress. North Korea's nuclear 
program and Iran's determined drive to uranium enrichment demonstrate 
how some nations use the NPT's promotion of civilian nuclear programs 
clandestinely to develop nuclear weapons or develop the nuclear weapon 
option. This problem is compounded by the fact that Article X allows 
nations to withdraw from the treaty without penalty. The recent 
revelations about Syria's clandestine nuclear program are especially 
troublesome because it was generally believed that national technical 
means would detect such a massive effort long before it entered such an 
advanced stage. The nonnuclear weapons states express an additional 
concern. They contend that the nuclear weapon states have not met their 
Article VI obligations toward nuclear disarmament. These differences 
contributed to the disastrous outcome of the 2005 NPT review 
conference. Prospects for the 2010 conference look just as grim unless 
progress is made on the North Korean and Iranian problems and on 
Article VI obligations.
    All of these concerns have surfaced just when commercial nuclear 
power is poised to take off globally because of worldwide energy demand 
and concerns about global climate change. An expansion of nuclear power 
will bring additional challenges to secure more nuclear material in 
more countries and to prevent additional states from turning their 
nuclear energy capabilities into nuclear weapons programs. The DOE's 
Global Nuclear Energy Partnership is a step in the right direction, but 
it needs better definition domestically and must become truly global to 
take into account the needs of the principal partners as well as those 
interested in future nuclear power.
 strengthening u.s. technical capabilities to combat proliferation and 
                           nuclear terrorism
    The proliferation of nuclear weapons and weapons capability is 
growing. The danger of nuclear terrorism is real. This is not a fight 
the United States can win alone. We cannot simply push the dangers 
beyond our borders. It is imperative to forge effective partnerships to 
combat the dangers of nuclear terrorism and the proliferation of 
nuclear weapons. Meeting these challenges will require diplomatic 
initiative and technical cooperation. The United States must lead 
international diplomacy and DOE/NNSA must provide technical leadership 
and capabilities.
    Unfortunately, the technical talent and facilities at the DOE/NNSA 
laboratories are steadily eroding. The technology base for 
nonproliferation and counter-terrorism activities rested on robust 
research programs in nuclear weapons and nuclear energy. Nuclear energy 
programs in the United States are just re-emerging from a couple of 
decades of inactivity. Nuclear weapons research has declined and has 
increasingly restricted its breadth of research. Moreover, facilities 
that were previously available for safeguards research are more 
difficult and costly to access. Consequently, more of the burden has 
fallen on the nonproliferation and verification budget of the NNSA. It 
has not kept up with the increased need for technical innovation in 
these areas.
    In addition, much of the safeguards technology developed and 
deployed around the world was typically demonstrated and refined 
domestically in U.S. nuclear facilities. These domestic safeguards 
technology development programs provided the foundation for measurement 
technologies, systems analysis and modeling in safeguards. For example, 
in the mid-1990's the Los Alamos National Laboratory had over $7 
million in domestic safeguards funding primarily focused on advancing 
the state of the art in nondestructive analysis. Today, it is 
approximately $250,000. Most of the domestic funds are expended for 
physical protection--guns, bullets and concrete to repel external 
threats based on the design basis threat. Consequently, we are falling 
behind in applying modern technologies to safeguard our domestic 
facilities and our technology base for safeguards is at risk. Moreover, 
it has become increasingly difficult to operate domestic nuclear 
facilities productively. The regulatory environment combined with a 
risk-averse operating environment has made it difficult to get work 
done, consequently losing the interest of some of the talent necessary 
for such programs. Recruitment of new talent in safeguards and other 
areas important in safeguards and verification has been difficult. A 
recent study by the American Physical Society and the American 
Association for the Advancement of Science \1\ pointed out the great 
difficulty in educating and training scientific talent in nuclear 
forensics and disciplines such as radiochemistry.
---------------------------------------------------------------------------
    \1\ Michael May, Chair, ``Nuclear Forensics Role, State of the Art, 
and Program Needs,'' Joint Working Group of, AAAS, APS Physics, 2007.
---------------------------------------------------------------------------
    The DOE/NNSA leadership has recognized these problems and recently 
launched the Next Generation Safeguards Initiative. This initiative 
would strengthen domestic capabilities by launching a generational 
improvement in safeguards technologies. It would greatly enhance the 
application of modern information technologies to safeguards. Other 
priorities include advanced safeguards approaches and proliferation 
risk assessments; enhanced modeling and simulation tools to better 
integrate safeguards into the design of new facilities; improved 
automation and automated process monitoring systems with real-time data 
transmission; better measurement technologies; and portable and 
multifunctional detectors. The Initiative recognizes the need to 
transfer these improvements to the IAEA so that it can deploy them in 
the field to meet the demand for greater and more sophisticated 
inspections. It also recognizes the need to build university-laboratory 
partnerships to provide educational support and training opportunities 
for the next generation of safeguards specialists. The Initiative also 
properly recognizes the need to leverage the nuclear capabilities of 
other nations to strengthen domestic and international safeguards 
capabilities. I strongly encourage the DOE/NNSA to develop this 
initiative and Congress to provide adequate funds.
    I want to make some final comments on the importance of having our 
technical specialists on the ground in country. The NNSA technical 
teams in Russia have been crucial in assessing the risks in the Russian 
nuclear complex, in comparing technologies and approaches to nuclear 
security and to learn from Russia's practices and experience. My recent 
trip to India's nuclear centers underscored the importance of an in-
country presence. I gained a much better appreciation for their 
domestic safeguards and security practices. I learned just how strongly 
the Indian nuclear energy program is geared to self-reliance. I learned 
how international sanctions over more than 30 years have slowed India's 
drive toward nuclear energy, but most likely not done much to slow its 
nuclear weapon progress. I found that whereas sanctions slowed progress 
in nuclear energy, they made India self-sufficient in nuclear 
technologies and world leaders in fast reactor technologies. While much 
of the world's approach to India has been to limit its access to 
nuclear technology, it may well be that today we limit ourselves by not 
having full access to India's nuclear technology developments. Such 
technical views should help to advise the diplomatic efforts with 
India.
    I have been in North Korea five times in the past 4 years and 
visited the Yongbyon Nuclear Center three times, including this past 
February 14. I have had sufficient access to make a reasonable 
technical assessment of North Korea's nuclear capabilities. North Korea 
has the bomb, but not much of a nuclear arsenal. It has most likely 
produced and separated between 40 and 50 kilograms of plutonium, 
sufficient for about six to eight bombs. I believe that North Korea is 
seriously disabling its Yongbyon nuclear facilities and that 
elimination of plutonium production is within reach. I was able to 
witness the activities of the DOE/NNSA technical teams on the ground in 
Yongbyon. They have done a superb job supervising the disablement of 
the Yongbyon facilities and they have very ably advised and supported 
the diplomatic process. I provide a detailed report of my observations 
and conclusions in Attachment II.

    Senator Dorgan. Dr. Hecker, thank you very much.
    Dr. Bunn, you may proceed.
    Senator Domenici. Dr. Bunn, would you wait a minute?
    Before Mr. Tobey leaves, I wonder if I could tell him that 
I want to ask a question for the record. I am going to leave 
it.
    Senator Dorgan. Yes.
    Senator Domenici. I am you going to leave a question about 
the 123 agreement and what we can expect from it. So that will 
be here for you before you leave.
    Thank you, Mr. Chairman.
    Thank you very much, Dr. Bunn.
STATEMENT OF DR. MATTHEW BUNN, BELFER CENTER FOR 
            SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. 
            KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
            UNIVERSITY
    Dr. Bunn. Thank you. It is an honor to be here today to 
talk about preventing nuclear terrorism and nuclear 
proliferation, which are critical issues for our national 
security.
    Money is probably not the most important constraint on our 
ability to reduce these risks, but there are several areas 
where bigger budgets could mean faster progress.
    NNSA's nonproliferation programs are excellent investments 
in our national security and they are making substantial 
progress, as we have already heard. But the next President will 
find that much more still remains to be done, and with this 
year's budget, Congress should really focus on making sure that 
the next team has the resources and the flexibility to hit the 
ground running when they take office in January.
    I urge Congress to complete a budget this year. Operating 
on continuing resolutions for months into the fiscal year can 
be crippling for some of these fast-changing programs that have 
to respond to rapidly changing opportunities.
    So let me outline a few priorities.
    The first priority is preventing nuclear terrorism, and our 
most effective tool for doing that is to secure nuclear weapons 
and materials at their source so they cannot be stolen and fall 
into terrorist hands. We urgently need a global campaign to 
ensure that all the caches of nuclear weapons and materials, 
not just the ones in Russia, are secure and accounted for to 
standards sufficient to defeat the kinds of threats that 
terrorists and criminals have shown they can pose in ways that 
will work and in ways that will last after our assistance 
phases out. There are many obstacles to achieving that 
objective. It is going to take sustained leadership from the 
highest levels of the Government.
    The International Nuclear Materials Protection and 
Cooperation Program face costs in Russia that have shot up 
since their budget was put together. More expensive estimated 
costs to help Russian sites prepare to sustain security on 
their own and new opportunities in both Russia and South Asia. 
And I recommend an increase of about $60 million to $70 million 
in their budget.
    In the case of the Global Threat Reduction Initiative, more 
money is needed to further accelerate the conversion of highly 
enriched uranium-fueled research reactors to proliferation-
resistant LEU fuel, to accelerate the pace of removing nuclear 
material, to broaden that removal to cover a larger fraction of 
the world's HEU and a broader set of policy tools for 
convincing sites to give it up, and to secure radiological 
sources in research reactors around the world. All told, I 
think that they might need as much as an additional $200 
million or more to move forward as rapidly as they can in 
reducing these security risks.
    We also need additional steps to establish effective global 
standards for nuclear security, building on Security Council 
Resolution 1540 that requires every state to have effective 
nuclear security in place.
    I believe we also need a larger investment in nuclear 
forensics where, at least at some of our labs, they have 
actually had to lay off some of their people working on nuclear 
forensics in recent times.
    Next, it is critical that the next President engage with 
the governments of North Korea and Iran to put together a 
package, an international package, of carrots and sticks big 
enough and credible enough to convince them to give up their 
nuclear weapons ambitions and allow the verification that we 
would require. That will be mostly a White House and State 
Department effort, but Congress should be prepared to provide 
supplemental funding as needed for NNSA to take part in the 
verification of packaging of nuclear material, the 
dismantlement of nuclear facilities, and so on.
    Third, we need to reduce the demand for nuclear weapons, an 
effort that has been much more successful than many people 
realize. Here again, the White House, the State Department, and 
the Defense Department will be taking the lead, but things that 
NNSA does make a difference as well. When we send a signal that 
despite having the world's most powerful conventional forces, 
we are going to need a large arsenal of nuclear weapons 
essentially forever, that we need new nuclear weapons and we 
need a complex that can rapidly build more nuclear weapons, we 
strengthen the arguments of nuclear hawks in other countries 
arguing that their own countries need nuclear weapons as well.
    Moreover, it is very difficult to get the votes of non-
nuclear weapons states, even our closest allies, for stronger 
safeguards, tougher export controls, better enforcement, all of 
which mean more constraints on them if we are not willing to 
accept constraints ourselves and live up to our NPT obligation 
to move toward disarmament. The next President is going to have 
to hit the ground running to reestablish our disarmament 
credentials, given that the next NPT review is coming up in 
2010.
    I believe that we need, given the experience of the A.Q. 
Khan network, a dramatically improved ability worldwide to stop 
black market nuclear trafficking. This will involve stepped-up 
police and intelligence cooperation, but we also need at NNSA, 
I think, an expanded effort to help countries around the world 
put effective export controls, border controls, transshipment 
controls in place, as required by UNSC 1540. And I recommend an 
increase of about $10 million to $15 million for that effort.
    As we look at the growth and spread of nuclear energy 
around the world, we need to make sure that that does not 
contribute to the spread of nuclear weapons. Congress took an 
important step last year in providing $50 million for a fuel 
bank that will give countries additional assurance that they 
can rely on international supplies of fuel rather than building 
their own enrichment plants. And I am hopeful, although there 
are still some issues in play, that we can reach agreement to 
establish one or more fuel banks by the end of this year.
    At the same time, we need to pursue even stronger 
incentives to convince states not to build their own enrichment 
and reprocessing plants. I think in that context, building a 
reprocessing plant of our own in the near term in my view would 
be a step in the wrong direction. I think that the Congress 
provided about the right amount of money for GNEP last year. I 
would encourage you to provide a similar budget this year and 
to provide the kind of direction that this subcommittee did 
last year for GNEP.
    As we have heard already, NNSA is launching a Next 
Generation Safeguards Initiative designed to reinvest in both 
the technology and the people for strong safeguards, which we 
urgently need, and I would recommend an increase of $10 million 
to $15 million for that initiative as well beyond the budget 
request.
    Now, with respect to the programs to redirect weapons 
expertise in the former Soviet Union and elsewhere, there has 
been a lot of criticism of those programs recently, much of 
which I believe is unjustified. I do believe that those 
programs, despite the improving Russian economy, do still have 
a value that is worth the small investment that we make in 
them.
    Finally, we need information to support all of these 
policies. We need good intelligence and we need good analysis. 
I commend Congress for supporting increases in DOE's 
intelligence budget in recent years, and those increases have 
supported important new programs like the Nuclear Materials 
Information Program.
    But it is my understanding that at some of the 
laboratories, some of the critical intelligence capabilities, 
such as Livermore's Z Division, have been substantially cut 
back in the last year or so, and I would urge Congress to take 
action to reverse that because those capabilities are really 
some of the most important nuclear intelligence capabilities 
our Government has.
    I also recommend that Congress provide roughly $10 million 
so that NNSA can start taking a page from the play book of the 
Department of Homeland Security in establishing centers of 
excellence and other ways that they can draw on expertise from 
academia and from other non-government institutions to help 
them do their job better.

                           PREPARED STATEMENT

    In my prepared statement, I also talk about the issues of 
reducing plutonium and HEU stockpiles which remain troublesome 
problems, as Senator Domenici mentioned, but in the interest of 
time, I will leave that to questions.
    Thank you very much, Mr. Chairman, members of the 
committee.
    [The statement follows:]
                 Prepared Statement of Dr. Matthew Bunn
    Mr. Chairman and members of the committee: It is an honor to be 
here today to talk about critical issues for U.S. and world security--
nuclear terrorism and nuclear proliferation, and what more the National 
Nuclear Security Administration (NNSA) can do to prevent them.
    My basic message today is simple: while money is not the most 
important constraint on progress for most of the Nation's efforts to 
prevent nuclear proliferation and terrorism, there are several areas 
where additional funds could help reduce major dangers to our national 
security.
    NNSA's nonproliferation programs are critical tools in our Nation's 
nonproliferation toolbox. There can be no doubt that America and the 
world face a far lower risk of nuclear terrorism today than they would 
have had these efforts never been begun. These programs are excellent 
investments in U.S. and world security, deserving strong support; 
Americans and the world owe a substantial debt of gratitude to the 
dedicated U.S., Russian, and international experts who have been 
carrying them out.
    With this year's budget, Congress should focus on making sure a new 
team has the resources and flexibility to hit the ground running in 
reducing proliferation threats when they take office in January. I 
would urge Congress to complete a budget despite the pressures of an 
election year; operating on continuing resolutions until many months 
into a new fiscal year can be crippling for fast-changing programs such 
as these, making it very difficult to seize opportunities as they 
arise.
    These programs are making substantial progress in reducing 
proliferation threats. But in many areas, there will still be much more 
to do when a new team takes office. While many of the programs in 
Russia are nearing completion, and their budgets will decline, efforts 
elsewhere around the world must expand to address the global threat, 
taking up the slack. Clear indicators of the global nature of the 
threat are everywhere--from the nuclear programs in North Korea and 
Iran, to the global attacks by al Qaeda and their repeated efforts to 
get the materials and expertise needed to make a bomb, to roughly 20 
countries where the A.Q. Khan black-market nuclear network succeeded in 
operating for the more than 20 years before finally being disrupted, to 
the break-in at the Pelindaba site in South Africa last November, when 
four armed men penetrated the security fence without setting off any 
alarm at a site with hundreds of kilograms of weapon-grade highly-
enriched uranium (HEU), and spent 45 minutes inside the facility 
without ever being engaged by the site's security forces.
    I will not attempt to assess every element of NNSA's 
nonproliferation budget. Rather, I will outline several key 
nonproliferation priorities, and make recommendations for further steps 
NNSA or other parts of DOE can take to address them. Many of the needed 
actions to strengthen the global nonproliferation regime must be taken 
by the White House or the State Department; NNSA's critical role is in 
providing the technical expertise needed to back up nonproliferation 
initiatives, particularly in the management of nuclear weapons and 
materials.\1\ Most of these programs are constrained more by limited 
cooperation (resulting from secrecy, complacency about the threat, 
concerns over national sovereignty, and bureaucratic impediments) than 
they are by limited budgets; sustained high-level leadership focused on 
overcoming the obstacles to cooperation is the most important 
requirement for success.\2\ But in some cases, programs could move more 
quickly to seize risk reduction opportunities that already exist if 
their budgets were increased--and in still more cases, more money would 
be needed to implement a faster and broader effort if the other 
obstacles could be overcome.
---------------------------------------------------------------------------
    \1\ Most of that expertise resides at the national laboratories, 
not at DOE headquarters. This requires a continuing effort to build 
effective headquarters-laboratory partnerships, giving the labs the 
freedom to do what they do best, while keeping the policy-making 
functions with Federal officials.
    \2\ For an in-depth assessment of the programs focused on security 
for nuclear weapons and materials, see Matthew Bunn, Securing the Bomb 
2007 (Cambridge, Mass.: Nuclear Threat Initiative and Project on 
Managing the Atom, Harvard University, September 2007). The 2008 
edition is forthcoming.
---------------------------------------------------------------------------
                      preventing nuclear terrorism
    The first priority is to prevent terrorists from incinerating the 
heart of a major city with a nuclear bomb--as al Qaeda have made clear 
they hope to do. This remains a real danger, though no one can 
calculate the probability of such a catastrophe.\3\
---------------------------------------------------------------------------
    \3\ See, for example, testimony of Charles Allen, Rolf Mowatt-
Larsen, Matthew Bunn, and Gary Ackerman to the Senate Committee on 
Homeland Security and Governmental Affairs, hearing on ``Nuclear 
Terrorism: Assessing the Threat to the Homeland,'' 2 April 2008.
---------------------------------------------------------------------------
    The step we can take that most reduces this danger is securing 
nuclear weapons and materials at their source--for making plutonium or 
HEU is beyond the plausible capability of terrorist groups, and if we 
can keep these materials and nuclear weapons themselves out of 
terrorist hands, we can keep terrorists from ever getting a nuclear 
bomb. NNSA's programs are in the process of completing the security 
upgrades in Russia planned as part of the Bratislava initiative, and 
those upgrades are dramatically reducing critical risks. But the 
problem of inadequately secured nuclear stockpiles is not just a 
Russian problem, it is a global problem. Hundreds of buildings in more 
than 30 countries contain enough of the essential ingredients of 
nuclear weapons to require the highest standards of security. The world 
urgently needs a global campaign to ensure that all the caches of 
nuclear weapons and the materials needed to make them worldwide are 
secure and accounted for, to standards sufficient to defeat the threats 
terrorists and criminals have shown the can pose, in ways that will 
work, and in ways that will last. Overcoming the many obstacles to 
achieving this objective will require sustained political leadership 
from the highest levels of our Government.
                  budget increases for mpc&a and gtri
    But getting the job done as fast as it can be done will also 
require more money. In the case of the International Nuclear Materials 
Protection and Cooperation program (more commonly known as Materials 
Protection, Control, and Accounting, or MPC&A), construction costs in 
Russia have shot up since the administration prepared its budget 
request; helping Russian sites to prepare to sustain high levels of 
security is proving more expensive than expected; and new 
understandings have opened new opportunities for nuclear security 
cooperation in both Russia and South Asia. All told, I recommend an 
increase of $60-$70 million over the requested budget for the MPC&A 
effort.
    In the case of the Global Threat Reduction Initiative (GTRI), there 
are now 45 HEU-fueled research reactors that could convert to low-
enriched uranium (LEU) that cannot power a nuclear bomb with LEU fuels 
already available; GTRI has already accelerated the pace of these 
conversions, but with more money, these reactors could be converted 
faster. There will also be a need to build a fabrication plant for the 
higher-density LEU fuels now in development, in order to convert 
additional reactors, and GTRI will likely have to play a role in that--
either by paying to build the plant or by guaranteeing fabrication 
contracts to give private firms sufficient incentives to pay for 
building their own own facilities. Additional funds could also 
accelerate the pace of removing nuclear material from vulnerable sites 
around the world (in part because here, too, prices are escalating). 
And more money is also needed to secure radiological sources and 
research reactors around the world--including here in the United 
States, where upgrades are needed for some 1,800 locations with sources 
of 1,000 curies or more, and for the Nation's 32 domestic research 
reactors. Moreover, GTRI is so far planning to return only a small 
fraction of the U.S.-origin HEU abroad; while most of the remainder is 
in developed countries, in many cases there is good reason to bring 
this material back as well, and more funds would be required to give 
these facilities incentives to give up their HEU. Finally, NNSA does 
not yet have a program focused on giving underutilized HEU-fueled 
reactors incentives to shut down--in many cases likely to be a quicker 
and easier approach than conversion. All told, I believe that an 
additional $200 million or more is needed for GTRI to move forward as 
rapidly as possible in reducing these risks.\4\
---------------------------------------------------------------------------
    \4\ This does not include the potential cost of packaging and 
removing plutonium and plutonium-bearing spent fuel from North Korea, 
if an agreement to take those steps is reached. That substantial cost 
would likely have to be funded through a supplemental request.
---------------------------------------------------------------------------
                  other needed nuclear security steps
    Several additional steps could significantly contribute to efforts 
to secure nuclear stockpiles worldwide.
    Building the Sense of Urgency.--The fundamental key to success in 
these efforts is convincing political leaders and nuclear managers 
around the world that nuclear theft and terrorism are real threats to 
their countries' security, worthy of a major investment of their 
attention and resources. If they are convinced of this, they will take 
the needed actions to prevent nuclear terrorism; if they remain 
complacent about the threat and how much it could affect them, they 
will not take those actions. Congress should consider making funds 
available for activities to build this sense of urgency and commitment, 
including joint briefings on the nuclear terrorist threat, nuclear 
terrorism exercises and simulations, helping states perform realistic 
``red team'' tests of their nuclear security systems, and more.\5\ Such 
efforts might be implemented under the rubric of the Global Initiative 
to Combat Nuclear Terrorism--which has the potential to become the kind 
of global campaign to improve nuclear security that is urgently needed, 
though to date it has focused more on matters such as police training 
and emergency preparedness than on nuclear security upgrades.
---------------------------------------------------------------------------
    \5\ For a list of suggestions, see Bunn, Securing the Bomb 2007, 
pp. xxx.
---------------------------------------------------------------------------
    Forging Effective Global Nuclear Security Standards.--As nuclear 
security is only as strong as its weakest link, the world urgently 
needs effective global nuclear security standards that will ensure that 
all nuclear weapons and weapons-usable materials are protected against 
the kinds of threats terrorists and criminals have shown they can 
pose--at a bare minimum, against two small teams of well-trained, well-
armed attackers, possibly with inside help, as occurred at Pelindaba. 
(In some countries, protection against even more capable threats is 
required.) U.N. Security Council Resolution 1540 legally requires all 
countries to provide ``appropriate effective'' security and accounting 
for all their nuclear stockpiles. The time has come to build on that 
requirement by reaching a political-level agreement with other leading 
States on what the essential elements of appropriate effective security 
and accounting systems are, and then working to ensure that all States 
put those essential elements in place. In last year's defense 
authorization act, Congress called on the administration to seek to 
develop such effective global standards; Congress should now act to 
ensure that the administration is taking this step, and provide funding 
to support such efforts if needed. Ultimately, effective security and 
accounting for weapons-usable nuclear material should become part of 
the ``price of admission'' for doing business in the international 
nuclear market.
    Achieving Sustainability.--UIf the upgraded security equipment the 
United States is helping countries put in place is all broken and 
unused in 5 years, U.S. security objectives will not be accomplished. 
NNSA is working closely with Russia to try to ensure that Russia puts 
in place the resources, incentives, and organizations needed to sustain 
high levels of security for the long haul--but there is much left to 
do, and similar efforts will be needed wherever nuclear security 
upgrades are undertaken. As most nuclear managers only invest in 
expensive security measures when the government tells them they have 
to, strong regulation is essential to achieving and maintaining 
stringent standards of nuclear security, and there is far more to do to 
get effective nuclear security and accounting regulations in place 
around the world.
    Strengthening security culture.--As Gen. Eugene Habiger, former DOE 
``security czar'' and former commander of U.S. strategic forces, has 
remarked: ``good security is 20 percent equipment and 80 percent 
culture.'' We need to increase efforts to build security cultures that 
will put an end to guards patrolling without ammunition or staff 
propping open security doors for convenience. NNSA is working this 
problem hard, but changing the day-to-day attitudes and practices at 
scores of facilities in dozens of countries with many different 
national cultures, where we have only very limited influence, is an 
extraordinarily difficult policy problem. Convincing nuclear managers 
and staff that the threats of nuclear theft and sabotage are real will 
be fundamental, and many of the steps needed to build high-level 
commitment to nuclear security will also help in building strong 
security cultures. Efforts similar to those now being undertaken in 
Russia need to be undertaken wherever nuclear weapons and the materials 
to make them exist. We also need more effort to learn from cases where 
facilities or organizations have succeeded in transforming their 
security or safety cultures--and from cases where they have failed to 
do so.
    Consolidating Nuclear Stockpiles.--We need to do everything we can 
to reduce the number of buildings and bunkers worldwide where nuclear 
weapons and the materials needed to make them are located, achieving 
more security at lower cost. Our goal should be to remove all nuclear 
material from the world's most vulnerable sites and ensure effective 
security wherever material must remain within 4 years or less. Over 
time, the United States should seek an end to all civil use of HEU. And 
we should not encourage commercial reprocessing and recycling of 
plutonium, as proposed in the Global Nuclear Energy Partnership (GNEP); 
even the proposed GNEP processes that do not separate ``pure 
plutonium'' would tend to increase, rather than decreasing, nuclear 
theft and nuclear proliferation risks compared to not reprocessing this 
fuel.\6\ We should also work to reduce the total stockpiles of weapons 
and materials that must be guarded, including by ending production of 
more. NNSA's recent success in enabling Russia to shut down one of its 
three remaining plutonium production reactors--and the shut-down of the 
remaining two, planned in the next 2 years--is a major milestone. But 
there is more to be done. It is time to get serious about negotiating a 
verifiable global treaty ending production of nuclear materials for 
weapons forever, to stop the production of highly enriched uranium for 
any purpose, and to stop piling up ever larger stockpiles of separated 
civilian plutonium. In particular, Congress should direct NNSA to 
return to the negotiation of a 20-year moratorium on separating 
plutonium in the United States and Russia that was nearly completed at 
the end of the Clinton administration. The troubled plutonium 
disposition effort and opportunities for expanded disposition of HEU 
are important topics treated in more detail at the end of this 
statement. Over the longer term, if properly managed, serious pursuit 
of the steps toward a nuclear weapon free world advocated by 
Secretaries Shultz, Kissinger, and Perry and Senator Nunn could make a 
significant long-term contribution to reducing nuclear terrorism 
risks.\7\
---------------------------------------------------------------------------
    \6\ See discussion in Matthew Bunn, ``Risks of GNEP's Focus on 
Near-Term Reprocessing,'' testimony before the Committee on Energy and 
National Resources, U.S. Senate, 14 November 2007, available as of 28 
March 2008 at http://belfercenter.ksg.harvard.edu/files/bunn-GNEP-
testimony-07.pdf. The radioactivity of the plutonium-bearing materials 
that would be recovered in proposed GNEP processes is not remotely 
enough to deter theft by determined terrorists. See Jungmin Kang and 
Frank Von Hippel, ``Limited Proliferation-Resistance Benefits from 
Recycling Unseparated Transuranics and Lanthanides from Light-Water 
Reactor Spent Fuel,'' Science and Global Security 13, no. 3 (2005).
    \7\ See George P. Shultz, William J. Perry, Henry A. Kissinger, and 
Sam Nunn, ``Toward a Nuclear-Free World,'' Wall Street Journal, 15 
January 2008, and Matthew Bunn, ``Securing Nuclear Stockpiles 
Worldwide,'' in Reykjavik Revisited: Steps Toward a World Free of 
Nuclear Weapons (Palo Alto: Hoover Institution, forthcoming). For 
recent discussions of steps to reduce existing stockpiles of HEU and 
separated plutonium, see Matthew Bunn and Anatoli Diakov, ``Disposition 
of Excess Highly Enriched Uranium,'' and ``Disposition of Excess 
Plutonium,'' in Global Fissile Materials Report 2007 (Princeton, NJ: 
International Panel on Fissile Materials, October 2007, available as of 
28 March 2008 at http://www.fissilematerials.org), pp. 24-32 and 33-42.
---------------------------------------------------------------------------
    Strengthening International Approaches.--The International Atomic 
Energy Agency (IAEA) has a key role to play in improving nuclear 
security--helping to develop standards and recommendations, providing 
international peer reviews of nuclear security arrangements, 
coordinating efforts among different donors contributing to nuclear 
security improvements, and more. Some countries trust the IAEA in a way 
that they will never trust the United States, and the Agency is 
uniquely positioned to develop international security recommendations 
that will be broadly accepted around the world. But the IAEA's Office 
of Nuclear Security is constantly hampered by its very limited budget, 
which is tightly constrained by earmarks for donors' favored projects. 
While U.S. contributions to the IAEA largely flow through the State 
Department, NNSA has made substantial contributions to the Office of 
Nuclear Security in the past. I recommend that Congress direct an 
additional $5-$10 million contribution to the IAEA's Office of Nuclear 
Security, to strengthen its efforts to contribute to nuclear security 
worldwide.
    Sharing Nuclear Security Best Practices.--Just as the nuclear 
industry created the World Association of Nuclear Operators (WANO) 
after the Chernobyl accident, to bring the worst performers on safety 
up to the level of the best performers, the world needs a World 
Institute of Nuclear Security (WINS), to provide a focus for exchanging 
best practices in nuclear security and material control and accounting. 
The Nuclear Threat Initiative (NTI) and the Institute for Nuclear 
Materials Management are working with the nuclear community to 
establish such an institution. To be effective, this should ultimately 
be led by those with direct responsibility for managing nuclear 
material and facilities. But it may be necessary for NNSA and others to 
provide initial seed money to get it going; Congress should consider 
appropriating a few million dollars for that purpose.
    Building Genuine Partnerships.--To be successful, all of these 
efforts must be pursued in a spirit of genuine partnership, serving 
both our interests and those of the partner states, with ideas from 
each side's experts incorporated into the approach; the experts in each 
country know their materials, their facilities, their regulations and 
bureaucracies, and their culture better than we do, and we need to 
listen to them to get the ``buy-in'' essential to long-term 
sustainability. In particular, while these programs must look beyond 
Russia to the world, there is a special need for partnership with 
Russia, as Russia and the United States bear a special responsibility, 
with some 95 percent of the world's nuclear weapons and more than 80 
percent of its stocks of weapons-usable nuclear material. The shift to 
a true partnership approach should include establishing joint teams 
that would help other states around the world upgrade security. The 
Global Initiative to Combat Nuclear Terrorism, co-led by the United 
States and Russia, is an important step in the right direction. But as 
the President and Congress consider actions which strongly affect 
Russian interests, from missile defense in Europe to the expansion of 
NATO to Russia's borders, they need to consider the potential impact on 
the prospects for effective nuclear security partnership as well.
                        beyond nuclear security
    While securing nuclear weapons and materials at their source is the 
most effective tool to reduce the risk, we cannot expect it to be 
perfect. We urgently need a substantially stepped-up effort to build 
police and intelligence cooperation focused on stopping nuclear 
smuggling and the other elements of nuclear plots in countries all over 
the world, including additional sting operations and well-publicized 
incentives for informers to report on such plots. This will make it 
even more difficult for potential nuclear thieves and those who would 
like to buy stolen material to connect, and to put together the people, 
equipment, expertise, and financing for a nuclear bomb conspiracy 
without detection.
    The United States should also work with key states around the world 
to ensure that they put in place laws making any participation in real 
or attempted theft or smuggling of nuclear weapons or weapons-usable 
materials, or nuclear terrorism, crimes with penalties comparable to 
those for murder or treason.
    The Real, But Limited, Role of Radiation Detection.--Radiation 
detection at ports, border crossings, and elsewhere will play a role in 
these later lines of defense, but its contribution to reducing the risk 
of nuclear terrorism will inevitably be limited. The length of national 
borders, the diversity of means of transport, the vast scale of 
legitimate traffic across these borders, the small size of the 
materials needed for a nuclear bomb, and the ease of shielding the 
radiation from plutonium or especially from HEU all operate in favor of 
the terrorists. Neither the detectors now being put in place nor the 
Advanced Spectroscopic Portals planned for the future would have much 
chance of detecting and identifying HEU metal with modest shielding--
though they likely would be effective in detecting plutonium or strong 
gamma emitters such as Cs-137 that might be used in a so-called ``dirty 
bomb.'' \8\ Most of the past successes in seizing stolen nuclear 
material have come from conspirators informing on each other and from 
good police and intelligence work, not from radiation detectors.
---------------------------------------------------------------------------
    \8\ See, for example, Thomas B. Cochran and Matthew G. McKinzie, 
``Detecting Nuclear Smuggling,'' Scientific American, March 2008, 
available as of 28 April 2008 at http://www.sciam.com/
article.cfm?id=detecting-nuclear-smuggling.
---------------------------------------------------------------------------
    Hence, while it is worth making some investment in radiation 
detection, we should not place undue reliance on this line of defense. 
That being said, NNSA's Second Line of Defense program has been 
successful in cooperating with many countries to put radiation 
detection in place at key ports and border crossings, and to take 
advantage of all the opportunities for cooperation with key countries 
that it now has before it would require $50-$60 million beyond the 
budget request.
    A Modified Approach to Cargo Scanning.--Beyond the budget, Congress 
should act to modify the approach to radiation scanning of cargo 
containers approved last year. By requiring 100 percent of containers 
coming into the United States to be scanned (an extraordinarily 
difficult target to meet), offering the possibility of a waiver, and 
setting no requirements for the quality of the scanning or for what 
should be done with the information from the scans, Congress may have 
inadvertently created a situation where the requirement will repeatedly 
be waived and the scanning put in place will be of low quality and lead 
to little action. Congress should approve a revised approach in which 
terrorists would know that each container had a high chance of being 
scanned; the scans were done with the best available scanning 
technology; and the scans would be linked to immediate further search 
and other action in the event of unexplained detections. This would do 
more to keep terrorists from using containers to smuggle nuclear 
weapons and materials. At the same time, Congress should insist that 
the Department of Homeland Security provide a detailed assessment of 
the vulnerability posed by the countless potential pathways for nuclear 
smuggling between official points of entry, and should mandate an 
independent assessment of the cost-effectiveness of large investments 
in radiation detection at official points of entry when intelligent 
adversaries have options for going around them.\9\
---------------------------------------------------------------------------
    \9\ For a more optimistic view on this part of the problem, see 
Levi, On Nuclear Terrorism, pp. 87-96.
---------------------------------------------------------------------------
    A strengthened nuclear forensics effort. Congress should also act 
to strengthen U.S. and international efforts in nuclear forensics (the 
science of examining characteristics of seized nuclear material or 
nuclear material collected after a nuclear blast for clues to where it 
came from). I recommend that Congress increase funding for nuclear 
forensics R&D by at least $10 million and direct that a robust portion 
of available funding be spent to maintain and expand the technical 
capabilities at the U.S. laboratories (currently so much of the funding 
is staying at the Department of Homeland Security that U.S. 
laboratories working on forensics of seized materials have had to lay 
off some of their staff). In addition, I recommend that Congress direct 
the administration to pursue expanded efforts to put together an 
international database of material characteristics. Congress should 
understand, however, that nuclear material has no DNA that can provide 
an absolute match: nuclear forensics will provide a useful but limited 
source of information to combine with other police and intelligence 
information, but will rarely allow us to know where material came from 
by itself.\10\
---------------------------------------------------------------------------
    \10\ See Nuclear Forensics Working Group (Michael May, chair), 
Nuclear Forensics: Role, State of the Art, Program Needs (Washington, 
DC: American Physical Society and American Association for the 
Advancement of Science, February 2008).
---------------------------------------------------------------------------
                    coping with north korea and iran
    The next priority is to cope with the nuclear programs of North 
Korea and Iran. If both North Korea and Iran become established nuclear 
weapon States, this will be a dramatic blow to the entire global effort 
to stem the spread of nuclear weapons, and will put significant 
pressure on some of their neighbors to follow suit. The Bush 
administration's no-engagement approach to Iran has clearly failed, 
allowing Iran to move forward unimpeded with a substantial enrichment 
capability, just as the administration's earlier ``threaten and watch'' 
approach to North Korea failed utterly, leaving North Korea with a 
tested nuclear bomb and enough plutonium to make 5-12 nuclear weapons. 
The next president needs to take a new tack, putting together 
international packages of incentives and disincentives large enough and 
credible enough to convince the North Korean and Iranian governments 
that it is in their national interests to agree to arrangements that 
would put a wide and verifiable gap between them and a nuclear weapons 
capability. If we want these governments to address our concerns, the 
U.S. Government will have to address some of their key concerns--which 
may in the end require difficult choices, such as providing Iran with a 
security assurance as part of such an agreement, and acknowledging that 
at this point, a ban on all enrichment in Iran, however desirable, can 
no longer be achieved.\11\ It is primarily the White House and the 
State Department that need to take action, but Congress should be 
prepared to provide supplemental funding as needed for NNSA support to 
verification, packaging and removing nuclear materials and equipment, 
and helping to decommission nuclear facilities and redirect nuclear 
experts.
---------------------------------------------------------------------------
    \11\ For a discussion of the risks to U.S. national security of 
continuing to insist on zero enrichment in Iran, see Matthew Bunn, 
``Constraining Iran's Nuclear Program: Assessing Options and Risks,'' 
presentation at Oak Ridge National Laboratory, 15 November 2007, 
available as of 28 April 2008 at http://belfercenter.ksg.harvard.edu/
files/Matthew_Bunn_Oak_Ridge.pdf. For an imaginative proposal for a 
multilaterally owned and staffed enrichment facility in Iran, designed 
so that it can be easily and permanently disabled if Iran ever takes 
action to turn it to weapons use, see Geoffrey Forden and John 
Thompson, Iran as a Pioneer Case for Multilateral Nuclear Arrangements 
(Cambridge Mass.: Science, Technology, and Global Security Working 
Group, Massachusetts Institute of Technology, 2006 (revised 2007), 
available as of 28 April 2008 at http://mit.edu/stgs/irancrisis.html. 
For a discussion of the current issues, and of a proposal similar to 
the Forden-Thompson proposal, see William Luers, Thomas R. Pickering, 
and Jim Walsh, ``A Solution for the U.S.-Iran Nuclear Standoff,'' New 
York Review of Books, 20 March 2008, available as of 28 April 2008 at 
http://www.nybooks.com/articles/21112.
---------------------------------------------------------------------------
                  reducing demand for nuclear weapons
    The third priority is to reduce the demand for nuclear weapons 
around the world. Efforts to reduce demand have been more successful 
than is usually recognized. Today, there are more countries that 
started nuclear weapons programs and then decided to give them up and 
accept international inspections than there are states with nuclear 
weapons--meaning that even once states start nuclear weapons programs, 
efforts to convince them that nuclear weapons are not in their interest 
succeed more often than they fail.
    Here, too, many of the needed steps require White House, State 
Department, or Defense Department action. But NNSA's programs can have 
an important effect on the demand for nuclear weapons as well. When the 
country with the most powerful conventional forces on earth insists 
that large numbers of nuclear weapons are essential to its security, 
that they will remain essential forever, that new nuclear weapons are 
needed, and that a transformed complex that is ``responsive'' in the 
sense that it could rebuild a larger nuclear arsenal if need be is also 
essential, this strengthens the arguments of those in other countries 
arguing that their country also needs nuclear weapons. Perhaps even 
more important, it will be far more difficult to get political support 
from non-nuclear-weapon states for stronger safeguards, more stringent 
export controls, tougher enforcement, and the other measures urgently 
needed to strengthen the global nonproliferation regime--all of which 
involve more constraints and costs for them--if the United States and 
the other NPT weapon states are seen as failing to live up their legal 
obligation, under Article VI of the Nonproliferation Treaty (NPT), to 
move in good faith toward nuclear disarmament.
    I believe that the case has not been made that the claimed benefits 
of the Reliable Replacement Warhead (RRW) outweigh these and other 
potential downsides. I recommend that the Congress continue to refuse 
to fund that program, and direct NNSA to focus on a smaller, cheaper 
complex designed only to support a much smaller nuclear stockpile for 
the future. The next president should recommit the United States to the 
Comprehensive Test Ban Treaty, and work to build the support in the 
Senate that will be necessary for ratification.
    More broadly, the United States and Russia, as the states with the 
world's largest nuclear stockpiles, should agree to reduce their total 
stockpiles of nuclear weapons to a small fraction of those they hold 
today, and to declare all their HEU and plutonium beyond the small 
stockpiles needed to support the remaining agreed nuclear weapon 
stockpiles (and modest set-asides for naval fuel) as excess to their 
military needs. Both countries should put this excess material in 
secure storage sites subject to international monitoring, and reduce 
these stocks through use or disposal as quickly as that can safely, 
securely, and cost-effectively be done.\12\
---------------------------------------------------------------------------
    \12\ In the Trilateral Initiative, the United States, Russia, and 
the IAEA developed technologies, procedures, and legal agreements that 
would make it possible for excess material to be placed under 
international monitoring irrevocably, without revealing classified 
information. I will address the issue of disposition of excess material 
in more detail at the end of this testimony. For visionary discussions 
of the need for both near-term steps to reduce nuclear danger and a 
broad vision of a world without nuclear weapons, see George P. Shultz, 
William J. Perry, Henry A. Kissinger, and Sam Nunn, ``A World Free of 
Nuclear Weapons,'' Wall Street Journal, 4 January 2007, and ``Toward a 
Nuclear-Free World,'' Wall Street Journal, 15 January 2008.
---------------------------------------------------------------------------
    Toward these ends, I recommend that Congress provide funding and 
direction for NNSA to:
  --Further increase the rate of dismantlement of nuclear weapons and 
        HEU components;
  --Establish international monitoring of HEU and plutonium declared 
        excess to date; and
  --Participate in the British initiative to develop approaches to 
        international verification of nuclear disarmament.
    These steps are particularly important in the lead-up to the NPT 
Review Conference in 2010. In 2005, at a moment when the world needed 
to build consensus on steps to strengthen the global effort to stem the 
spread of nuclear weapons, the NPT Review Conference collapsed in 
disarray, in substantial part because the Bush administration refused 
to even discuss the steps toward disarmament the United States and all 
the other NPT parties had committed to at the previous review. We 
cannot afford a similar failure at the upcoming review in 2010. The 
next president will have to move quickly to re-establish U.S. 
credibility on nuclear disarmament.
    I fear that the recent U.S.-India nuclear cooperation agreement, 
modifying long-standing nonproliferation rules, may also add to the 
arguments of nuclear weapons advocates in other countries. Already, 
Iranian colleagues tell me that nuclear hawks in Tehran have pointed to 
this accord, arguing that while much of the international community 
sanctioned India after the 1998 tests, the United States was soon back, 
looking for a strengthened relationship and expanded trade, and has now 
said, in effect, ``all is forgiven''--and that in much the same way, 
sanctions on oil-rich Iran would never last long, however far it might 
push its nuclear program. Congress should carefully consider whether 
the benefits of this agreement are worth these risks.
                 stopping black-market nuclear networks
    The experience of the global black-market nuclear network led by 
Pakistan's A.Q. Khan--which operated in some 20 countries for over 20 
years before it was finally disrupted, at least in part--makes clear 
that urgent steps are needed to strengthen the world's ability to 
detect and stop such black-market networks, and to strengthen global 
export controls. Unfortunately, it is clear that black-market nuclear 
networks continue to operate, and to pose serious dangers to the global 
future.
    As with stopping smuggling of nuclear materials, stopping nuclear 
technology networks will require stepped-up international police and 
intelligence cooperation; the police and intelligence response must be 
just as global as these networks are.
    It will also require a radical improvement in global controls over 
exports and transshipments of sensitive technologies. In addition to 
requiring ``appropriate effective'' nuclear security and accounting, 
UNSC 1540 requires every U.N. member state to put in place 
``appropriate effective'' export controls, border controls, and trans-
shipment controls. We should be making greater use of this new 
nonproliferation tool, helping to define what essential elements must 
be in place for states' controls in these areas to be considered 
appropriate and effective, and helping states put those essential 
elements in place. Today, important export control assistance programs 
are in place which are making a real difference--but they remain 
limited to a handful of key countries, despite the Khan network's 
demonstration that countries that no one thought of as having sensitive 
technology may provide key nodes for a black-market network. I 
recommend that Congress increase the budget for NNSA's export control 
assistance program by at least $10-$15 million, and direct the 
administration to develop a plan for making sure all countries fulfill 
their UNSC 1540 obligation to put effective controls in place.
           reducing the proliferation risks of nuclear energy
    Today, demand for nuclear energy is growing, in response to 
concerns over fossil fuel prices and availability and over climate 
change. It is crucial to take steps today to ensure that the spread of 
nuclear energy does not contribute to the spread of nuclear 
weapons.\13\
---------------------------------------------------------------------------
    \13\ For a discussion, see Matthew Bunn, ``Proliferation-Resistance 
(and Terror-Resistance) of Nuclear Energy Systems,'' presentation to 
``Systems Analysis of the Nuclear Fuel Cycle,'' Massachusetts Institute 
of Technology, 20 November 2007, available as of 28 April 2008 at 
http://belfercenter.ksg.harvard.edu/files/
bunn_proliferation_resistance_lecture.pdf.
---------------------------------------------------------------------------
    The most critical technologies of concern are enrichment and 
reprocessing, either of which can be used to support a civilian nuclear 
fuel cycle or to produce material for nuclear weapons. Every State that 
establishes an enrichment plant or a reprocessing plant is in a 
position, should it ever choose to do so, to withdraw from the NPT and 
quickly produce nuclear material for nuclear weapons. Restraining the 
spread of these technologies is a critical nonproliferation goal.
    There is no prospect, however, for an effective agreement that 
would ban additional states from developing enrichment and reprocessing 
technology; states simply will not agree to forswear this possibility 
indefinitely. The United States should eliminate ``forswear'' ``forgo'' 
and similar ``f words'' from our vocabulary in discussing these topics. 
The best that can be done is to convince suppliers to limit exports of 
these technologies to additional countries--which they have been doing 
since the mid-1970s--and, just as important, to give states strong 
incentives to rely on international suppliers for these services rather 
than making the large investments required to build enrichment and 
reprocessing plants of their own.
    Congress took an important step in this direction last year in 
providing $50 million for an international fuel bank, which would 
increase states' confidence that international supply would not be 
disrupted. The IAEA is still struggling to reach agreement on the terms 
and conditions for this bank, and to recruit additional donors. If all 
goes well, however, agreement on one or more fuel banks could be 
reached this calendar year.
    A fuel bank will be a useful step--but as the commercial market 
already provides strong assurance of fuel supply for most states, a 
fuel bank alone will only create a modest additional incentive to rely 
on international supply. The United States, Russia, and other nuclear 
suppliers are now working together to put together other incentives--
including help with infrastructure for nuclear energy, financing, and 
the like. ``Fuel-leasing''--fresh fuel supply combined with a promise 
to take the spent fuel away--could be a particularly powerful incentive 
for states to rely on international supply, since it could potentially 
allow more states to use nuclear energy without having to establish 
their own geologic repositories. I do not believe that take-back of 
spent fuel from foreign countries will be politically tenable in the 
United States in the near term, whether the reprocessing and 
transmutation technologies proposed for the Global Nuclear Energy 
Partnership (GNEP) are under active development or not; but Russia has 
legislation in place that allows it to enter into such contracts, and 
others may decide to enter the market for taking back spent fuel in the 
future.\14\
---------------------------------------------------------------------------
    \14\ Countries can already contract to send their spent fuel to 
France, the United Kingdom, or Russia for reprocessing, but France and 
the United Kingdom require that the high-level waste be returned, so 
countries still need a geologic repository.
---------------------------------------------------------------------------
    One step the United States should not take is to build a 
reprocessing plant ourselves in the near-term.\15\ Sending the message 
that the United States, with the world's largest reactor fleet, 
considers reprocessing essential to the future of nuclear energy will 
make it more difficult to convince other countries not to pursue their 
own reprocessing facilities. This, like RRW and the weapons complex, is 
an area where there would be nonproliferation benefits from spending 
less than the administration's request. I recommend that Congress 
provide a fiscal 2009 budget for GNEP similar to the fiscal 2008 budget 
provided in the omnibus appropriation, with program direction similar 
to that this subcommittee provided in its bill last year. Within that 
overall budget, spending on development of small sealed-core reactors 
with high degrees of inherent safety and security should be increased, 
to roughly $10 million. Such reactors--sometimes known as ``nuclear 
batteries''--might be factory-built, transported to where they would be 
used with a lifetime core of fuel already inside, and then transported 
back intact after 10-20 years of electricity generation, with little 
access to plutonium-bearing fuel and little build-up of weapons-
relevant nuclear expertise, potentially making nuclear energy widely 
available with reduced proliferation risks.
---------------------------------------------------------------------------
    \15\ For a more extended discussion, see Matthew Bunn, ``Risks of 
GNEP's Focus on Near-Term Reprocessing,'' testimony before the 
Committee on Energy and National Resources, U.S. Senate, 14 November 
2007, available as of 28 April 2008 at http://
belfercenter.ksg.harvard.edu/files/bunn-GNEP-testimony-07.pdf. See also 
Edwin Lyman and Frank N. von Hippel, ``Reprocessing Revisited: The 
International Dimensions of the Global Nuclear Energy Partnership,'' 
Arms Control Today, April 2008, available as of 28 April 2008 at http:/
/www.armscontrol.org/act/2008_04/LymanVonHippel.asp.
---------------------------------------------------------------------------
                        strengthening safeguards
    Events in Iran, Libya, and elsewhere make clear that the world 
needs a stronger nuclear safeguards system. The U.S. Government needs 
to do more to ensure that the International Atomic Energy Agency has 
the resources, authority, personnel, and technology it needs to do its 
job. In particular, the United States is behind on its assessed dues to 
the IAEA, and Congress should provide funding to pay the back dues and 
direct that the United States pay its dues on time each year. Congress 
should also provide increased funding for the United States voluntary 
contribution to the IAEA, in particular to ensure that funding is 
available for needed upgrades to the Safeguards Analytical Laboratory.
    That funding largely flows through the State Department. NNSA's 
role has traditionally been focused more on technical support for 
safeguards. But the U.S. investment in safeguards technology and 
safeguards experts at the national laboratories has declined 
dramatically since the early 1990s. Neither the IAEA nor the U.S. 
programs to support it have the resources needed to adapt the most 
modern technologies being developed in the commercial sector to the 
needs of safeguards, or to pursue longer-term safeguards R&D. NNSA has 
undertaken a very thoughtful ``Fundamental Safeguards Review,'' and as 
a result of that has launched a ``Next Generation Safeguards 
Initiative.'' Within nuclear energy R&D, more focus is also needed on 
``safeguards by design''--building effective safeguards and security in 
from the outset in design and construction of new facilities, just as 
is done with safety today. I recommend an increase of $10-$15 million 
in the funding for this critical effort, to finance both expanded R&D 
and expanded efforts to recruit, train, deploy, and retain the next 
generation of safeguards experts.\16\
---------------------------------------------------------------------------
    \16\ For a similar recommendation for reinvestment in safeguards,, 
see American Physical Society Panel on Public Affairs, Nuclear Energy 
Study Group, Nuclear Power and Proliferation Resistance: Securing 
Benefits, Limiting Risks (Washington, DC: APS, May 2005, available as 
of 28 April 2008 at http://www.aps.org/policy/reports/popa-reports/
proliferation-resistance/upload/proliferation.pdf).
---------------------------------------------------------------------------
 limiting proliferation of nuclear, chemical, and biological expertise
    Despite the recent improvements in the Russian economy, I believe 
that NNSA's scientist-redirection programs continue to offer benefits 
to U.S. security worth the modest investments the U.S. Government makes 
in them. Contrary to recent newspaper reports,\17\ the fact that some 
institutes that have received NNSA funds also have some experts who 
have worked on a safeguarded power reactor in Iran does not in any way 
mean that NNSA programs have somehow contributed to Iran's nuclear 
program. Moreover, while a substantial fraction of the long-term jobs 
these programs have created have gone to people who are not weapons 
scientists,\18\ that is hardly a surprise. It is hard to think of a new 
business in the United States or elsewhere that has former weapons 
scientists for 100 percent, or even 80 percent, of its employees.
---------------------------------------------------------------------------
    \17\ Matthew Wald, ``U.S.-Backed Russian Institutes Help Iran Build 
Reactor,'' New York Times, 7 February 2008.
    \18\ See U.S. Government Accountability Office, Nuclear 
Nonproliferation: DOE's Program to Assist Weapons Scientists in Russia 
and Other Countries Needs to be Reassessed (Washington, DC: December 
2007).
---------------------------------------------------------------------------
    At the same time, there is clearly a need to reform these efforts 
to match today's threats. The dramatically changed Russian economy 
creates a very different threat environment. The experience of the A.Q. 
Khan network suggests that dramatic leakage of proliferation-sensitive 
expertise may come from well-to-do experts motivated by ideology and 
greed, and not only from desperate, underemployed experts. For a 
terrorist group, a physicist skilled in modeling the most advanced 
weapons designs--the kind of person who has often been the focus of 
these programs in the past--may be much less interesting than a 
machinist experienced in making bomb parts from HEU metal, or a guard 
in a position to let thieves into a building undetected. Experts who 
are no longer employed by weapons institutes, but whose pensions may be 
inadequate or whose private ventures may have failed, could pose 
particularly high risks, but they are not addressed by current programs 
focused on redirecting weapons expertise. We need to find ways to 
address all of the highest-priority risks--but we are not likely to 
have either the access or the resources to do everything ourselves. The 
solution is likely to require working in partnership with Russia and 
other countries, to get them to do most of what needs to be done. I 
recommend that Congress provide roughly $30 million (comparable to the 
fiscal 2008 appropriation) for the Global Initiatives for Proliferation 
Prevention program, with direction to provide an in-depth analysis of 
what the most urgent risks of proliferation of weapons expertise are, 
and how they might best be addressed.
              intelligence and analysis to support policy
    Good information and analysis is critical to implementing 
successful nonproliferation policies. I recommend increases in two 
areas.
    First, the increased budgets for DOE intelligence that Congress has 
supported in recent years have supported a number of important new 
initiatives, such as the Nuclear Material Information Program (NMIP), 
intended to compile key information on nuclear stockpiles, their 
security, and the threats to them around the world. But this may have 
left too little remaining to support the critical capabilities at the 
national laboratories. It is my understanding that there have been 
drastic cuts in the budget for Livermore's Z Division, for example--
which for decades has provided some of the highest-quality nuclear 
intelligence analyses available to the U.S. Government (including 
having been correct about Iraq's aluminum tubes). I recommend that 
Congress act to ensure that these critical capabilities are maintained 
and expanded, while also ensuring that efforts like NMIP have the 
funding they need.
    Second, many important ideas for preventing proliferation come from 
independent analysts outside the Government. Yet U.S. nonproliferation 
programs rely much less on work by universities and non-government 
organizations than many other parts of the U.S. Government do. The U.S. 
Department of Homeland Security, for example, despite being a 
relatively new department operating in areas that are often shrouded in 
secrecy, has established several ``centers of excellence'' for 
university-based analysis of particular categories of homeland security 
problems, along with other programs focused on bringing in academic 
expertise to contribute to improving homeland security. NNSA should do 
more to do the same. I believe that each of the largest and most 
important nonproliferation programs would benefit from having a 
standing advisory group of outside experts regularly reviewing its 
efforts and suggesting ideas for improvement. In addition, I believe 
that NNSA could benefit greatly from a small investment in non-
government analyses of key proliferation risks and how they might be 
reduced more effectively. I recommend that Congress provide $10 million 
specifically directed for NNSA to support such non-government analyses 
of effective approaches reducing proliferation risks--and to additional 
training of the next generation of nonproliferation experts. Depending 
on the degree of success of this effort, appropriate levels of funding 
might increase in later years.
                 reducing plutonium and heu stockpiles
    Finally, disposition of the large excess stockpiles of plutonium 
and highly enriched uranium (HEU) in the United States and Russia 
continues to pose an important but difficult policy problem.\19\ As 
suggested above, the United States and Russia should agree to reduce 
their nuclear weapon stockpiles to very low levels and to eliminate all 
stocks of separated plutonium and HEU beyond those needed to support 
those low, agreed warhead stockpiles. This would mean disposition of 
far larger stocks of material in both Russia and the United States than 
have been declared excess so far. Since this will take many years, in 
the near term the United States and Russia should move to legally 
commit their excess material to peaceful use or disposal and place it 
under international monitoring to confirm that commitment--sending an 
important signal to the world that the United States and Russia are 
serious about their arms reduction obligations, at relatively minor 
cost.
---------------------------------------------------------------------------
    \19\ For more detailed discussions, see Bunn and Diakov, 
``Disposition of Excess Highly Enriched Uranium,'' and ``Disposition of 
Excess Plutonium.''
---------------------------------------------------------------------------
Disposition of Excess Plutonium
    Last year, Congress rescinded the remaining unobligated balances 
for U.S. and Russian plutonium disposition, and moved the U.S. 
plutonium disposition program to the Office of Nuclear Energy. This 
year, the requested funds are in Other Defense Activities.
    The cost of the U.S. MOX program has skyrocketed over the years. 
DOE's latest published estimates indicate a life-cycle cost for the MOX 
facility of some $7.2 billion (not counting the substantial cost of the 
pit disassembly and conversion facility). DOE has never adequately 
explained why this facility is costing many times what comparable 
facilities in Europe with more capability cost to build. Even once the 
expected $2 billion in expected revenue from MOX sales is subtracted, 
this still comes to over $120 million per ton of excess plutonium.\20\
---------------------------------------------------------------------------
    \20\ Total project cost for construction is $4.8 billion. 
Operations and maintenance is estimated at $2.4 billion. See U.S. 
Department of Energy, fiscal year 2009 Congressional Budget Request: 
Other Defense Activities (Washington, DC: DOE, February 2008), pp. The 
per-ton calculation assumes, over-generously, that the 9 tons of excess 
plutonium announced in 2007 is entirely additional to the 34 tons 
covered under the 2000 disposition agreement and costs nothing to 
process.
---------------------------------------------------------------------------
    Something has to be done with this plutonium, but it would be 
surprising if no effective approach could be found that would manage 
this material securely for less than $120 million per ton. If judged 
solely as a nuclear energy initiative, building such a plant would 
certainly not be worthwhile; it would demonstrate nothing except the 
ability to replicate in the United States an expensive fuel cycle 
approach with significant proliferation risks that is already routinely 
done in Europe, and even if a demonstration fast reactor were built for 
GNEP in the near term (which I believe would be unwise), the initial 
core could be fabricated elsewhere at lower cost.
    I recommend that Congress approve funding to proceed with the MOX 
plant for this year, while simultaneously directing DOE to carry out an 
in-depth study of potentially lower-cost alternatives. In particular, 
Congress should provide funding for DOE to restart development of 
plutonium immobilization technology, and direct DOE to outline the 
lowest-cost practicable immobilization option for the entire excess 
plutonium stockpile; Congress should also direct DOE to include, in its 
options assessment, the option of transporting the excess plutonium to 
Europe for fabrication and irradiation in existing facilities there. 
If, for example, the French were willing to take the United States 
excess plutonium for $1 billion, the U.S. Government would have saved 
billions compared to other approaches; if not, that would certainly 
make clear that even with high uranium prices, plutonium is a costly 
liability, not an asset.\21\
---------------------------------------------------------------------------
    \21\ Areva officials indicate that there are now trades among 
utilities in which some utilities agree to burn MOX fabricated from 
other utilities' plutonium, suggesting that if the price were right, it 
might be possible to convince utilities to burn this MOX in Europe.
---------------------------------------------------------------------------
    On the Russian side, critics have raised legitimate concerns about 
using excess plutonium in the BN-800 fast-neutron reactor, since it 
creates roughly as much plutonium as it burns. While DOE is working 
with Russia to modify the reactor from a plutonium ``breeder'' to a 
plutonium ``burner,'' consuming more plutonium than it produces, this 
is largely a distinction without a difference, as the baseline design 
for the BN-800 produces only slightly more plutonium than it consumes, 
and the revised design produces only slightly less. More important is 
the fact that under the 2000 Plutonium Management and Disposition 
Agreement, spent fuel from plutonium disposition will not be 
reprocessed until decades from now, when disposition of all the 
plutonium covered by the agreement has been completed. Thus, a large 
stockpile of weapons-grade separated plutonium will be transformed into 
a stockpile of plutonium embedded in radioactive spent fuel--at least 
for some time to come.
    The United States and Russia should agree that (a) the highest 
practicable standards of security and accounting will be maintained 
throughout the disposition process; and (b) all separated plutonium 
beyond the amount needed to support low, agreed numbers of warheads 
will be subject to disposition. If the United States and Russia agreed 
on those points, and also agreed that spent fuel from plutonium 
disposition (a) would not be reprocessed except when the plutonium was 
immediately going to be reused as fuel, and then under heavy guard, 
with stringent accounting measures, and (b) would only be reprocessed 
in ways that did not separate weapons-grade plutonium from fission 
products, and in which plutonium would never be separated into a form 
that could be used in a bomb without extensive chemical processing 
behind heavy shielding, then this disposition approach would deserve 
U.S. financial support. This is particularly the case as the BN-800 
approach fits in to Russia's own plans for the nuclear energy future, 
unlike previous plans that focused on MOX in VVER-1000 reactors. If the 
United States does not provide promised financial support for 
disposition in Russia, Russia may conclude that it is free to use the 
BN-800 to breed more plutonium from this weapons plutonium, and to 
reprocess the spent fuel immediately, adding to Russia's huge 
stockpiles of separated plutonium. Congress should provide sufficient 
funding for DOE to explore such approaches, and support them if 
agreement can be reached.
Disposition of Excess HEU
    The current 500-ton HEU Purchase Agreement expires in 2013. Russia 
is likely to have hundreds of tons of additional HEU at that time that 
are not needed either to support its nuclear weapons stockpile or for 
naval and icebreaker fuel. Russia has made clear that it has no 
interest in extending the current implementing arrangements for the HEU 
Purchase Agreement, under which Russia faces higher costs and lower 
prices than it would marketing new-production commercial LEU. But a 
variety of other arrangements are possible that could create 
substantial incentives for Russia to blend down additional HEU. 
Congress should direct DOE to enter into discussions with Russia 
concerning a broad range of possible incentives the United States might 
be willing to provide to help convince Russia to blend down additional 
HEU--and should consider setting aside a conditional appropriation in 
the range of $200 million to finance such incentives if an agreement is 
reached that requires such funding.
    Similarly, the United States can and should expand and accelerate 
the blend-down of its own excess HEU, beyond the roughly 3 tons per 
year now planned. Congress should provide additional funding targeted 
to accelerating the effort to get the HEU out of the canned sub-
assemblies and blended down to LEU.
                              conclusions
    Mr. Chairman, from al Qaeda to North Korea to Iran to global black-
market nuclear networks, the world today faces serious dangers from 
nuclear terrorism and nuclear proliferation. But there is no reason for 
despair. Indeed, the global effort to stem the spread of nuclear 
weapons has been far more successful than many people realize. Today, 
there are nine states with nuclear weapons; 20 years ago, there were 
nine states with nuclear weapons. (South Africa dropped off the list, 
became the first case of real nuclear disarmament, while North Korea 
joined the list.) That there has been no net increase during a period 
that saw the chaos following the collapse of the Soviet Union; secret 
nuclear weapons programs in Iraq, Iran, Libya, and, apparently, Syria; 
the entire period of the A.Q. Khan network's export operations; and the 
nuclear efforts of al Qaeda and Aum Shinrikyo is an amazing public 
policy success.
    But if we hope to maintain that success into the future, there is a 
great deal to be done--and substantial parts of the work will need to 
be done by NNSA. For the coming year, I recommend additional funding 
and direction to:
  --Move toward securing and consolidating all stocks of nuclear 
        weapons and materials worldwide, to standards sufficient to 
        defeat the threats terrorists and criminals have shown they can 
        pose, in ways that will work, and in ways that will last.
  --Build effective global standards for nuclear security, in part by 
        building on the foundation provided by UNSC 1540's legal 
        requirement that all countries provide ``appropriate 
        effective'' security for whatever stockpiles they may have.
  --Expand global police and intelligence cooperation focused on 
        stopping nuclear smuggling and terrorist nuclear plots, while 
        modifying our approach to radiation detection and cargo 
        scanning.
  --Expand R&D on nuclear forensics.
  --Engage with North Korea and Iran to verifiably end their nuclear 
        weapons programs.
  --Eliminate funding for RRW; scale back funding for complex 
        transformation to focus on a smaller, cheaper complex to 
        support a smaller stockpile; and increase funding for 
        dismantlement, placing excess materials under international 
        monitoring, and developing international approaches to 
        verifying nuclear disarmament.
  --Expand global police and intelligence cooperation to stop black-
        market nuclear networks, and increase efforts to help countries 
        around the world implement the UNSC 1540 obligations to put in 
        place appropriate effective export controls, border controls, 
        and transshipment controls.
  --Provide incentives for states not to build their own enrichment and 
        reprocessing facilities, while reducing the emphasis on near-
        term reprocessing in GNEP, reducing GNEP's requested budget, 
        and increasing funding for development of small sealed-core 
        reactors with low proliferation risks.
  --Reinvest in the people and technology needed for advanced 
        safeguards.
  --Continue a modest investment in reducing the risk of proliferation 
        of weapons expertise, while undertaking a fundamental review of 
        the highest-priority risks and the best means to address them.
  --Continue to support disposition of excess plutonium in the United 
        States and Russia, while reviewing cost-effective alternatives 
        and seeking new agreements to expand the amount of plutonium 
        subject to disposition and ensure that disposition will be 
        permanent and secure.
  --Offer new incentives for Russia to blend far more of its HEU to 
        LEU, and accelerate the blend-down of United States excess HEU.
    This is an ambitious agenda. Implementing it will require sustained 
leadership from the next president, who must move quickly to pursue 
these and other steps to reduce the threat. I believe that it is 
critical that the next president appoint a senior White House official 
with full-time responsibility for leading these efforts and keeping 
them on the front burner at the White House every day--as Congress 
directed last year.
    Implementing this agenda will also require sustained Congressional 
support. Congress has a responsibility and an opportunity to exercise 
in-depth and informed oversight of these efforts, through hearings such 
as this one and legislation. Congress should give the administration 
the funding and authority to get the job done, while holding the 
administration responsible for demonstrable results. In this year in 
particular, Congress should focus on laying the foundation of policy 
and authority that will allow the next president to hit the ground 
running. With a sensible strategy, adequate resources, and sustained 
leadership, the risks of nuclear terrorism and nuclear proliferation 
can be substantially reduced. American security demands no less.

    Senator Dorgan. Dr. Bunn, thank you very much. We 
appreciate the comments both of you have made.
    Your testimony shows substantial agreement.
    By the way, Dr. Bunn, you recommended increased funding in 
a number of areas. Did you aggregate your request? I noticed 
you made about three or four in various parts of your 
testimony.
    Dr. Bunn. I have not aggregated them partly because in 
several areas I do not specify the amount required, and most of 
those are small ones. I think the total is of the order--it 
depends on whether you count a conditional appropriation for 
blending down HEU, but the total is of the order of $600 
million or $700 million additional, I believe.
    Senator Dorgan. That is a 50 percent increase in the 
budget.
    Dr. Bunn. That is a large number.
    Senator Dorgan. You have heard the testimony from Mr. Tobey 
that the amount requested in the President's budget is 
sufficient. You disagree with that?
    Dr. Bunn. I believe that they are doing excellent work and 
that they will continue to do excellent work with the budget 
that they have requested, but I think there are additional 
opportunities to reduce risks faster and more broadly than they 
can be reduced with the budget that has been requested.
    Senator Dorgan. My question was not whether they are doing 
excellent work. I made the same observation, of course.
    But the question really is what kind of resources are we 
going to devote to this issue. What is the priority with 
respect to this issue of nonproliferation? The amount we invest 
in it tells us a little something about how important we 
believe it is.
    Let me ask a couple of other questions. Dr. Hecker, in your 
testimony, you write that international efforts have been 
focused on limiting India's access to nuclear technology, but 
they have become self-sufficient. So we now do not have access 
to India's technology developments. You say this should advise 
our diplomatic efforts.
    It seems to me that the message that India and other 
countries should take from all of this is just ignore the 
responsibilities, do not sign anything, do not be a part of the 
international community on nonproliferation, and some day you 
will get a reward for it because that is, in my judgment, what 
this agreement with India says. Tell me why that is an 
inappropriate conclusion.
    Dr. Hecker. On the basis of my recent visit to India and in 
talking with the Indian nuclear establishment, if you are 
asking why do they stay outside of the nonproliferation arena--
is that correct? I am not sure I understood your question 
correctly.
    Senator Dorgan. My question is, why would India and other 
countries not take as a lesson from this that if they just say 
we are not interested in the Nonproliferation Treaty, we do not 
have any intention of being part of this international 
agreement, and by the way, if we just wait long enough, you 
will come to us, there will not only be no penalty for it, we 
will be rewarded for it because we will reach an agreement with 
the United States on a nuclear agreement? And that agreement 
will allow us to have certain nuclear facilities behind the 
curtain with which we can produce the material to build 
additional nuclear weapons. It seems to me that is the message 
of this agreement with India. Why would other countries and 
India not receive that very message? And that message in my 
judgment is destructive.
    Dr. Hecker. That is a reasonable United States point of 
view.
    Let me just, if I may, give you the Indian point of view, 
as I talked to the Indian nuclear complex people. And they view 
it very differently. They do not view themselves as a 
proliferator. They view themselves as a legitimate nuclear 
weapons state.
    They happen to be caught on the wrong side of the divide 
when the decision was made in 1968, that those five countries 
that tested before 1968 would now be allowed to keep their 
nuclear weapons for some time, as article VI states, and others 
would not be allowed to acquire them. And the way the Indians 
view this is they did not test before 1968 in spite of the fact 
that they had substantial nuclear capabilities indigenously, 
much more so than China. But they, in essence, decided to 
refrain from nuclear testing. Their reward for refraining from 
nuclear testing is that they were now caught outside of the 
nuclear proliferation regime.
    They view that as having been discriminatory from the word 
go. They will never then abide to it. They will never get rid 
of the nuclear weapons they have now until there is global 
disarmament. And so they view it and say, well, look, if you in 
the United States and the other four so-called parties of the 
permanent five get rid of your nuclear weapons, so will we. So 
it is not surprising that the Indians take a very different 
point of view.
    To me now the issue is do you recognize the fact that India 
will not give up its weapons, and as I indicated in my 
testimony, I do not think our sanctions have particularly 
stopped its nuclear weapons program. What our sanctions have 
done, however, is slowed down their nuclear energy programs. In 
turn, they have made the Indians actually significantly more 
capable in nuclear energy technology to where today it may 
actually, I believe, be much in our benefit to have nuclear 
cooperation for nuclear energy with India. And so one has to do 
this tradeoff and in the end make the decision as to whether 
the risks are worth the benefits.
    Senator Dorgan. But it is curious, it seems to me, when we 
talk about nonproliferation, that we are reaching an agreement 
with a country that will allow them to produce additional 
nuclear weapons outside of what has been the established 
normative here, that is, the Nonproliferation Treaty. But I 
understand your answer from the perspective of India.
    I certainly believe the message we are sending to the world 
is hang in there. This country will recognize your right to 
build additional nuclear weapons. A lot of other countries 
would say, well, they are left outside of the effective date as 
well. That exclusive club that had nuclear weapons--what makes 
them so exclusive?
    But let me go beyond this and ask. The renewed calls these 
days from some quarters for the reconsideration and 
ratification of the Comprehensive Test Ban Treaty--a treaty I 
support, by the way, a treaty unfortunately which the Senate 
rejected some years ago. Could you give your opinions on the 
issue? And as a former national laboratory director, Dr. 
Hecker, could you talk about the certifications and the 
scientific challenges with CTBT, and has progress been made in 
those areas? Because some have alleged that the capability does 
not exist to provide certification.
    Dr. Hecker. I was there as director of record in 1996 when 
that decision was made by President Clinton, and I have 
reflected often on the overall decision of the Comprehensive 
Test Ban.
    What I would like to say, particularly still being close to 
having had the responsibility at Los Alamos to certify the 
safety and the reliability of nuclear weapons, that test ban 
comes with a price. And there is no question today that, as I 
look back since 1996, the last 12 years, because of the test 
ban, it has taken us longer. It has cost us more to recertify 
nuclear weapons fabrication. That was particularly for the 
plutonium component that was moved from Rocky Flats to Los 
Alamos.
    It is costing us from the standpoint of understanding the 
effects of aging in the nuclear stockpile, and slowly our 
confidence erodes, which could be boosted by nuclear testing. 
And so there is no question there is some risk associated with 
that. However, annually the laboratory directors must assess 
that risk and certify it to the President that the stockpile is 
still safe and reliable without nuclear testing. And I did so 
for several years and my colleagues have done so since then.
    So now what I have to do is trade that off versus the 
benefits of a nuclear test ban, and there I say today that the 
greatest risk of going back to nuclear testing is that the 
Chinese would go back to testing and the Indians would go back 
to testing, the Pakistanis would go back to testing. And as I 
personally today weigh those risks, I definitely come out in 
favor that it is in our Nation's and the world's interest to 
actually ratify the Comprehensive Test Ban Treaty.
    Senator Dorgan. Dr. Bunn?
    Dr. Bunn. Well, I completely agree that it is in our 
Nation's interest to move forward with the comprehensive test 
ban. I think that as we look toward trying to strengthen the 
nonproliferation regime and get other countries to accept 
stronger safeguards, more export controls, tougher enforcement, 
and more restraints on fuel cycle facilities, that we will not 
be able to get that unless we are seen to be living up to our 
obligations under article VI of the Nonproliferation Treaty. 
And the most important single thing that the non-nuclear 
weapons states see as central to that is the Comprehensive Test 
Ban. And so that is a political factor, in addition to the 
technical factors that Dr. Hecker was mentioning.
    On the technical side, I should also mention--I am sure Sig 
would agree--that the investments that we have made in the 
experimental facilities at the DOE facilities, the NNSA 
facilities, and the supercomputing and simulation capabilities 
have dramatically improved our understanding of the processes 
that take place in nuclear explosions compared to what they 
were before. There is a lot more that we know and there is a 
lot more that we know on the verification front as well. 
Seismology has moved forward very significantly since the 
Senate voted some years ago.
    As you know, under General Shalikashvili, the National 
Academy of Sciences produced a report that looked at all of the 
technical issues that were raised in the Senate debate on the 
Comprehensive Test Ban and argued that all of them could be 
successfully addressed.
    So I believe it is very important that the next President, 
first of all, recommit the United States to the Comprehensive 
Test Ban and then begin the process that will be necessary to 
build support over time in the Senate because the last thing we 
want to do is bring it to the floor again in the Senate and 
have it voted down again. That would be, I think, a major 
mistake.
    Senator Dorgan. It is sort of counter-intuitive when we 
talk about nuclear weapons and risks. I was just thinking, Dr. 
Hecker, you described the risk of them not working, but we have 
always built nuclear weapons with the understanding we are 
building them so that they can never be used. And the risk is 
not so much that they would not work. The risk is that they 
would be used and would work. So it is sort of counter-
intuitive even to discuss a weapon that, in my judgment, can 
never again be used on this planet because we have got tens of 
thousands of nuclear weapons.
    I am going to submit questions on RRW and some other issues 
because I have taken more time than I wished.
    Dr. Hecker. Mr. Chairman, if I may just say, I respectfully 
disagree with that, and that is, that yes, indeed, we expect 
and hope those weapons will never be used. However, if we have 
them in the stockpile, first of all, we must assure that they 
are safe--that is a huge, huge job--and that if our Nation's 
defense rests on that, that they do work, to both assure our 
own leaders and also to assure our allies. So I think it is no 
good to have a deterrent in the stockpile that is deteriorating 
that we lose confidence in. We must have confidence in spite of 
the fact that we hope to never use it.
    Senator Dorgan. Yes. Our Nation's defense, in my judgment, 
rests on the notion that they can never be used because there 
is no defense that provides any assurance for any life in this 
country if we have exchanges of nuclear weapons on this planet.
    The point you make is a scientific point and an 
understandable point to me, that as long as weapons exist, you 
want some assurance that they will detonate if used. I think 
any potential adversary on this planet would be just nuts to 
believe that our nuclear stockpile somehow is something that 
does not work.
    Having said all that, we have nuclear weapons. First, we 
have to protect them to make sure they are not in the wrong 
hands, and when I speak this way about nuclear weapons, people 
call.
    But at any rate, I think both of you have an unbelievable 
amount of information to provide the Congress and have done so 
over the years, and I deeply appreciate the work and your 
testimony today.
    I am going to submit questions, as I said on RRW, on and a 
couple of other things, if you would be kind enough to respond 
to them.
    Senator Dorgan. Let me call on my colleague, Senator 
Domenici.
    Senator Domenici. Thank you very much.
    Let me just say I am not a scientist like Dr. Hecker. I do 
not think his answer disagrees with you, it was a scientific 
answer. But without a lot of words, I want to say that I would 
put my marbles on your side of the argument, Dr. Hecker. I 
appreciate your being here to give us your expertise.
    Let me talk with you a minute about North Korea, Dr. 
Hecker. I was privileged a number of years ago, maybe seven. 
Five Senators and their wives were permitted to land the first 
American airplane in North Korea at their capital city. We 
stayed there 2 days. They have an encampment for visitors that 
is much like Russia had when they had a communist state. It was 
off on the side and it is beautifully built, and you would 
never know that poverty abides everywhere because it is a very 
nice, beautiful looking place. But the visit truly pointed out 
what an abominable place it was to live.
    I assume in your trips you have been permitted to see more 
of North Korea than just the place where we put guests. You 
have visited some cities. You have seen something of their 
infrastructure and how they live. Is that a fair statement?
    Dr. Hecker. Yes. I have been able to see more of North 
Korea than, let us say, just the inside of the ministry of 
foreign affairs and Yongbyon. However, everything that they 
show us, of course, is heavily scripted. But, nevertheless, on 
the drive out to Yongbyon you see a lot of the countryside, and 
I had occasion in August 2007 to be going out there when they 
had the heavy floods that caused the enormous damages. I got a 
chance personally to view what their infrastructure is like, 
and quite frankly, for the most part, they have a difficult 
time getting things together. But when you get into the nuclear 
complex, they have clearly put their capabilities there.
    But the place is changing. Over the five trips that I have 
taken, I have seen Pyongyang change. I would say, in spite of 
everything we think, the place is not about to fall apart.
    Senator Domenici. So you think the government is truly in 
control.
    Dr. Hecker. Yes. You mean the nuclear weapons and the 
nuclear materials?
    Senator Domenici. The nuclear weapons and the nuclear 
materials are in very good shape and controlled adequately by 
the government. Is that correct?
    Dr. Hecker. Right. And I have had that discussion directly 
with the people at Yongbyon to express our concern, your 
general concern, about nuclear material security, and what they 
say, of course, is not to worry. We know how to protect our 
materials. My assessment in North Korea is that, yes, the 
government controls those materials. What you have to worry 
about is making sure that the government itself does not export 
those materials.
    Senator Domenici. I think what I am going to do, Dr. Bunn--
I have a number of questions. I think I am just going to submit 
them, but I would just end this conversation with you with a 
little discussion of Iran. In fact, both of you are free to 
discuss with me what you like on Iran.
    We happen to be talking about two of the most difficult 
situations when we speak of North Korea and Iran. Could I ask 
both of you to talk about your concerns with reference to where 
Iran is today and where you think they are going to go? And are 
we handling the situation correctly in terms of trying to 
inhibit them from getting a nuclear weapon at this point? Let 
us start with you, Dr. Hecker.
    Dr. Hecker. My view is that Iran is putting in place all 
the pieces for what I call the nuclear weapons option, and it 
is not only the highly publicized facilities at Natanz for 
uranium enrichment which is one path to the bomb, that is, to 
enrich uranium to bomb-grade. They are clearly doing that under 
the umbrella of saying they are doing this for nuclear energy, 
and it turns out that is legitimate. But, of course, the 
concern is if they keep going, they can make bomb-grade 
material. That is what worries us, and we have no assurance at 
this point that they will not keep going.
    But they also have a program that is much less publicized 
and that is, they are building a small reactor. And it is the 
type of reactor that would make good bomb-grade plutonium the 
same way that North Korea is making bomb-grade plutonium. It is 
a little different design, but it makes just as good bomb-grade 
plutonium. And they are continuing with that project although 
at a reasonably slow pace, but they are continuing. And 
associated with that, they have developed a heavy water plant 
that supplies that reactor which is necessary for eventually 
making bomb-grade plutonium.
    The fact that they have all those pieces in place worries 
me significantly. And yet, as to whether they have made the 
decision to go to nuclear weapons, I cannot tell that, but the 
capabilities are such that they could do so in the future.
    In terms of what we are doing currently, I guess much like 
in North Korea, I feel in the end that you are best off if you 
have an in-country presence, if you have a dialogue regardless 
as to how distasteful you might find that dialogue. I think we 
missed a significant opportunity in 2003 with Iran, as we 
missed a significant opportunity in late 2002 with North Korea. 
Now it is more difficult to get back in the game.
    I still favor the dialogue, but somehow we still also need 
to look at plan B, what if all of this fails. The most 
important way that I could see at this point to get Iran to 
take a somewhat different tack is you have to enlist China and 
Russia to put a serious squeeze on Iran to make sure that they 
understand that developing that complete nuclear weapon option 
cannot be done for free.
    Senator Domenici. Dr. Bunn?
    Dr. Bunn. I think, unfortunately, that our--I agree 
completely with Sig that we missed a major opportunity in 2003 
and also some other opportunities with Iran. I think that our 
policy of refusing to talk, while the Iranians kept building, 
essentially just gave the Iranians the opportunity to keep 
building. And so now we are where we are today with more than 
3,000 centrifuges in place in Natanz, and unfortunately, we 
have to cope with that reality.
    I think that the next President is going to have to engage 
if we are going to get any kind of restraint on the Iranian 
program, and we are going to have to put together a package of 
carrots and sticks that is big enough and credible enough. And 
I think it has to have some significant carrots and not just 
the sticks to convince the Iranian Government that it is in 
their interest to reach an agreement that deals with at least 
some of our security concerns, and if we are going to convince 
them of that, it has to be something that the advocates of 
compromise in Tehran can go to the Supreme Leader Khamenei and 
make the case and win the debate with the hawks in Tehran. And 
that means we are going to have to address some of the Iranian 
concerns if we want them to address some of our concerns, and 
it is going to be a difficult discussion. It is going to 
involve some hard choices.
    I had the opportunity--a couple of years ago, we had in our 
research group at Harvard a former deputy foreign minister of 
Iran, and shortly after his arrival, he had said to us that, 
while he would come, he would not actually write about nuclear 
matters while he was in the United States because it was too 
sensitive back home. A week after he arrived, he sat down in my 
office and said let us write a joint proposal for how to solve 
the Iranian nuclear problem. I said, surely, you must be 
kidding. There is no way that you and I could possibly come to 
an agreement on what ought to be done with Iran's nuclear 
program. And in the course of a day, we actually did and then 
published a piece that was a joint proposal on how to address 
the Iranian nuclear problem.
    So the experience that there are people who remain well 
placed within the Iranian regime who are willing to compromise 
made me at least a little more optimistic, but it is going to 
be a hard problem.
    Senator Domenici. Thank you very much.
    Senator Dorgan. Senator Feinstein?
    Senator Feinstein. Thank you very much.
    You both are very respected, and it is a very fine thing 
for us to be able to listen to your views.
    Dr. Bunn, I have been reading your statement, and I want to 
ask you about one part of it in a moment. But could you please 
send the committee your recommendations as they relate to the 
numbers, the dollars, for each of the areas in writing? We 
would appreciate that very much.
    But I wanted to express my concern, Mr. Chairman, because I 
very much agree with your views on this issue, the fact that we 
have cut out the money for new nuclear programs.
    And I do want to raise an issue of the labs. I am very 
concerned because I am really not sure where this is going. All 
of the labs are taking cutbacks. I know in some detail about 
Lawrence Livermore. I do not know about the other two.
    However, at Lawrence Livermore, there is a $280 million 
shortfall. They are terminating 750 people, 250 voluntarily, 
500 not voluntarily. Pink slips will go out in May. Three 
hundred and fifty of them are senior scientists and engineers. 
That should be a real national security danger point. I have 
had two discussions with Mr. D'Agostino, whom I respect 
greatly, who has pointed out to me that the labs now need to 
become more competitive and they are going into 
nonproliferation areas. I do not know what this means with 
specificity. I am very concerned about it.
    I am also very concerned about when you add up the cutbacks 
at Los Alamos, Sandia, and Lawrence you are going to have many, 
many senior scientists and engineers without employment. I 
think this is a national security danger point.
    I also think that we ought to know exactly where these labs 
are going. As they have associated themselves with a private 
contractor, they lose their exempt status. They become LLC's. 
They have to pay taxes, and there is a fee associated with them 
which, in the case of Lawrence Livermore, is $44 million this 
year for Bechtel. So where are these labs going to go long-term 
now? And what are they going to sell? To whom are they going to 
sell it? I think we ought to begin to take a good look at that.
    Senator Domenici. I am with her.
    Senator Feinstein. Now, let me go, Dr. Bunn, to your 
statement, particularly on the limited role of radiation 
detection. You point out that neither the detectors being put 
in place nor the advanced spectroscopic portals planned for the 
future would have much chance of detecting and identifying 
uranium metal with modest shielding, although they might be 
effective in detecting plutonium or strong gamma-emitters used 
in a so-called dirty bomb.
    This is a big area of concern for many of us. You say that 
it is worth making some investment in radiation detection but 
not putting undue reliance on this line of defense. The NNSA's 
second line of defense has been successful in cooperating with 
many countries to put radiation detection in place at key ports 
and border crossings. You go on then to describe a modified 
approach to cargo scanning.
    Could you please verbally share this with this 
subcommittee? This is one of our big concerns. I can speak as 
somebody on the Intelligence Committee, a big concern about a 
dirty bomb coming into this country in some way. What do you 
believe is the most effective way we have of detection?
    Dr. Bunn. Well, I think, first of all, that we really need 
to look at it from a systems point of view and not just does 
this detector at this particular border crossing work. You have 
to think about, okay, if I am the bad guy, am I going to see 
that that detector is in place and go around that border 
crossing and go somewhere else. So you need to look at it from 
the point of view of the effectiveness of the total system, not 
just the effectiveness of a particular detector at a particular 
point.
    Now, I think the detectors we are putting in place now will 
work very well in detecting the kinds of things that would 
typically be used in a dirty bomb except in the case of alpha-
emitters, like americium 241 that would be hard for them to 
detect because alphas are not very penetrating. But I think 
overall the dirty bomb threats are bigger from the big gamma-
emitters like cesium and cobalt and things of that kind.
    Now, I do believe that in my view Congress made a mistake 
in insisting on scanning of 100 percent of the containers 
coming to the United States. I think that is going to be very 
expensive. I think it is probably not going to be doable 
because in some cases, for example, a container gets shipped 
out of one port, heading for another point, and then it gets 
shifted from one boat to another without ever getting to the 
other port, and then comes to the United States when you did 
not know it was headed for the United States when it left the 
first port. That is just some of the realities of global 
shipping today.
    So I believe what we need to focus on is what would we need 
to do to deter the terrorists from using those containers, and 
that means we need to make sure that the terrorists think there 
is a big risk that that container will be scanned, think that 
there is some significant risk that what they have put in it 
will be found if it is scanned, and think that we will take 
some significant action if it is scanned.
    The way the law is written now, there are no standards for 
how good those scans should be, what actions should be taken if 
something is found, and I think it creates an incentive to put 
in a lot of shoddy scanning, frankly. You know, a country 
claims, oh, yes, I scanned that, but there is no good scanning.
    Again, you have to look at the total system. What if you 
scan a container and then you put a seal on it, but it is a 
crappy seal and anybody could open the thing after you have 
scanned it and put something in there and put the seal back on, 
and nobody would be the wiser? So you have to look at the whole 
system to understand how effective it is going to be and where 
the vulnerabilities are because, frankly, the bad guys we are 
dealing with are intelligent folks, and they are going to be 
watching what we are doing and trying to figure out what the 
weaknesses are, just as they noticed that we were not looking 
for box cutters on airplanes before 9/11.
    Senator Feinstein. Thank you very much. I think my time is 
up. So let me stop now. Thank you.
    Senator Dorgan. Senator Allard?
    Senator Allard. Thank you. I just have one area that I 
wanted to inquire about and that is the additional dollars to 
put into the International Atomic Energy Commission. I think 
the request for $5 million to $10 million. What is the basis 
for this specific request, and how did you arrive at that 
particular amount?
    Dr. Bunn. Well, this is specifically for the IAEA Office of 
Nuclear Security. This is something that existed in sort of 
embryonic form before 9/11, but it really grew substantially 
after 9/11.
    They spend about $20 million a year today. They provide, I 
think, critical services in providing international peer 
reviews of nuclear security arrangements, not only physical 
protection but also control of radiological sources, border 
radiation detection, and the like, development of international 
recommendations of standards for different aspects of nuclear 
security, and also tracking of nuclear smuggling for the entire 
world community, not just for the U.S. Government. A lot of 
these things are things that we cannot do as well ourselves 
because the IAEA has the sort of international legitimacy of 
being an unbiased international institution.
    Another $5 million or so would allow them to significantly 
increase the pace at which they can meet member state demands 
for peer reviews of nuclear security and other nuclear security 
assistance. I think it would make a significant difference in 
the effectiveness of that operation. This goes into what is now 
called the nuclear security fund, which is almost entirely 
voluntary contributions by states. I think ultimately we need 
to move security into the regular budget of the IAEA so that 
states do not have to keep coughing up these voluntary 
contributions.
    Senator Allard. How would you evaluate their job? Do you 
think that they have strengthened nuclear security worldwide?
    Dr. Bunn. I think they have contributed significantly. I 
think there are weaknesses. Some of the weaknesses are their 
fault. Some of the weaknesses are imposed on them. For example, 
they are constantly struggling with not having enough money and 
almost all the money they do get is earmarked by the various 
donor states that provide the money. And so they frequently 
come up--you know, they send a team out somewhere and they come 
up with some urgent priority that needs doing and they have not 
got any money to do it.
    Now, as I mentioned, I think they do have a tendency to be 
a tad on the bureaucratic side and to focus perhaps more on the 
legal niceties than on getting the job done in some cases. But 
I think overall they are doing as well as we can generally 
expect these international institutions to do, and I think that 
money would be well spent and well invested.
    Senator Allard. And you are confident that--the $5 million 
to $10 million that we would put in there--does it go with 
strings attached, or is it flexible money?
    Dr. Bunn. It depends on what Congress tells the NNSA to do. 
I am sure that if Congress simply said it needs to go to the 
IAEA and let NNSA decide how, that NNSA would attach strings. 
There is no doubt in my mind about that. So I think that is up 
to Congress to say either give it as money that they can spend 
on their own priorities or allow NNSA to make sure that they 
spend it on NNSA priorities.
    I personally would prefer that at least a significant 
portion be available to the office without strings so that when 
they do encounter these unexpected opportunities to reduce 
risk, that they will have some money available to do that.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Dorgan. Thank you very much, Senator Allard.
    Senator Domenici, did you have any additional inquiry?
    Senator Domenici. Thank you, Mr. Chairman. If you do not 
mind, just a couple, I will not take long.
    Maybe I could ask Sig this question regarding North Korea. 
What do you make of the current reports of North Korea's 
nuclear cooperation with Syria? And then Israel bombed the 
major facilities. I have been briefed and seen what I am 
permitted to see that I cannot bring here, but I know Israel 
did wipe out a major facility that was shown before its being 
bombed and the evidence indicating that it was a nuclear bomb 
facility.
    What do we do about and what is your thinking about North 
Korea doing these kinds of things while we are working with 
them? Would it be credible that they would negotiate something 
honestly while they are doing this kind of thing with Syria?
    Dr. Hecker. My opinion is that the CIA in its revelations a 
week ago made a very credible case that the facility in Syria 
was a nuclear reactor. They made a credible case that most 
likely North Korea built that reactor with Syria. So I 
personally believe there was a very strong connection between 
North Korea and Syria. It is a collaboration that had been 
ongoing at least for the last half a dozen years or so and 
perhaps planned for the last dozen years or so. And it went on 
at least until the time that Israel bombed it.
    In terms of the immediate risk, of course, it turns out 
Israel took care of the immediate risk because Syria itself 
does not appear to have the capabilities to have done much with 
that, and that is why it, in essence, needed the turnkey 
operation.
    This to me, in terms of our relationship with North Korea, 
is the most troubling. And my own sense with North Korea has 
been sort of a two-pronged approach, all of it based on making 
certain that the actions we take with North Korea actually 
reduce the risks to us. And that is, first, make sure that they 
make no more plutonium, and that is where disabling and 
dismantling the Yongbyon facilities come in. And that has to 
remain first priority. No Yongbyon, no more plutonium, no more 
bombs, and no better bombs. That is key.
    The second is no export. The key thing is the export of the 
plutonium. There cannot be export of plutonium. I personally 
believe that there was not because North Korea had so little. 
Again, if they make no more, the chance of exporting plutonium 
goes down.
    However, then the next risk is exporting the nuclear 
technologies such as building the reactor. And quite frankly, 
to me what is of much greater concern is that export occurred 
to Iran rather than Syria. Syria in the end cannot do much with 
it, but Iran could do much with it.
    And so that has to be the next point to press with North 
Korea in our negotiations. I do not believe that all of that is 
going to be forthcoming right now in the declaration. I think 
it is more important to go ahead and eliminate Yongbyon and 
then make certain that we walk down the path because what Syria 
has demonstrated is that in spite of the fact that we have been 
watching so closely--we think our technical national means are 
so good--they built a whole reactor under both ours and the 
Israelis' watchful eyes. How did they do it? What does that 
mean in terms of international proliferation rings? These are 
very serious issues to all of the questions that you have put 
on the table. North Korea could actually now help us unravel 
that, and that is the place where we have to press them. But 
let us shut down Yongbyon first. That is my view.
    Dr. Bunn. Let me just add that in one respect the Bush 
administration has done a better job than Will Tobey admitted 
in that the October 3, agreed statement does, in fact, commit 
the North Koreans not to export any nuclear technology or 
materials. Now, our ability to verify that, of course, is 
another question, but there is the commitment in place signed 
by the North Koreans. And the North Koreans have repeatedly 
reiterated that commitment, including in Sig's most recent 
trip. So I think that is very critical. The North Koreans have 
heard the message that that is a red line for us and they have 
committed not to cross that red line.
    Senator Domenici. What is going on that makes North Korea, 
in your opinion, willing to make any agreements with our world 
versus theirs? Why do you think they would do this?
    Dr. Hecker. I am sorry, Senator.
    Senator Domenici. Why will they enter into agreements and 
carry them out with the United States and others? Are we giving 
them something that they need? Are we going to help them feed 
their people? Why would they do this?
    Dr. Hecker. I am best at evaluating their capabilities, not 
necessarily their intent. But having been there a number of 
times, I actually believe that they recognize that their 
economy is in serious trouble. They have to do something to 
feed their people. They actually do view, in my opinion, the 
United States as the key to that. The United States holds the 
key to international commerce, and even though the Chinese and 
the South Koreans are helping to feed the North Koreans now, in 
the end, the North Koreans recognize unless they strike some 
sort of a deal with the United States, they are not going to be 
able to get out of the economic hole that they are in. I 
personally believe that is why they are trying to make the deal 
with the United States.
    Senator Domenici. Well, let us hope we remain economically 
strong enough for their belief in us to be a reality. I am not 
sure of that.
    Senator Feinstein, since you talked about something a 
moment ago, might I say that on the Los Alamos layoffs, there 
is a very different flow of those people leaving and what were 
the people leaving doing--it is much different than Lawrence 
Livermore. Nonetheless, it is a serious problem, and I would 
say your willingness to try to do something about it--I will 
join you. I have talked to the chairman enough about it. I 
think he would.
    The problem is we do not have anyone that understands this 
problem that is in the business of allocating the money that 
goes to the various subcommittees. If somebody allocating knew 
that we cannot take care of the laboratories and the water 
programs, the Corps of Engineers programs on the money that is 
being given to us--we have to trade off water programs for the 
laboratories. God only knows, nobody would ever have thought we 
would be doing that, but that is the budget we have got. The 
big, giant Corps of Engineers--and everybody wants that, and 
that is to be matched up with the most vital science part of 
the national budget that there is, the national laboratories. 
It is kind of a crazy thing.
    I managed to get by for about 12 years doing it, but it is 
coming to a head as the squeeze is put on the discretionary 
domestic programs. We get knocked in the head on that on our 
side. So do you. So I do not know how to solve it, but I am 
willing to try with the chairman who knows our allocation must 
go up or we will have the same problem again.
    Senator Dorgan. Well, if I might say, our allocation is a 
serious problem. As you know, last year we went through--this 
is very destructive, this process that we are in, where we do 
not even get appropriations out until December or perhaps 
January because then you are 4 months into a fiscal year 
running a laboratory without any notion of what kind of 
resources are going to come your way.
    But the fact is--there is lots of responsibility on all 
sides for this. We get an executive budget that cuts to the 
bone domestic discretionary, and our subcommittee cuts $1 
billion out of water projects in the Corps and the Bureau in 
this year. We are not going to do that, but that is what the 
executive budget does.
    Then the President says I want $196 billion in this fiscal 
year as an emergency for Iraq and Afghanistan, and then we add 
in the appropriations process for this fiscal year $21 billion 
on domestic discretionary. The President says I am going to 
veto all those bills. So we are at a standoff.
    Now, Senator Domenici is correct that within the confines 
of the resources we have available, trying to negotiate with a 
President that last year said I do not intend to negotiate, it 
is going to be my way on domestic discretionary--within the 
construct of that, as Senator Domenici is talking about, what 
kind of allocation do we get in this subcommittee versus other 
subcommittees? But frankly, the whole system is broken at this 
point.
    And I just want to make a point that I think that if we 
continue down this road, we are going to dramatically weaken 
and injure all of our national laboratories, and I have said 
before these are national treasures. These are repositories of 
investment--they are investments in the future, repositories of 
vast amount of knowledge and talent. And if we lose that, we 
will lose a lot more than just a few layoffs or even thousands 
of layoffs, as the Senator from California indicated. We need 
to find a way, even outside of the discussion about should 
there or should there not be an RRW, even outside of those 
issues, to stabilize the employment levels at our national 
laboratories so that they can continue to attract our best and 
brightest and continue to do the work that gives us the 
innovation for the future. We are going to try to do that.
    But boy, I am telling you, I think the entire system is 
broken. It starts at the White House and continues on through 
here. I think the President and the Congress have to understand 
what we are going to lose if we continue down this road.
    Senator Feinstein. If I may, Mr. Chairman. I agree with 
what both of you said, what Senator Domenici said. After 
listening to Mr. Anastasio talking to the head of the nuclear 
agency, what they are doing is accommodating the people to the 
budget, which is dropping dramatically. That also changes the 
mission.
    What we do not know is how the mission of the labs is going 
to be changed by this, and I think we ought to know it. Now 
that there is competition and privatization in these labs, how 
exactly is that mission going to change? I do not want to get 5 
years down the pike and find out that something dreadful is 
really happening at the labs that we did not know about, and 
this worries me greatly. So I would hope that we can get the 
actual figures. We can talk with people who know.
    Mr. D'Agostino tells me, well, they are going more into 
nonproliferation. What exactly does that mean? What do they do? 
Are they selling? What are they selling? So I think we need to 
know the answers to these questions, and I look forward to 
working with you.
    Senator Dorgan. Let me just say that I consider this a 
priority, and I think our staffs will work with us to try to 
determine, within the confines of the rather broken system we 
are working in at the moment--we need to find a way to 
strengthen and try to provide some stability for our national 
laboratories. So that will be a priority for this subcommittee.
    As you know, we probably will mark up sometime in late May 
or early June in a subcommittee, and then go to a full 
committee markup. And I guess the question this year is going 
to be will there be negotiations with the White House--if so, 
when--on domestic discretionary. But we have taken a pretty 
good whack on the domestic discretionary recommendations in the 
President's budget. Last year he did the same and said I am not 
going to negotiate from that point really. Again, there is lots 
of responsibility on all sides for this. We have to try to get 
this right.
    Dr. Hecker, you wanted to comment?
    Dr. Hecker. Yes, Mr. Chairman, Senator Domenici, Senator 
Feinstein. Senator Feinstein, you raise a question that is very 
near and dear to my heart. For 34 years, I worried precisely 
about that and especially the 12 years as director at Los 
Alamos.
    Just to briefly comment. To me it takes three things that 
we need to sort out. One you have mentioned is the mission. 
Quite frankly, as Senator Domenici knows, in 1992 when the 
Soviet Union collapsed, we had to struggle with that, but we 
found a mission. We decided what the laboratories needed to do 
from a national interest. I think the mission can also be 
redefined, but obviously, somebody has to do it. The mission is 
still there. So, first, mission.
    Second, budget and you have mentioned that. Clearly, the 
budget is important. I will not need to elaborate on that.
    But third no one has mentioned, and it is actually in my 
opinion the most important, and that is the environment at 
these laboratories. When we went the direction of 
contractorization, we made a grievous error of pushing these 
laboratories in a direction that simply is not right for this 
country, and we have suffered from that. The whole environment 
at these laboratories has changed.
    Second, over the last, I would say, now 16 years, the 
regulatory environment at these laboratories has become so 
risk-averse that we essentially cannot get work done anymore. 
In 1965, I came to Los Alamos as a young student because it was 
the best place to go work. Unfortunately, these laboratories 
today are not the best places to go work anymore, and we need 
to make them such. And just more money does not do the trick. 
We have to change the working environment to allow people to 
get their work done. These places nowadays look more like 
prisons than they look like university campuses or something in 
between, which is what we tried to make them. Attract the best, 
protect the most important. We have lost the sense of all of 
that. That is one of the reasons why these laboratories are 
suffering today.
    So, Mr. Chairman, when you say the system is broken, it is 
broken in many different ways, and we should fix. I agree.
    Senator Domenici. What did you say? When we moved toward 
what? Privatization you said?
    Dr. Hecker. I am sorry.
    Dr. Bunn. He said contractorization.
    Dr. Hecker. Oh, I am sorry. The contractorization to 
actually move the system, as Senator Feinstein has pointed out, 
to limited liability corporations, companies that are for-
profit companies where we are paying enormous amounts to have 
these laboratories run. These laboratories used to be run as a 
public service for the United States of America. They should 
not be run for profit. What we do in essence is a semi-
government function.
    Senator Feinstein. The University of California did this as 
a public service to the country.
    Dr. Hecker. Correct.
    Senator Feinstein. And now essentially they are replaced by 
private companies that charge substantial fees.
    Senator Dorgan. At a recent hearing, we developed that 
point, that there is a substantial increase in costs as well. 
And I think there is a difference in culture I think is what 
you are referring to.

                         CONCLUSION OF HEARING

    Let me thank both of you for being here and contributing to 
the subcommittee.
    This hearing is recessed.
    [Whereupon, at 11:39 a.m., Wednesday, April 30, the subcom
mittee was recessed, to reconvene subject to the call of the 
Chair.]


</pre></body></html>
